<html>
<title> - [H.A.S.C. No. 112-36] NATIONAL DEFENSE AUTHORIZATION ACT
FOR FISCAL YEAR 2012 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TWELFTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-36]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2012

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                    BUDGET REQUEST FOR DEPARTMENT OF

                      ENERGY ATOMIC ENERGY DEFENSE

                      ACTIVITIES AND DEPARTMENT OF

                    DEFENSE NUCLEAR FORCES PROGRAMS

                               __________

                              HEARING HELD
                             APRIL 5, 2011


                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13

                                     


                    SUBCOMMITTEE ON STRATEGIC FORCES


                     MICHAEL TURNER, Ohio, Chairman
TRENT FRANKS, Arizona                LORETTA SANCHEZ, California
DOUG LAMBORN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
MAC THORNBERRY, Texas                MARTIN HEINRICH, New Mexico
MIKE ROGERS, Alabama                 JOHN R. GARAMENDI, California
JOHN C. FLEMING, M.D., Louisiana     C.A. DUTCH RUPPERSBERGER, Maryland
SCOTT RIGELL, Virginia               BETTY SUTTON, Ohio
AUSTIN SCOTT, Georgia
                 Kari Bingen, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Tuesday, April 5, 2011, Fiscal Year 2012 National Defense 
  Authorization Budget Request for Department of Energy Atomic 
  Energy Defense Activities and Department of Defense Nuclear 
  Forces Programs................................................     1

Appendix:

Tuesday, April 5, 2011...........................................    49
                              ----------                              

                         TUESDAY, APRIL 5, 2011
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
DEPARTMENT OF ENERGY ATOMIC ENERGY DEFENSE ACTIVITIES AND DEPARTMENT OF 
                    DEFENSE NUCLEAR FORCES PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Strategic Forces.......................     4
Turner, Hon. Michael, a Representative from Ohio, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Benedict, RADM Terry, USN, Director, Strategic Systems Programs, 
  U.S. Navy......................................................    38
Chambers, Maj. Gen. William A., USAF, Assistant Chief of Staff, 
  Strategic Deterrence and Nuclear Integration, U.S. Air Force...    36
D'Agostino, Hon. Thomas P., Administrator, National Nuclear 
  Security Administration, U.S. Department of Energy.............     5
Triay, Hon. Ines R., Ph.D., Assistant Secretary for Environmental 
  Management, U.S. Department of Energy..........................     8
Weber, Hon. Andrew, Assistant Secretary of Defense for Nuclear 
  and Chemical and Biological Defense Programs, Office of the 
  Secretary of Defense...........................................    35
Winokur, Hon. Peter S., Ph.D., Chairman, Defense Nuclear 
  Facilities Safety Board........................................    10

                                APPENDIX

Prepared Statements:

    Benedict, RADM Terry.........................................   153
    Chambers, Maj. Gen. William A................................   146
    D'Agostino, Hon. Thomas P....................................    58
    Sanchez, Hon. Loretta........................................    56
    Triay, Hon. Ines R...........................................    99
    Turner, Hon. Michael.........................................    53
    Weber, Hon. Andrew...........................................   131
    Winokur, Hon. Peter S........................................   110

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Franks...................................................   167
    Mr. Turner...................................................   167

Questions Submitted by Members Post Hearing:

    Mr. Heinrich.................................................   190
    Mr. Larsen...................................................   188
    Ms. Sanchez..................................................   179
    Mr. Turner...................................................   171
  FISCAL YEAR 2012 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
DEPARTMENT OF ENERGY ATOMIC ENERGY DEFENSE ACTIVITIES AND DEPARTMENT OF 
                    DEFENSE NUCLEAR FORCES PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                            Washington, DC, Tuesday, April 5, 2011.
    The subcommittee met, pursuant to call, at 11:34 a.m. in 
room 2212, Rayburn House Office Building, Hon. Michael Turner 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM 
        OHIO, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. I call to order the meeting of the subcommittee 
and I would like to extend a warm welcome to our first panel of 
witnesses today, Mr. Tom D'Agostino, Administrator of the 
National Nuclear Security Administration, Dr. Ines Triay, 
Assistant Secretary of Energy for Environmental Management and 
Dr. Peter Winokur, Chairman of the Defense Nuclear Safety 
Board.
    I welcome all of you and thank you for your dedication.
    This annual nuclear budget hearing has typically focused 
solely on the Department of Energy, DOE, and National Nuclear 
Security Administration, NNSA.
    However, the Department of Defense also has a significant 
role in maintaining our Nation's nuclear deterrent and is the 
primary customer for NNSA's weapons activities, is directly 
responsible for shaping many of NNSA's plans and programs. 
Therefore, I have asked three key DOD [Department of Defense] 
leaders to testify in a second panel on the Department's 
nuclear programs and budgets and the linkages with NNSA.
    And I would also like to welcome these individuals, Mr. 
Andrew Weber, Assistant Secretary of Defense for Nuclear, 
Chemical and Biological Defense Programs and Staff Director of 
the Nuclear Weapons Council, Major General William Chambers, 
Assistant Chief of Staff of the Air Force for Strategic 
Deterrence and Nuclear Integration, and Rear Admiral Terry 
Benedict, Director of the Navy's Strategic Systems Programs.
    Remarkably, a strong bipartisan and bicameral consensus has 
been forged over the need for nuclear modernization. This way 
was paved 2 years ago, with the important work done by the 
bipartisan Strategic Posture Commission, led by Dr. William 
Perry and Dr. James Schlesinger.
    Less than 2 weeks ago, all 16 members of this subcommittee 
sent a letter to the Budget Committee, urging them to support 
NNSA's funding increases and to ensure that such funds are 
categorized as national defense.
    The Nuclear Posture Review and the Section 1251 Report made 
many promises with respect to the modernization of our nuclear 
warheads, delivery systems, and infrastructure.
    Based on what I have seen thus far of the fiscal year 2012 
budget requests, I am encouraged that the Administration 
appears ready to honor these promises.
    But there is much work that needs to be done, and my focus 
today is to understand exactly how these programs are being 
implemented and the plans, programs and budgets of NNSA and 
DOD.
    NNSA has outlined a tightly choreographed warhead life 
extension plan over the next two decades that meets DOD's 
requirements, matches its availability, its variable capacity 
and work force, and syncs to its infrastructure modernization 
plans.
    Any perturbations in this plan or changes in funding have 
wide reaching implications.
    To this end, I am particularly concerned about the B61 
[nuclear bomb] life extension program, LEP. Despite specific 
time line requirements, the magnitude of the B61 LEP will not 
be known until cost and design studies are completed later this 
year. NNSA has been unable to start the W78 [thermonuclear 
warhead] life extension program, which will also explore the 
feasibility of a common ICBM [intercontinental ballistic 
missile] and SLBM [submarine-launched ballistic missile] 
warhead due to limitations in the continuing resolution.
    I would ask Administrator D'Agostino to discuss how these 
programs are being managed to minimize schedule and cost risk.
    I am also concerned about NNSA's two major construction 
projects at Los Alamos and Y-12 [National Security Complex].
    This year's budget request includes revised cost estimates 
for both projects, based on a 45 percent completion design, 
which are significantly higher than earlier estimates.
    Despite the cost growth, only $340 million has been added 
to the Future-Years Nuclear Security Program, FYNSP, and the 
majority of the construction funds will come outside the FYNSP. 
I would like to understand what is driving these costs and how 
NNSA plans to simultaneously manage these large-scale 
construction projects.
    The $4.1 billion increase in modernization funding 
contained in last November's 1251 Report is welcome, but upon 
further inspection, is a bit misleading. Of the $4.1 billion 
added to the Future-Years Nuclear Security Program, $1.5 
billion of this, or 37 percent, is allocated to employee 
pension plans, not modernization.
    I am open to any ideas that could give NNSA and its 
contractors greater flexibility in meeting their pension 
obligations.
    On the DOD side, the NPR [Nuclear Posture Review] and 1251 
Report described plans for the sustainment and modernization of 
several DOD systems, including a new bomber, dual-capable 
aircraft and a new cruise missile, a potential ICBM follow-on, 
the Ohio-class replacement submarine, the Trident D5 
[submarine-launched ballistic missile] life extension program, 
a new joint Air Force-Navy fuze replacement program, and the 
nuclear command and control infrastructure. This is a 
tremendous to-do list.
    Does the budget request merely contain placeholders for 
these plans or are there concrete activities associated with 
each?
    I am also concerned about the solid rocket motor industrial 
base and I know that Admiral Benedict's budget, in particular, 
has increased to accommodate rising costs to sustain this 
important capability.
    Another issue that I am closely watching is the 
implementation of the New START [Strategic Arms Reduction 
Treaty] Treaty. We have yet to see exactly how DOD will 
implement the force reductions in the treaty or the associated 
funding requirements. However, senior Administration officials, 
including the President's national security advisor, have 
already commented that, ``We are making preparations for the 
next round of nuclear reductions'' and that, ``The Department 
of Defense will develop options for further reductions in our 
current nuclear stockpile.''
    It would seem to me that we need to understand and work 
through the details of how to smartly implement New START 
before rushing towards another round of reductions.
    Additionally, and I have said this in previous years, I 
remain concerned about nuclear safety and security.
    There is no margin for error in the nuclear business.
    I would appreciate our witnesses discussing their efforts 
to address nuclear safety and security, including Dr. Winokur's 
safety assessment of our nuclear facilities and operations.
    In the area of Environmental Management, I would welcome 
Dr. Triay's update on EM [Environmental Management] progress to 
date, her priorities, and the challenges ahead. Additionally, 
our committee included a provision in last year's defense bill 
to authorize the establishment of energy parks on former 
defense nuclear facilities.
    Miamisburg Mound in my district in Ohio was once a key Cold 
War-era nuclear production facility and, after an extensive 
cleanup effort, has been redeveloped into a business park for 
high-tech companies. It is certainly one of the success stories 
in the cleanup process and is a candidate for channeling the 
community's legacy nuclear expertise into new energy research.
    I have also asked Deputy NNSA Administrator Harrington to 
participate in today's hearing to address member questions on 
nuclear nonproliferation. This issue is handled at the full 
committee level, but we have been given approval by Chairman 
McKeon to discuss it today with our expert witnesses.
    There is strong bipartisan support to keep dangerous 
material out of the wrong hands, especially for the urgent task 
of identifying, securing, and reducing foreign sources of 
potential nuclear and radiological threats.
    The committee is also closely monitoring plans to build 
nuclear centers of excellence in China and India to understand 
their scope and how DOD and NNSA funding would be used.
    On a final note, I would want to make it clear that while 
our subcommittee supports the increase in nuclear funding, we 
do not write blank checks.
    We will continue to conduct rigorous oversight of the 
nuclear portfolio, seek out areas for cost savings and 
efficiencies, and make budget modifications consistent with our 
oversight findings.
    I would like to thank our witnesses for being with us 
today. Your leadership and expertise is greatly appreciated.
    And with that, I would like to turn to my ranking member, 
Ms. Sanchez, for her opening comments.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 53.]

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
  CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Ms. Sanchez. Thank you, Chairman Turner.
    Thank you, again, to all of you for being before us. Thank 
you for, several of you, secretary and others, who met with us 
ahead of time to discuss some of the issues, and I know that 
that brought a whole bunch of other questions.
    So I am hoping that--it is a busy morning, but that more of 
our members show up to ask those questions. If not, you will 
have a lot for the record, I am sure.
    I would like to touch on a few specific issues related to 
nuclear nonproliferation, nuclear cleanup, and sustaining our 
nuclear deterrent and our nuclear forces.
    First, I have been very concerned about the delays in the 
urgent nuclear nonproliferation effort stemming from the 
continuing resolution. Even securing all vulnerable weapons-
usable material in 4 years remains one of the most pressing 
national security issues that we have.
    I am also interested in hearing about interagency 
coordination and how the Department of Defense supports nuclear 
nonproliferation activities and what opportunities and 
challenges still remain for cooperative threat reduction.
    Next, the nuclear cleanup remains an important priority; 
sites like Hanford and Savannah River site, played a unique and 
irreplaceable role during the Cold War and now we must make 
diligent and quick progress toward cleanup. So I would like to 
hear a little of that.
    I look forward to the opportunity to hear about the 
progress made.
    Especially, because I know we put monies in the stimulus 
package to be able to do that. And what problems and pitfalls 
still remain with respect to that?
    Third, President Obama and Vice President Biden have made 
clear the importance of maintaining a safe, secure and reliable 
nuclear arsenal without nuclear testing, especially in the 
context of nuclear weapons reductions. And so I look forward to 
hearing about how the fiscal year 2012 budget request will 
strengthen the Stockpile Stewardship Program.
    Several challenges loom ahead, including how NNSA will 
oversee concurrent construction, on time and on budget, of the 
Chemistry and Metallurgy Research Replacement, or the CMRR, 
facility at Los Alamos National Laboratory and of the Uranium 
Processing Facility at Y-12.
    And I would also like to hear about how the fiscal year 
2012 budget request supports surveillance activities, 
verification and dismantlement of nuclear weapons.
    And I would like to hear the discussion of the Department 
of Defense's plans for sustaining and replacing our nuclear 
forces in the context of the New START force reduction and 
potential further nuclear reductions and what cost savings, if 
any, are being considered there.
    I would also like to specifically point to the challenges 
sustaining the industrial base, with regard to our solid rocket 
motors in the wake of NASA's [the National Aeronautics and 
Space Administration's] cancelling its Constellation program 
and what the cost impact will have for the Department of 
Defense.
    And finally, I would like to hear about progress made on 
spring cleaning the nuclear enterprise culture within the Air 
Force. Retaining, developing and recruiting all those critical 
skills remain essential for the nuclear mission at DOD, as well 
as NNSA.
    So, again, welcome to all of our guests and, Mr. Chairman, 
I also want to remind you or mention that at 12:30, we have a 
Democratic meeting. So most of us will be leaving for that, but 
should come back once that is done.
    Thank you.
    [The prepared statement of Ms. Sanchez can be found in the 
Appendix on page 56.]
    Mr. Turner. Very good.
    And now, we will turn to the first of three witnesses and 
ask each to summarize his or her statement in about 5 minutes.
    We will then proceed to member questions and then 
transition to the second panel.
    Mr. D'Agostino, the floor is yours.

STATEMENT OF HON. THOMAS P. D'AGOSTINO, ADMINISTRATOR, NATIONAL 
   NUCLEAR SECURITY ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Secretary D'Agostino. Thank you, Chairman Turner, Ranking 
Member Sanchez, for the opportunity to address the committee 
today.
    I would also like to take the opportunity to recognize my 
Principal Deputy Administrator Neile Miller and Deputy 
Administrator Don Cook, who are both with me, in addition to 
Deputy Administrator Harrington, as you mentioned earlier in 
your remarks.
    They are seated behind me.
    I would like to thank you and the committee for your 
continued support of the Department of Energy and the National 
Nuclear Security Administration and the 35,000 men and women 
working across our enterprise to keep our country safe, protect 
our allies, and enhance global security.
    We couldn't do this work without strong support, bipartisan 
support, and engaged leadership in Congress.
    I come before you today to discuss the President's budget 
request for the NNSA, the capabilities we offer the Nation and, 
indeed, the world right now are on display.
    As you know, the earthquake and tsunami that struck Japan 
on March 11, 2011, caused significant damage to the nuclear 
power plants there, releasing radioactive materials into the 
environment.
    First and foremost, our thoughts and prayers are with the 
Japanese people as they deal with this crisis. To assist in the 
response, the Department deployed 45 people and over 17,000 
pounds worth of equipment to Japan, including NNSA's Aerial 
Measuring System and our Consequence Management Response Teams.
    They are on the ground, utilizing their unique skills, 
expertise, and equipment in partnership with Japan to help 
address the situation.
    While these teams are at the tip of the spear here at home, 
we have teams working around the clock at Lawrence Livermore 
National Laboratory and at our Remote Sensing Laboratory in 
Nevada, working on the information and putting together 
products that can be used by the Defense Department, the 
interagency team and the Japanese Government to understand what 
is happening on the ground.
    Everyone in the NNSA understands the important role we are 
playing with this tragedy. It shows the commitment to service 
and excellence that mirrors our work and the important--and, 
frankly, highlights the resources President Obama has requested 
for the NNSA.
    The budget request seeks to make critical investments in 
the future of our enterprise, which will allow us continue to 
implement the President's nuclear security agenda. As I see it, 
the request can be broken down into three key themes.
    First, we are investing in our future. President Obama has 
committed to invest more than $85 billion over the next decade 
to ensure the safety, security and effectiveness of our nuclear 
stockpile, and to modernize the infrastructure and revitalize 
the science and technology base that supports the full range of 
our nuclear security missions.
    As part of that commitment, the budget request provides $76 
billion for our Weapons Activities account to support our 
efforts to leverage the best science and technology in the 
world to maintain our deterrent.
    This will enable us to enhance our surveillance of the 
stockpile, proceed with key life extension programs, and 
continue to design and modernize the facilities we need to 
maintain our Nation's expertise in uranium processing and 
plutonium research and development.
    Investing in a modern, nuclear security enterprise is 
critical to our stockpile stewardship program. But it also 
supports the full range of the nuclear security mission, which 
brings me to the second key theme in this budget request, which 
is implementing the President's nuclear security agenda.
    President Obama has made strengthening nuclear security and 
the nuclear nonproliferation regime one of his top priorities. 
As he said in his speech in Prague in April 2009, almost 
exactly 2 years ago to the date, the threat of a terrorist 
acquiring and using a nuclear weapon is the most immediate and 
extreme threat we face.
    Preventing the spread of nuclear weapons and keeping 
dangerous nuclear material out of the hands of terrorists is a 
vital national security priority. These are, without a doubt, 
national security programs, and I hope this committee and the 
Congress will treat them as such.
    To address that threat, we are requesting $2.5 billion in 
2012 and more than $14.2 billion over the next 5 years for our 
Nuclear Non-Proliferation programs.
    This will provide the resources required to meet the 
commitments secured during the 2010 Nuclear Security Summit. 
For fiscal year 2011, it includes $1 billion to remove and 
prevent the smuggling of dangerous nuclear material around the 
world and enable NNSA to continue to lead the international 
efforts to implement more stringent standards for the physical 
protection of nuclear material and for nuclear facilities 
worldwide.
    To power the nuclear Navy, President Obama has requested 
$1.1 billion for NNSA's Naval Reactors program. This will allow 
us to continue the design work on a propulsion unit for the 
Ohio-class replacement submarine, in order to meet the Navy's 
required procurement date of 2019.
    It includes critical investments in modern and sustainable 
spent fuel infrastructure at the naval reactors facility at 
Idaho National Laboratory.
    And, finally, it seeks the resources to refuel the land-
based prototype in upstate New York.
    Mr. Chairman, I realize that this committee has many 
competing requirements. And while I believe that nothing is 
more important than ensuring our Nation's security, we also 
recognize that this request comes at a time of acute financial 
stress for our entire country.
    It is my responsibility to show to you that we can manage 
those resources wisely.
    This brings me to the third theme, outlined in this 
request, and that is our commitment to improving the way we do 
business and manage our resources.
    Together, we are working with our M&O [management and 
operations] partners to streamline our governance model, to 
devote more resources to critical mission work and maximize our 
ability to complete our mission safely and securely. We are 
making sure that we have the right contracting strategy in 
place.
    We are improving our project management by ensuring we have 
qualified project managers leading our major projects, setting 
cost and schedule baselines on construction projects when 
design work is 90 percent complete, subjecting those estimates 
to rigorous independent reviews and placing a renewed focus 
across our organization on sound project management.
    That is why we recently created a new policy and oversight 
office for managing major projects that reports directly to me. 
This will help ensure that project management gets the senior-
level, high-level, focus that it deserves.
    And we are continuing to find ways to save money across our 
enterprise. For example, since 2007, our Supply Chain 
Management Center has used new technologies and pooled 
purchasing power to drive efficiencies across our sites.
    This result has been more than $213 million in auditable 
cost savings.
    All of this is part of our effort to create one NNSA, a 
true partnership and an integrated enterprise between all our 
programs and our partners to fulfill our continuing missions.
    Taken together, these steps will ensure that we have a 
modern 21st century nuclear security enterprise that is safer, 
more secure, more efficient, and organized to succeed.
    That is the vision outlined in this budget request. It 
supports the full range of NNSA missions. More importantly, it 
invests in the infrastructure, the people, and the science and 
technology required to fulfill our mission and to make the 
world a safer place.
    I look forward to working with the members of this 
committee, and with that, I would be happy to take your 
questions.
    [The prepared statement of Secretary D'Agostino can be 
found in the Appendix on page 58.]
    Mr. Turner. Thank you. Dr. Triay.

STATEMENT OF HON. INES R. TRIAY, PH.D., ASSISTANT SECRETARY FOR 
      ENVIRONMENTAL MANAGEMENT, U.S. DEPARTMENT OF ENERGY

    Secretary Triay. Thank you.
    Good afternoon, Chairman Turner, Ranking Member Sanchez and 
members of the subcommittee.
    I am pleased to be here today and to address your questions 
regarding the Office of Environmental Management's fiscal year 
2012 budget request.
    The fiscal year 2012 budget request of $6.1 billion will 
protect human health and the environment, through the safe 
environmental cleanup of past nuclear weapons development and 
Government-sponsored nuclear energy research.
    The Office of Environmental Management's primary 
responsibility is to keep our employees, the public, and the 
states where cleanups are located safe from radioactive and 
hazardous materials contamination.
    We continue to adhere to a safety-first culture that 
integrates environment, safety, and health requirements and 
controls into all work activities.
    Over the last two decades, the Office of Environmental 
Management's compliance posture has evolved to where we have a 
well-defined and established relationship with our regulators.
    The fiscal year 2012 budget request maintains a compliant 
position, by honoring regulatory commitments.
    There are approximately 40 cleanup agreements that provide 
a framework for cleaning up the Cold War legacy that EM will 
continue to abide by.
    The Office of Environmental Management's goal in fiscal 
year 2012 is to meet 100 percent of its enforceable agreement 
milestones that are located within cleanup agreements.
    For example, our fiscal year 2012 budget fully funds the 
Tri-Party Agreement settlement with Washington State as well as 
the Transuranic Waste Retrievals at Idaho, that are consistent 
with terms of the Idaho Settlement Agreement.
    In addition to keeping our program running safely and 
efficiently, the Office of Environmental Management enables key 
operations of the Department's defense complex, including the 
National Nuclear Security Administration.
    For instance, our management of special nuclear materials, 
spent nuclear fuel and transuranic waste allows NNSA to 
continue to carry out their mission. Our fiscal year 2012 
budget request supports NNSA's critical defense activities, 
through the continued environmental cleanup work that maintains 
compliance at NNSA's own sites.
    Over the past 2 years, the Office of Environmental 
Management has made significant progress in accelerating 
environmental cleanup across the departmental complex.
    We estimate that by the end of fiscal year 2011, the 
acceleration of excess facilities decontamination and 
decommissioning and cleanup of contaminated areas will reduce 
the legacy cleanup footprint by 40 percent. This will lead to 
approximately 90 percent footprint reduction by 2015.
    In terms of square miles, we project that by the end of 
fiscal year 2011, the footprint will have been reduced from 900 
square miles to 540 square miles. By 2015, it is envisioned 
that the footprint could be reduced to 90 square miles.
    Footprint reduction efforts have resulted in estimated cost 
avoidances of approximately $3 billion and cost savings of 
approximately $4 billion, for a total of $7 billion in life-
cycle costs.
    In fiscal year 2012, the continued management and removal 
of legacy transuranic waste from generator sites will directly 
support risk reduction and aid in the goal of reducing site 
footprint.
    We estimate that the disposition of 90 percent of legacy 
transuranic waste will be completed by 2015.
    The last few years, the Environmental Management program 
has been focusing on providing opportunities to small 
businesses to perform our environmental cleanup work.
    Recovery Act prime and sub contracts have awarded a total 
of $1.8 billion to small businesses. In addition, base, prime 
and sub contracts have awarded $1.7 billion to small businesses 
in fiscal year 2010.
    Overall, the feedback we have received from small 
businesses participating in the Recovery Act projects has been 
very positive. Recovery Act funds have allowed small businesses 
to enhance their competitive skills, pursue opportunities in 
new markets, sectors, and reinvest in their company's 
infrastructure.
    The Office of Environmental Management will continue to 
promote the usage of small businesses and identify future 
opportunities for small businesses to perform our environmental 
cleanup work.
    The Office of Environmental Management's continued progress 
in contracts and project management performance has resulted in 
our program meeting three of the five criteria needed to be 
removed from the Government Accountability Office highest-risk 
list.
    The GAO [Government Accountability Office] has noted that 
the Office of Environmental Management has demonstrated strong 
commitment and leadership, demonstrating progress in 
implementing corrective measures and develop a corrective 
action plan that identifies root causes, effective solutions 
and near-term plans for implementing those solutions.
    Currently we continue to work toward meeting all of the 
Government Accountability Office's requirements to be removed 
from the high-risk list.
    Mr. Chairman, ranking member and members of the 
subcommittee, I am honored to be here today representing the 
Office of Environmental Management. We are committed to 
achieving our mission in a safe, effective, and efficient 
manner. We will continue to apply innovative environmental 
cleanup strategies, so that we can complete quality work 
safely, on schedule and within costs, thereby demonstrating 
value to the American taxpayer.
    I am pleased to answer any questions you may have.
    [The prepared statement of Secretary Triay can be found in 
the Appendix on page 99.]
    Mr. Turner. Thank you, Dr. Triay.
    I want to acknowledge that Congressman Bishop has joined 
us, and I ask unanimous consent that Mr. Bishop of Utah, and 
other committee and non-committee members, if any, be allowed 
to participate in today's hearing after all committee members 
have had an opportunity to ask their questions.
    Before I recognize Dr. Winokur, I would like to acknowledge 
three Safety Board members joining him today and thank them for 
their service. If you would upon--acknowledge, raising your 
hand, so we can verify you.
    Ms. Robertson.
    Mr. Mansfield.
    Mr. Bader.
    Very good. Thank you for being here and thank you for your 
service.
    Dr. Winokur.

 STATEMENT OF HON. PETER S. WINOKUR, PH.D., CHAIRMAN, DEFENSE 
                NUCLEAR FACILITIES SAFETY BOARD

    Dr. Winokur. Thank you. Thank you, Mr. Chairman and members 
of the subcommittee.
    I am Peter Winokur, the Chairman of the Defense Nuclear 
Facility Safety Board, known as the DNFSB.
    I submitted a written summary for the record that describes 
the Board's mission and highlights a number of safety issues 
that are particularly important to ensuring that the defense 
nuclear complex can safely accomplish its missions. I will 
provide a brief overview for your consideration today.
    Our agency was established by Congress to provide safety 
oversight for the defense nuclear facilities operated by DOE 
and, now, NNSA. We are the only agency that provides 
independent safety oversight of DOE's defense nuclear 
facilities.
    The Board's budget is essentially devoted to maintaining 
and supporting an expert staff of engineers and scientists, 
nearly all of whom have technical Master's degrees or 
doctorates to accomplish our highly specialized work.
    The President's budget request for fiscal year 2012 
includes $29 million in new budget authority for the Board. 
This is $3 million more than fiscal year 2010. It will support 
120 personnel, the target we have been growing toward for 
several years. We believe this level of staffing is needed to 
provide safety oversight of DOE's defense nuclear complex, 
given the pace and scope of DOE's activities.
    The Board's safety oversight is geared around several broad 
safety issues.
    To begin with, we expend great effort to ensure that DOE 
preserves and continuously improves its safety directives. We 
are carefully evaluating the outcome of the DOE 2010 Safety and 
Security Reform Plan as well as DOE's follow-on initiative to 
compress its review process to expedite revision of seven 
health and safety directives essential to public and worker 
safety.
    At this time, DOE and NNSA are designing and building 
facilities with a total project cost of more than $20 billion. 
I cannot overstate the importance of integrating safety into 
the design of these facilities at an early stage. Failing to do 
so will lead to surprises and costly changes later in the 
process.
    The Board is committed to the early resolution of safety 
issues with DOE. To that end, we publicly document significant 
unresolved technical differences between the Board and DOE 
concerning design and construction projects in quarterly 
reports to Congress.
    The Board is continuing to urge NNSA to replace unsound 
facilities and invest in infrastructure for the future. The 
9212 complex at Y-12 and the Chemistry and Metallurgy Research 
Replacement building at Los Alamos are both well overdue for 
replacement.
    Last September, the Board issued its first report to 
Congress on aging and degrading facilities. We will update this 
report periodically to highlight the greatest infrastructure 
needs affecting safety of DOE and NNSA defense nuclear 
facilities.
    In addition to legacy facilities that need replacement, DOE 
and NNSA have large quantities of legacy nuclear materials 
awaiting disposition.
    DOE's preferred disposition for many materials has been 
chemical processing through the H-Canyon facility at the 
Savannah River site.
    On February 28, 2011, the Board wrote to the Secretary of 
Energy to express its concerns that the premature shutdown of 
H-Canyon could have significant, unintended safety 
consequences.
    I would like to highlight two final topics today.
    The first is the Board's evaluation of design changes at 
DOE's Hanford Waste Treatment and Immobilization Plan. The 
second deals with lessons learned from the March 11th 
earthquake in Japan.
    The Hanford Waste Treatment and Immobilization Plant, or 
WTP, is under design and construction at an estimated cost of 
more than $12 billion. This project is needed to convert 53 
million gallons of high-level waste stored in 177 tanks at 
Hanford, into glass for disposal.
    DOE began a major redesign of the project in 2009, with the 
design more than two-thirds complete and construction of major 
facilities between one-quarter and halfway done.
    The Board held a public hearing in October 2010, to discuss 
our three greatest safety concerns with WTP, which include its 
mixing and transfer systems, control strategies for flammable 
hydrogen gas and process systems, and whether the tank forms 
can deliver waste that meets the criteria needed for WTP to 
operate safely and effectively.
    The Board issued a formal recommendation to the Secretary 
of Energy on the need for large-scale testing of WTP's mixing 
and transfer systems after the public hearing. We are still 
evaluating the other issues as DOE continues to develop 
information.
    The March 11th earthquake in Japan provides a sobering 
reminder that nuclear facilities need to continually update 
their assessments of natural hazards and to be ready to respond 
to events that analysts consider beyond their design basis. 
Twelve days after the earthquake, the Secretary of Energy 
issued a safety bulletin on Events Beyond Design Basis 
Analysis, which requires DOE sites with Hazard Category 1 or 2 
nuclear facilities to assess their ability to respond to Beyond 
Design Basis accidents.
    We will track this activity closely and continue our own 
ongoing efforts to strengthen emergency preparedness at DOE's 
defense nuclear facilities.
    That ends my statement. I will be happy to answer any 
questions you may have.
    [The prepared statement of Dr. Winokur can be found in the 
Appendix on page 110.]
    Mr. Turner. Okay. Thank you.
    We are going to now turn to a 5-minute round of questions 
because we have so many members who are in attendance who want 
to ask questions. We are going to try to limit it to 5 minutes 
and then hopefully get to a second round with our goal of 
getting to the second panel with plenty of time for members to 
participate with the second panel.
    Mr. D'Agostino, both of my questions are going to be 
directed to you in the first round. And the first question goes 
to the issue of New START. As I indicated in my opening 
statement, everyone has a lot of questions about how New START 
will be implemented, and yet Administration officials are 
discussing further reductions to the stockpile, as evidenced by 
their own statements.
    NNSA's 2010 Stockpile Stewardship and Management Plan 
states, ``a modernized complex will enable further reductions 
in the stockpile over time.''
    Now, in looking at that statement, I assume that the 
converse of that is also true. Meaning that, it could be viewed 
as a constraint, also, for the reductions, until modernization 
of the complex is completed.
    What direction have you been given to look at further 
nuclear reductions beyond New START levels?
    Two, what specific warhead and facility modernization 
activities must be completed in order for NNSA to be 
comfortable with further stockpile reductions?
    And would it be advisable to make reductions in our hedge 
prior to the completion of the Chemistry and Metallurgy 
Research Replacement Facility, CMRR, at Los Alamos and the 
Uranium Processing Facility, UPF, at Y-12?
    And then secondly, I would like you to end with a 
commercial for NNSA as a national security funding item. As you 
know, with H.R. 1, initially, NNSA was identified as subject to 
a cut, as all of DOE was, which I think was problematic in that 
NNSA not being identified as national security.
    Working with Senator Kyl, we certainly hope to restore that 
on the Senate side, but also then continue to work on the House 
side, both with the Appropriations and Budget Committee, that 
item was corrected and restored in the last CR [continuing 
resolution]. No one, of course, at this point knows where we 
are going to be after this week.
    But we are certainly hopeful that in the next CR and, 
certainly, in the budget discussions in 2012 that NNSA will be 
viewed as national security and not subject to the cuts, but 
actually subject to the increases that are necessary in order 
to modernize and support the nuclear weapons infrastructure.
    So if you would end with a commercial on that, I would 
greatly appreciate it.
    Mr. D'Agostino.
    Secretary D'Agostino. Yes, thank you very much.
    Mr. Chairman, thank you very much for the questions.
    With respect to your first one, I have not been directed to 
reduce or to do studies on the size of the stockpile. It would 
be, to answer your question straight up, the plan that we have 
right now, the plan that we submitted in our Stockpile 
Stewardship and Management Plan, there is a particular--there 
is a classified piece of this. I won't go into those classified 
details, but I will answer you as specifically as I can.
    The Defense Department ultimately determines and makes 
recommendations to the President on the size of the stockpile. 
But one thing we have clear with the Defense Department and the 
National Nuclear Security Administration is our understanding 
that it is important to be able to demonstrate that our 
infrastructure is responsive and being able to respond to needs 
that the country may have.
    First of all, responsive in ability to take care of the 
existing stockpile that we have right now. And we have 
identified that in our plan as having a Uranium Processing 
Facility that is up and running, having a Chemistry and 
Metallurgy Research Replacement facility that is available to 
do the surveillance work on our stockpile and help support a 
modest amount of pit manufacturing capability.
    We have also identified this on our high explosive pressing 
capability. Right now, we are very limited in our ability to 
make the size of high explosives that we need in order to 
support the stockpile out into the future, and we have a 
project at the Pantex Plant in Amarillo to go off and replace 
that capability.
    These are just some examples of some infrastructure pieces 
that I believe will be necessary to demonstrate--not just 
build, but demonstrate the operation of--to show that we do 
have a responsive infrastructure, an infrastructure that can 
respond to national needs.
    The advisability piece of your question might be best 
deferred to my Defense Department colleagues who will be 
joining you on the second panel. But I would say there is a 
consistency in what I just said and in the plans that we 
submitted to Congress on that front.
    With respect to the National Nuclear Security 
Administration, the work we do is work on nuclear weapons, 
taking care of our stockpile; it is providing the propulsion 
systems for our submarines and aircraft carriers.
    It is about protecting nuclear material, so they do not get 
in the hands of terrorists. And it is providing the 
capabilities to respond to nuclear emergencies, including the 
emergency we have right now. It would be hard for me to imagine 
that that could not possibly be national security work.
    In addition to those four core mission areas, the entire 
national security mission areas, also assist the Government in 
being able to respond to other events, providing the 
capabilities to help the Missile Defense Agency knock a 
satellite out of the sky, which we did do 3 years ago with the 
Missile Defense Agency.
    It was the NNSA's classified supercomputers that helped 
provide the trajectory, direction, and verified and validated 
that when the satellite was hit, it wasn't just hit; it was a 
hydrazine tank that was in the satellite that was hit, which 
was an ultimate mission.
    So my view is that that is national security work through 
and through. And I will leave it at that, sir.
    Mr. Turner. Ms. Sanchez.
    Ms. Sanchez. Thank you, Chairman Turner.
    I also am concerned about the money side of what is going 
on, as we discussed before, Secretary.
    One of the impacts is the inability to remove all the 
highly enriched uranium from Belarus, as promised, by 2012.
    Are you concerned about those reductions? And has this 
impacted our efforts to secure nuclear materials?
    And how has this impacted your other non-proliferation 
programs? Since a lot of the funding--I am sorry, did you say 
something?
    Mr. Turner. Yes, we just wanted to note that Ms. Harrington 
is then going to join the panel for the purposes of the 
transcript.
    Ms. Sanchez. Oh, okay.
    Okay.
    So, back to my question.
    What is going on? What do we need to worry about here?
    Secretary D'Agostino. I will start the--and ask my 
colleague, Anne Harrington, who runs the day-to-day of the non-
proliferation program for me.
    We are deeply concerned about the reductions we had, 
particularly in fiscal year 2011. We had a very significant 
increase from our fiscal year 2010 request, specifically 
directed to work off of our goal, or the President's goal, of 
securing nuclear material, vulnerable nuclear material, within 
the next 4 years.
    And that required a sizeable increase in resources. We do 
have the scope of our work well-identified. You mentioned one 
of the countries. There are a number of others that we are 
working on right now as well.
    Without these resources, and of course we are 6 months into 
the fiscal year right now, without these resources, what we 
have been doing is, essentially, doing what I would call day-
to-day program management on this to try to minimize the impact 
on the specific projects we have of securing this material.
    I will let Ms. Harrington deal with the specifics of the 
countries and the like.
    So, Anne.
    Ms. Sanchez. Welcome, Ms. Harrington.
    Ms. Harrington. Thank you. Thank you, Chairman and thank 
you, Ms. Sanchez.
    The impact of the continuing resolution has been minimized 
to this point by a lot of active and almost daily review of 
budget allocations within the defense nuclear nonproliferation 
budget.
    We have tried our best to maintain an aggressive schedule 
for removing and protecting the vulnerable materials that have 
been identified around the world, but we are rapidly 
approaching the point where the trade-offs for continuing that 
very forward-looking schedule will become more and more 
difficult to maintain.
    For example, we are confronted with choices such as do we 
not deliver a detector for an Air Force-launched satellite that 
gives us our only capability to detect nuclear detonations 
around the world? Anywhere from the ground through space.
    Or do we reduce our efforts to install radiation detection 
equipment at container seaports around the world as we have 
been directed by Congress?
    Or do we implement other programmatic slowdowns or 
eliminations that would cause us to reduce capabilities in one 
aspect or another?
    But we have tried very hard, so far, because we realize we 
all need to make a contribution to reducing the deficit. But as 
the Administrator pointed out, these are national security 
trade-offs that we are making, and I would be untruthful if I 
were to say that the current situation has had no impact.
    Thank you.
    Ms. Sanchez. Thank you.
    I have a question for Dr. Triay.
    There was a lot of money put in the stimulus to work on 
cleanup. I have a lot of colleagues who say that that stimulus 
money wasn't spent well or its purpose wasn't very well 
defined.
    Can you talk a little bit about those particular monies and 
what progress you have made with those monies?
    And what challenges still remain for cleanup?
    Secretary Triay. Thank you very much.
    I believe that the Recovery Act, the portfolio of the 
Environmental Management program has been extremely well 
defined.
    We selected activities in the portfolio for which the 
Environmental Management program has a proven successful track 
record. The regulatory framework was well defined and we had 
contracts in place, so that we could immediately put people to 
work.
    Bottom line is that we have been able to deal with 260 of 
the excess facilities in the weapons complex. And we have been 
able to deal with 8,000 cubic meters of transuranic waste and 
85,000 cubic meters of low-level waste.
    Two million tons of milling and tailings, and with respect 
to the amount of active footprint area reduction, as I was 
saying before, we have been able to decrease the footprint by 
30 percent so far, from over 900 square miles of active cleanup 
down to, by the end of 2011, 540 square miles.
    We think that not only we are going to meet the 
Administration's goal of 40 percent reduction by 2011, but we 
are going to surpass it.
    At our Hanford facility, we are looking to surpass the 40 
percent goal to over 50 percent; at our Savannah River site, we 
are going to reach over 60 percent.
    So I believe that the work that we have done in the 
Recovery Act program has really assisted the complex, the 
Department of Energy complex, to accelerate cleanup activities 
and demonstrate the progress that can be made due to these 
economies of scale.
    Ms. Sanchez. Great. Thank you, Mr. Chairman.
    Mr. Turner. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman, and thank all of 
you for being here.
    Secretary D'Agostino, I guess I will start with you, if you 
don't mind.
    I know that one of the five campaigns of the National 
Nuclear Security Administration is readiness, and I understand 
you have got a lot of things to keep track of. But one of those 
elements, of course, of readiness, includes the production of 
the critical nuclear weapons component of tritium. And the GAO 
report recently said that the sole U.S. production facility was 
leaking large amounts of tritium into the cooling water which, 
in my mind, potentially compromises that source and it being 
our sole source, and adds to the concern over a shortage of 
tritium.
    And I guess my first question is, how is this shortage of 
that key ingredient being resolved? And is the request for 
$142.5 million for the readiness campaign sufficient to not 
only increase the tritium production to an acceptable level 
but, at the same time, address the other components of the 
readiness campaign?
    Secretary D'Agostino. Mr. Franks, with respect to your 
question on tritium, we had established an incredibly stringent 
permeation grade early on in the program to, what I would call, 
something that was probably physically impossible.
    Mr. Franks. Not realistic, yes.
    Secretary D'Agostino. Yes, unrealistic.
    And so we have realized, even after a check and a design on 
the TP bars, which are the tritium-producing bendable 
absorption rods, we have made an improvement in the permeation 
rates; in other words, reduce the permeation rates, but not to 
the level that we have had before.
    So what that does, in effect, to make sure that we remain 
within our NRC, Nuclear Regulatory Commission, license piece is 
have a reduction in the number of tritium rods that we put 
inside each reactor core load at Watts Bar.
    We don't have a near-term tritium problem. It will be 5 
years, if we stay at this certain rate, before we end up having 
any concerns on tritium production.
    And this gives us plenty of time to do a couple of things. 
We have a couple of backup plans in this area.
    One of our backup plans has to do with using other reactors 
with the TVA [Tennessee Valley Authority], and we are entering 
into negotiations with them to use Watts Bar unit two and 
potentially Sequoia, if we have to, which will more than cover 
the Nation's needs.
    But we are also doing another thing, and that is modifying 
the environmental impact statement and taking a look at the 
license amendment to what will be a reasonable and still very 
safe tritium permeation rate to allow us to increase the number 
of tritium rods in each reactor core load.
    So one of those two paths--first of all, there is not a 
near-term problem, but we are aware that if we continue down 
this path, we are going to need to do something different and 
we have kind of two tracks on resolving this particular case.
    Mr. Franks. Well, I wish all questions could be answered 
that favorably. That is pretty encouraging.
    Well, Mr. Secretary, let me then switch gears completely on 
you. I know that your testimony over the years here, that I 
have been here in this committee, has been, I think, dead on 
target, related to the potential of terrorists gaining some 
type of access to nuclear weapons, whether they develop them or 
someone gives it to them.
    And one of the concerns that I have had lately, in addition 
to that, or I should say in specificity, is the whole concern 
that now there is indication that smaller warheads, very small 
warheads, 1- or 2-kiloton warheads, can be enhanced to emit 
greater gamma ray radiation that makes them a more potentially 
dangerous weapon in the hands of enemies trying to launch an 
EMP [electromagnetic pulse] attack against the Nation, or even 
in a given area.
    So my first question is, is that, without getting into any 
classified origins, is that a concern that you have?
    And secondarily, with all of the misinformation over 
Soviet, to use the phrase, ``suitcase bombs,'' it seems like if 
anything would fit that category, or fit that description, it 
would be one of the small, 1- or 2-kiloton, warheads. And could 
they be enhanced for greater gamma ray emission? And do you see 
this as any sort of particular national security concern?
    Secretary D'Agostino. Mr. Franks, I would say that all of 
these items are of concern to us. We can provide a classified 
answer, to get into some of the specifics there. It would take 
a fair amount of effort to enhance one of these so-called 
suitcase devices in order to give it these special 
characteristics.
    We are concerned about whether it is 1 kiloton, 500 tons, 
10 kilotons, we are concerned with that whole range and that is 
why we have a program really focused on the material piece of 
the problem, obviously coupled with the Intelligence Community 
itself.
    So, yes, I am concerned. I am concerned about all of these.
    The smaller devices, of course, present different 
challenges with respect to finding these things, but at the 
same time, this is the reason why we have this full spectrum 
approach on our program.
    In our nonproliferation program, we start off with the 
assumption that the information on how to make one of these 
things is out there. Not that it is or it isn't; I won't 
confirm that, of course, but there is an assumption that we 
would say information is out there.
    Therefore, we have to focus on the material piece of this, 
protecting the material in its place, detecting illicit 
transfers of material across borders and land border crossings, 
getting rid of excess material that we may have, so it doesn't 
contribute to the problem, and looking at ways to convert from 
high-enriched uranium to low-enriched uranium across research 
reactors and isotope production reactors that we have.
    So I will take your specific question, which the answer 
would be classified and provide a classified response for the 
record.
    [The information referred to can be found in the Appendix 
on page 167.]
    Mr. Turner. All right, sir. Well I am glad you got your 
radar out anyway.
    With that, we recognize Mr. Larsen for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    Secretary D'Agostino, what relation does your 2012 
nonproliferation budget have to your 2011 nonproliferation 
budget? That is to say, what impacts will be on your 2012 
budget for implementation if your 2011 request is not provided?
    Secretary D'Agostino. If the 2011 request is not provided, 
that puts us very far behind on our security work, for sure, in 
a number of areas. We will look to do it in a balanced way to 
make sure our highest priority things are completed in fiscal 
year 2011.
    What that does is it puts an extra strain on the fiscal 
year 2012 budget and you will--I don't know if you have 
noticed, our fiscal year 2012 budget is slightly less than the 
fiscal year 2011 budget. And that is because in the fiscal year 
2012 budget, we do not have $100 million increment in there for 
our work on the physical material disposition with Russia. 
There are a series of payments that go on with that.
    So if we don't get the fiscal year 2011 budget and if we 
are trying to maintain our focus on securing material 
worldwide, without giving up the other elements of our defense 
nonproliferation program, those fiscal year 2012 resources 
would be severely strained and we would certainly not be able 
to honor the commitments we have made internationally and 
commitments we have made to ourselves, on securing this 
material worldwide.
    Would you like additional information from Ms. Harrington?
    Mr. Larsen. That is good right now.
    Secretary D'Agostino. Okay.
    Mr. Larsen. I just wanted to thank the Chairman here, and 
the ranking member, for taking a lead on this letter that we 
put out in the last 2 weeks regarding the--I mean, the--not 
just the desire, but the need to look at this part of the 
budget as a part of the defense budget, as opposed to just 
another part of the energy budget.
    And hopefully we will be successful in moving that forward.
    A question for Dr. Winokur. With a short I?
    Dr. Winokur. That is right.
    Mr. Larsen. Yes.
    On page 18 of your testimony, you discussed the Hanford WTP 
and the three safety issues that you had found as a result of 
your hearing. I didn't really recall, from your testimony, what 
has been the follow-up? October 2010 were the hearings; we are 
now in March of 2011--or April 2011, perhaps 5 months is not 
long enough. But what has been the result of these three 
findings?
    Dr. Winokur. Well, the first finding was to look at the 
mixing and transfer of systems.
    Mr. Larsen. Right.
    Dr. Winokur. Because there was the concern that there might 
be solids building up at the bottom of vessels, which could 
provide safety concerns with criticality, exceeding flammable 
hydrogen gas and some operational problems with indexes 
themselves.
    In December, the Board wrote a recommendation to the 
Secretary of Energy and would recommend that a large-scale 
testing program--actually during the hearing, the project 
agreed to a large-scale testing program.
    And we wanted to make sure that I advised the Secretary 
about what we thought would be important in that large-scale 
testing program. So that when it went forward, we would have a 
clear resolution of issues and address the safety concerns.
    Mr. Larsen. On that point, Ms. Triay, if that is going to 
happen, is that going to happen within the existing requested 
budget? Or is that going to add costs to this particular 
program?
    Secretary Triay. No, it will happen within the request that 
we have made for fiscal year 2012.
    Mr. Larsen. So 2012.
    Secretary Triay. Yes.
    Mr. Larsen. Okay. Okay. Good.
    Dr. Winokur.
    Dr. Winokur. And I think the second issue we talked about 
were concerns about hydrogen in pipes and ancillary vessels. We 
were worried about detonations.
    Basically, what happened was the project is using a 
different strategy to address this problem, using what is 
called a Quantitative Risk Assessment. It is the first time 
that the Department has used this approach and it is a 
different approach.
    The Board is waiting, I think April, hopefully this month, 
we will see from the project, basically, the validation of this 
methodology, the results and basically, hopefully convince 
ourselves that we are comfortable that hydrogen-related issues 
in pipes and vessels will be appropriately addressed.
    And the last issue, of course, deals with the tank farms 
themselves. I think at the hearing, the Board made the point 
that we have to look at this as an integrated problem, and the 
integrated problem is that not only does this plan have to 
operate effectively, but the tank farms need to be able to 
control, characterize, and transfer waste into that facility 
that it really can handle.
    Mr. Larsen. Yes.
    Dr. Winokur. And that, I think, is an ongoing problem and 
certainly we have met with the Department on that. I think that 
is something that you should look at as an issue that we will 
be addressing over the next several years.
    Because I think the project will continue to refine what 
the waste acceptance criteria is that that plant can receive, 
and the tank farms will continue to adjust and improve and 
understand the capabilities they need.
    Mr. Larsen. Good. Thank you.
    Thank you, Mr. Chairman.
    Mr. Turner. Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    Yes, I have a couple of questions for Mr. D'Agostino.
    With respect to the Nuclear Posture Review, Section 1251 
Report to Congress, and NNSA's Stockpile Stewardship and 
Management Plan make many commitments to modernize America's 
nuclear arsenal and the complex that sustains it.
    These commitments include sizeable funding plans.
    Please discuss the funding increases in fiscal year 2012 in 
the budget request and the intent and purposes for those 
additional funds.
    Secretary D'Agostino. Mr. Fleming, thank you for the 
question.
    We have increases across three broad fronts. The first 
broad front is in what we call Directed Stockpile Work. This is 
direct work on our nuclear weapons themselves, the surveillance 
activities, which is the activities needed to look inside the 
warheads to see how they are doing, particularly the older 
warheads themselves.
    We are very interested in how they are aging.
    Those resources went up to about $240 million from prior 
years, where they are steady state at about $80 million per 
year. So it is a significant increase, percentagewise, in 
surveillance activities and work on our Directed Stockpile Work 
to finish the production rate on the W76 [thermonuclear 
warhead] life extension, to do the initial studies and do the 
first production unit on the B61 bomb and to start the study on 
the W78 warhead study, which is something that we know we will 
have to address in about 10 years' time. And it does take a 
little bit of time to do the initial preparatory work.
    The second area is in our science capabilities, because the 
scientific capabilities allows us to maintain the stockpile 
without underground testing, so work on a supercomputer 
platform, for example, to allow us to use modern codes to do 
accelerated aging tests.
    The final area, which is our biggest increase, particularly 
when we compare it to fiscal year 2011, a 21-percent increase, 
is in our infrastructure investments. These are investments, 
not only at the uranium and plutonium facilities that you have 
heard mentioned in the hearing, but also across our enterprise, 
particularly at Pantex, the High Explosive Pressing Facility, 
which we will be getting underway very shortly, we have just 
received bids in hand. We will make the decision very shortly 
and getting this facility up and running by the year 2016.
    So, some of that increase supports that activity.
    It also includes an activity in fiscal year 2012 in 
Tennessee to do what we call Facility Risk Reduction. Chairman 
Winokur described some concerns. He is aware of some concerns 
that we have in the 9212 building, which is the Nation's only 
uranium-capable building, to do the kind of processing the 
Nation needs to do. Not just for the stockpile, but for the 
non-proliferation program.
    We are spending upwards of $75 million over the next few 
years, just to keep that capability going, so that when the 
Uranium Processing Facility comes in play, we know we have--I 
would say we are almost limping along to get to the end.
    So it is across those three broad areas on the stockpile 
that we are working on.
    Dr. Fleming. Okay.
    One follow-up question, what are the most significant 
challenges in that process that you see?
    Secretary D'Agostino. Two significant challenges, as I see 
it. We have great people. They are very capable. They have been 
working the stockpile for many years. But the two biggest 
challenges that I see are in being able to recruit the next 
generation of folks, so that the people that we have now can 
train this new generation, because we have a golden opportunity 
for the next 15 years, and we are doing a tremendous amount of 
work.
    And this is the time to get that next generation up and 
running. Because the next generation are the folks that are 
going to take us from 2025 out to 2045, 2050.
    And again, this isn't just about nuclear weapons. Of course 
it is taking care of the stockpile. But that next generation 
will do that vital nuclear counterterrorism work; because the 
best person to have on your team to take apart an improvised 
nuclear device is the weapons designer that knows how to put it 
together to begin with.
    So, we want to make sure those people are connected up.
    So, the people piece is the first one.
    The next challenge is project management. We have, the 
Chairman mentioned, a number of very significant, complicated 
facilities that we are going to be building over the next 15 
years. We have to make sure that our project management house 
is in order and running well, and has all the elements of 
nuclear safety, project management principles, and the like.
    We started down that road to address this problem. You have 
to address it early, because the time to catch the problem is 
early on in the project, not after you have started; not after 
you are done with the design and are trying to pour concrete.
    So the things we have taken to move early is get our 
project management policy changed--and I mentioned one thing 
earlier, which is let us finish the design work before we go 
off and start pouring concrete--doing sound cost estimates in 
between each of our critical decision pieces. And we have done 
this. We have changed our organization.
    Neile Miller has brought a tremendous amount of management 
expertise into the organization and has looked at this and said 
that is, project management is the piece. We need an office 
that is fairly focused on this and we need to recruit the best 
person to run that office. We are actively looking for the best 
person we possibly can to run this particular office, to get 
this project management piece right.
    We have had some early success, but we need some longer 
success. And we have had early success that the Project 
Management Institute has awarded to some of our projects. One 
project in particular, in Anne's program, the distinguished 
award, which is the first time ever a federal agency has ever 
won this award, for one of Anne's projects. The National 
Ignition Facility has been running steady state and has 
executed. And they have won, there, the PMI [Project Management 
Institute] award of the year, last year, for the most 
complicated project.
    But our challenge is not the past. Our challenge is the 
future. And that is what we are going to focus on.
    Dr. Fleming. Okay. I thank you, Mr. Secretary. I yield 
back.
    Mr. Turner. Ms. Sutton.
    Ms. Sutton. Thank you, Mr. Chairman.
    Thank you to all the witnesses for being here today.
    My questions are going to focus on the Hanford Waste 
Treatment Plant. The Hanford complex is the biggest and most 
expensive cleanup project in the DOE complex, and perhaps the 
most important.
    It is also my understanding from the testimony here today 
and information that I have gathered that the project has just 
been plagued with cost increases, delays, and technical issues.
    So, Dr. Winokur, I know you talked a little bit about this, 
but if you could just give us, in quick, order a short rundown 
on the present concerns with regard to Hanford.
    Dr. Winokur. Well, let me begin by providing some context 
as to why I think it has become very challenging.
    The Board has actually committed to the early integration 
of safety and design at these facilities.
    I think we have already mentioned the fact that if you 
integrate things early--and I think Tom mentioned this--before 
you pour concrete or before the design is largely complete, you 
can address the issues. If you have to go back at a later time 
and try to retrofit safety, it is very hard.
    Now, what happened with this project is it underwent a 
major redesign in 2009. When I say major redesign, I mean that 
design criteria in the project changed, and this raised safety 
issues for the Board.
    We began communicating with the Department about these 
safety issues as early as January--well, really, immediately 
after, but since very significant communications beginning in 
January of 2010.
    Then we felt in order to really focus these issues--and you 
have asked me what those issues are--we had to have a hearing.
    Ms. Sutton. I understand.
    Dr. Winokur. At the hearing, the three issues that I think 
we really focused on were the mixing systems. Basically, this 
facility separates waste into a high- and a low-level waste 
stream.
    In the black cell region of the facility, you have no 
access for 40 years while the plant operates.
    One of the things you have to do is be able to mix solids, 
mix the actual radioactive waste, so that it can be transported 
and then operations performed on it.
    The Board felt that, when it looked at the new design 
criteria that the accumulations of solids was part of that 
design criteria. It raised a safety concern for us.
    Ms. Sutton. I appreciate that. I want to speed this along 
because I have a lot of questions. So, I really appreciate 
that.
    I understand the mixing concern. There were also concerns 
with respect to the hydrogen gas figures, as I understand it, 
and also criticality concerns, perhaps.
    So, if those are the things that we are looking at right 
now in regard to Hanford, would you agree that those are the 
major concerns?
    Dr. Winokur. Yes, those are major concerns; that is in the 
written oral testimony.
    Ms. Sutton. Okay. Then let me go a little bit further here, 
because I also have some concern about the safety culture at 
Hanford. I don't know if that is a concern for you.
    Would you say that is a concern, Chairman?
    Dr. Winokur. It is a concern for us.
    Ms. Sutton. Okay. So, do you think that enough attention is 
being paid or has been paid to safety and quality at Hanford? 
You talked about how, at some point, it became a big issue.
    I mean, I know that, for example, a former research and 
technology manager has alleged that he was removed for raising 
safety and technical concerns.
    I guess one question I would have: Has there been an 
investigation into that matter?
    Dr. Winokur. Yes, there has been. The Board received a 
letter in July of 2010 from Dr. Walt Tamosaitis, who raised 
concerns about the safety culture on the project.
    So the Board believed he was a credible individual who had 
played an important role at the project. The Board felt it was 
necessary to conduct an investigation.
    I mean, whenever the Board gets whistleblower or other 
information, other concerns, the Board always investigates. 
Either we investigate it ourselves, or we turn it over to the 
IG [Inspector General].
    A natural evolution of that letter was to begin the safety 
culture investigation, and we had a hearing.
    So, the Board wanted to be sure that what happened at the 
hearing didn't have safety culture problems. In other words, 
the witnesses felt very comfortable with sharing information 
with the Board.
    So, we certainly looked at that. Subsequent to that, we 
have identified other issues.
    Now, I can tell you that the Board hopes to share the 
information of that investigation with the safety culture, the 
waste treatment plant, with the Secretary of Energy in the near 
future.
    We do have concerns about safety culture. We will be 
identifying them for the Secretary's consideration.
    Ms. Sutton. I appreciate that, and I will look forward to 
seeing more information about the safety culture.
    Can you just share with me, in the very brief time we have 
left, what do you look for when you evaluate the safety 
culture?
    Dr. Winokur. Well I think the crux of the safety culture is 
an empowered workforce, people who are comfortable with raising 
concerns with their management so that you don't have the 
messenger being shot. I think that is really what adds to the 
safety culture.
    Even though you measure it in the way that the work is 
performed and how empowered they are, safety culture is driven 
by leadership. So we always have to look at that aspect of it.
    Ms. Sutton. Thank you.
    Mr. Turner. Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    This question is for Dr. Triay. In looking at your bio, it 
says that you lead the largest, most diverse and technically 
complex environmental cleanup program in the world, including 
enough radioactive waste to completely fill the Louisiana 
Superdome.
    In that context, it would seem, then, that we should be 
seeking appropriate storage facilities, not, as a country, 
seeking to close them down.
    President Obama indicated that he does not intend to pursue 
Yucca Mountain as a long-term repository for high-level waste. 
Yucca Mountain remains designated by law as a repository for 
high-level radioactive waste.
    In your judgment, would Yucca Mountain serve our repository 
needs?
    Secretary Triay. As the Secretary has testified, we believe 
that the studies that are going to be conducted by the Blue 
Ribbon Commission will inform any decisions moving forward that 
the Administration will make with respect to high-level waste 
repositories.
    I will just point out that the waste we have in the 
Environmental Management complex is low-level waste, 
transuranic waste, and high-level waste.
    The Waste Isolation Pilot Plant has been operating safely 
for 10 years and has been able to disposition over almost 
80,000 cubic meters of transuranic waste since it started 
working. We have very viable options for low-level waste.
    As we progress in taking those lessons learned, those will 
all be taken into account in the Blue Ribbon Commission 
studies. I personally have been asked by the Blue Ribbon 
Commission to give them the lessons learned from my time as the 
field manager of the Waste Isolation Pilot Plant, 
dispositioning of transuranic waste.
    So, I believe that we are committed as a country, 
ultimately, to have a repository for high-level waste. We are 
awaiting the Blue Ribbon Commission recommendations to the 
Secretary in draft form in the summer and finalized in the next 
calendar year.
    Mr. Brooks. Do you have a judgment as to when studies on 
Yucca Mountain first began and how many have been conducted?
    Secretary Triay. The Yucca Mountain project is not part of 
the portfolio in the Environmental Management program. But I 
understand your point that----
    Mr. Brooks. We are talking many years, even a decade or so?
    Secretary Triay. Yes.
    Mr. Brooks. Why is another study needed?
    Secretary Triay. I believe that the studies that you refer 
to with respect to Yucca Mountain have been specific to the 
geohydrological conditions as well as how to isolate the waste.
    The Blue Ribbon Commission is looking, I believe, more 
broadly as to what are the options for a high-level waste and 
spent nuclear fuel.
    They are not looking specifically at the geohydrological 
conditions of any particular site. But they are looking at the 
process that got us to a point that the Administration felt 
that it could not move forward with the Yucca Mountain 
decision.
    Mr. Brooks. What insight can you share with us that would 
help convince us and the American public that the 
Administration's stance with respect that Yucca Mountain is 
motivated more by capturing Nevada votes or Senator Reid's 
capturing Nevada votes rather than sound public policy?
    Secretary Triay. I have been working, like you mentioned, 
in the field of nuclear waste management for over 25 years.
    The main aspect of moving forward with dispositioning of 
radioactive waste--whether it is low-level or transuranic, 
high-level waste, spent nuclear fuel--is the intent of the 
community that surrounds that particular site to move forward 
and deal with the mission that has been delineated for that 
particular repository.
    That is what I have learned from being a field manager at 
the Waste Isolation Pilot Plant in Carlsbad, New Mexico, for 5 
years before coming to headquarters in the Environmental 
Management program.
    I believe that part of what the Blue Ribbon Commission is 
going to look at is what is the process that would get us to 
success, rather than starting and then having to stop and deal 
with extensive periods of litigation because we have not had a 
clear community as well as national interest merge with respect 
to a focus that we need to have in this very difficult field of 
dispositioning radioactive waste.
    Mr. Brooks. Well I would say my time is expired.
    Thank you, Madam Secretary.
    Mr. Chairman.
    Mr. Turner. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Secretary D'Agostino, I think you made an important point a 
while ago that it is important for the U.S. to have the best 
nuclear capability for a variety of reasons; keeping our own 
nuclear deterrent, but also having that capability for a 
variety of contingencies is necessary that people, programs, 
and facilities all contribute to having that level of 
excellence where we want it to be.
    You mentioned a few minutes ago some of the challenges on 
the facilities part of it, and a 21-percent increase, I think 
you said. Of course, that comes off what some people would 
argue as decades of neglect. So we have a lot of catching up to 
do.
    One of the questions--let me ask this. Can you tell me, 
over the next 5 to 10 years, what percentage of your 
construction budget is devoted to the facility at Los Alamos 
and the facility at Y-12?
    Secretary D'Agostino. Well, let us see. In a typical year--
I am going to try to get my way to answering you directly.
    I think, typically, when we were a steady state and we 
don't have these large facilities in our program, we have 
spent--recapitalizing at the rate of about $200 million to $250 
million to $400 million a year, depending on what facilities we 
have because we have, obviously, a multi-billion dollar set of 
infrastructure to take care of.
    The two line-item projects that we have right here are 
probably in the neighborhood of $300 million to $600 million a 
year, depending on which over the next 10 years as we look 
ahead.
    So, what we have got, I would say about these two 
facilities will comprise more than 50 percent of the normal 
recapitalization that we would be doing.
    I would have to check the statistic table I have here in my 
book to get the exact percentage. But it is a significant 
share.
    Mr. Thornberry. And it would take about how long to build?
    Secretary D'Agostino. These large facilities, we feel, are 
going to be 10-year construction activities from the initial 
design work that has to get done, defining the performance base 
line, and then actually building them.
    Typically, it takes about a year and a half to 2 years to 
transition these into operations.
    Mr. Thornberry. Yes.
    Secretary D'Agostino. A normal recapitalization project 
like the high explosive press is more on the order of about 
3\1/2\ years or so.
    Mr. Thornberry. Yes. It just seems to me an enormous 
challenge to have--and we have had these challenges since I 
have been on this committee.
    Whether it was NIF [National Ignition Facility] or 
whatever, we have had some very expensive facilities----
    Secretary D'Agostino. Right.
    Mr. Thornberry [continuing]. As part of NNSA.
    Then we also have kind of the smaller, more routine things 
in competition with the same dollars.
    The third thing we have is trying to transition the complex 
to a smaller footprint where it makes more sense with the 
number of weapons and the kinds of activities we are doing now.
    All three of those priorities seem to me to be competing 
for the same dollars.
    I guess I am curious what you can tell us about how you 
sort that out----
    Secretary D'Agostino. Okay.
    Mr. Thornberry [continuing]. Year in, year out. Ten years 
to build a building? I mean, I know it is a complicated 
building, but good heavens. Surely, there has got to be a 
better way.
    Secretary D'Agostino. We are looking at better ways on 
these things. It is one of the challenges that we have been 
given.
    Don Cook, who is the deputy administrator, is looking at 
this particular challenge. He is exactly the right person for 
this job.
    He was the individual that was in charge of a $550 million 
facility at Sandia many years ago and brought that facility in 
under budget and early because of the way he approached the 
construction.
    He has, in fact, directed both of our M&O contract partners 
at Y-12 and Los Alamos to look for ways to leverage each 
other's capabilities there.
    In some cases for these facilities, we have similar 
business teams working on these projects, particularly in the 
early design phase.
    How do we integrate those two activities so we don't 
relearn the lessons from before?
    The one thing I would say on how do we balance priorities--
I think it is a very good question.
    I recall very specifically when we were in the fiscal year 
2011 budget formulation process internally within the 
Administration and the same in the fiscal year 2012 process 
taking a look at the out-year resources we have dedicated not 
to these facilities, but to what I would call our base 
workload.
    I asked for significant increase in resources for what I 
would call just your normal recapitalization. I received 
support from the White House for that.
    So this 10-year plan does have that in there. The challenge 
will be, of course, making sure that it stays in that account 
so we don't keep adding to our deferred maintenance problem.
    Many of the things that we want to do, particularly at Y-
12, for example, serve similar purposes: recapitalizing and 
shrinking of the footprint.
    You know, this is always one of those things where, 10 
years from now, it will get better. But we do have a plan, and 
we have to execute the plan now, sir.
    Mr. Thornberry. Yes, and shrinking the footprint reduces 
security costs and has a variety of benefits.
    I agree. We have got to stick with the plan. It just looks 
challenging to get from here to there, for me.
    Thank you, Mr. Chairman. I yield back.
    Mr. Turner. Thank you. We will go to Mr. Bishop. Then after 
that we will have a second round for questions if members have 
second questions for this panel.
    Mr. Bishop. Well, Mr. Chairman, I see you have changed my 
nameplate. I was expecting to use Mr. Scott's five and then run 
down to mine and get another five. Apparently, you have closed 
that avenue of abuse of the process to me.
    I actually am here to listen to this panel and have 
questions for the next one. Thank you.
    Mr. Turner. Thank you.
    Then turning to our second round, returning again to Mr. 
D'Agostino.
    The B61 bomb is a key capability that supports the U.S. 
contribution to NATO's [the North Atlantic Treaty 
Organization's] nuclear alliance and our extended deterrence 
commitments.
    The NNSA budget request contains a significant increase in 
funds for the B61 Life Extension Program and includes plans for 
NNSA to begin engineering development activities, Phase 6.3, in 
fiscal year 2012.
    However, the cost and design study of Phase 6.2 and 6.2A is 
not yet complete, and the Nuclear Weapons Council will not meet 
until later this year to authorize entry into the next phase.
    What gives NNSA confidence that it can proceed into 
engineering development? How is NNSA managing schedule costs 
and risk to meet the delivery requirements for a first LEP life 
extension production unit by 2017?
    Secretary D'Agostino. Mr. Chairman, the approach we are 
taking is what I would call is very active project management. 
This is a project.
    Just like an infrastructure project is a project, this is a 
project. It has a defined cost, scope, and a schedule basis.
    You correctly point out that we are not--we have not yet 
completed our, what we would call design work, if you will, to 
determine what the exact cost will be.
    What we have done in the past is, you know, parametric 
analysis on estimating what the future cost will be. We will 
make adjustments at the end of this calendar year once we have 
the actual costs for this project.
    One thing that is clear with--at the Nuclear Weapons 
Council: Mr. Ash Carter is the Chairman of the Nuclear Weapons 
Council.
    We just had a meeting. We have regular meetings, but our 
most recent one actually delineated and lined out how we are 
going to get ourselves to a final decision point on this life 
extension.
    We are holding firm to the 2017 date, not because we think 
that is a good--a date we pulled out of the air. That is a date 
that is required because of our concerns on some components on 
this system.
    So without a doubt, we are going to be hitting that date; 
we have to. The Nation's security on this warhead demands it.
    The question will be, can we do all that we had hoped to do 
on this warhead and take advantage of this opportunity?
    We think it will be challenging, but doable. That is our 
plan over the next 6 months, is to really put the meat and 
potatoes behind that particular statement on exactly what is 
going to get done.
    Mr. Turner. Dr. Triay, last year, our committee authorized 
the Department of Energy to establish energy parks on former 
defense nuclear facility sites.
    This is an idea way for the Department to leverage 
communities and have legacy nuclear and other technical 
expertise and transition them to focusing on new energy 
research and development.
    Can you provide us with an update on what the Department is 
doing in establishing these energy parks and whether any 
candidate sites have been identified?
    Secretary Triay. I am pleased to do that, Mr. Chairman. On 
February 17th, 2011, the Department established an Asset 
Revitalization Initiative Task Force that is led by the 
Director of Legacy Management, Mr. David Geiser.
    It has representation from all the elements in the 
Department, especially all of the energy offices.
    In addition to energy parks, the task force is going to 
look broadly at any beneficial reuse that the communities are 
interested in pursuing with the vast tracks of land that we 
have cleaned up as a result of our work.
    So, in August of this calendar year, that task force is 
going to report to senior DOE management on a path forward on 
the Asset Revitalization Initiative.
    At that time, we should be able to clearly delegate to you 
one of the strategies that are going to be utilized and the 
advantages that different approaches for beneficial reuse, such 
as energy parks, have.
    Mr. Turner. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you.
    Dr. Winokur, in your testimony in page 12 and 13 and a 
little bit beyond that, you discuss the nuclear security 
infrastructure in some of our facilities.
    So I am curious: In the Board's assessment, what challenges 
remain yet with the design of the CMRR and the UPF at Y-12, and 
how many issues have you assessed been resolved? How many have 
you assessed are yet outstanding?
    Dr. Winokur. Well, with the CMRR facility, as you know, or 
may not know, the Board did a congressionally directed 
certification of that facility.
    Actually, both the Board and NNSA independently performed 
the certification in September of 2009.
    At that time, the Board was comfortable that the safety 
strategy had been developed for that facility that the controls 
had been identified and that a path forward to implement those 
controls in a final design was in place.
    So, I think we were comfortable with that facility and how 
it was proceeding. But the caution always was there is a lot 
of, you know, details that have to be filled in to actually 
build this thing and get to a final design.
    The concern right now, from the Board's point of view, and 
is becoming a recurring concern, is that the NNSA is looking 
at, perhaps, a change in the safety strategy of the facility. 
They are going to do that by, perhaps, reducing the material at 
risk for the facility.
    That is certainly their decision. The Board does not, you 
know, weigh in on that.
    But if they do change the material at risk in the facility, 
they are also considering a change in the safety strategy or 
the safety controls themselves, perhaps downgrading them.
    So, I think this thing is, right now, in a situation where 
we really have to get clearer. We wrote a letter to the 
Administrator in February asking him to provide a little more 
detail to us about exactly how NNSA is going to proceed with 
this facility.
    So, we are kind of in a situation right now where we are 
waiting just to get, you know, recalibrated in terms of what 
the Administrator wants to do with that facility. Then we are 
going to have to, in a sense, relook at what the safety 
controls are and convince ourselves are adequate.
    The UPF facility down at Y-12 was a facility that the Board 
had some initial structural concerns about. I think most of 
those are resolved.
    But where the Board has had a little bit of difficulty is 
that--and I think the Administrator said this--they didn't want 
to make some decisions about the strategies until they were 90 
percent, 95 percent done with the design.
    The Board felt that, you know, in waiting to do that, which 
seemed prudent, that some of the steps along the way, some of 
the preliminary design steps were not actually done.
    So the Board is a little bit uncertain, to some extent, in 
that facility about exactly what the safety strategy is going 
to be going forward. We need to work with NNSA to get clear 
about that.
    Mr. Larsen. Yes. This gets to some of the questions Mr. 
Thornberry was asking, you know, these big projects, we want--
everyone wants to see them get done right, absolutely.
    So, in that vein, Mr. Secretary, do you have some response 
for us today with regards to what the Board has contacted you 
about?
    Secretary D'Agostino. I don't have concerns. I would use 
different words, but the Chairman uses the words that he feels 
is appropriate.
    I don't believe--the word ``downgrade'' is not something we 
apply to safety, whereby appropriately, you know, safety 
given--the right safety for the right risk.
    We have the responsibility in the executive branch to make 
sure that we factor in all the pieces together, nuclear safety 
being a primary concern of ours.
    When we go off and take a look at what it would take to 
build a particular safety, we assume quantities and material at 
risk. As time goes on, we get the opportunity to refine that.
    If there is no plutonium in the building or if there is 
half as much plutonium in the building, that changes the safety 
analysis and problem and, therefore, allows us to take a look, 
at does that potentially reduce costs?
    Of course, the Board is with us every step of the way in 
examining this and providing independent input. Frankly, I 
value that independent input----
    Mr. Larsen. Can I ask you a question? Because I don't want 
anyone to think there is a discussion about what the definition 
of ``downgrade'' is or anything like that----
    Secretary D'Agostino. Right.
    Mr. Larsen [continuing]. Or anyone is misconstruing 
anything like that.
    Secretary D'Agostino. Right.
    Mr. Larsen. Just in the sense, is it a reasonable request 
the Defense Nuclear Facilities Board is making to NSSA about Y-
12 and about CMMR?
    Secretary D'Agostino. Yes, the request we are planning on 
giving the Board the information they need, absolutely. We 
always do that.
    We want to do it in a way after we have taken a look at the 
analysis ourselves.
    Mr. Larsen. Yes, excellent. Yes, great.
    Thank you very much.
    Mr. Turner. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Dr. Winokur, you know, we have all been following the 
tragedy in Japan and the--I think it is the Fukushima power 
plant, if I remember the nomenclature correctly.
    It occurs to me that, in the midst of all of that, that 
they probably had time to, you know, reinsert their control 
rods in the reactor. But the ancillary problem of losing their 
backup generators because of the--I think because of the 
tsunami--left them with battery power and, of course, with the 
reactor not in generation mode, they had to rely upon the grid, 
which is not a shocking thing. When that wasn't available, that 
became a very serious challenge to them.
    Some of us on this committee, you know, have endorsed and 
introduced legislation to do everything we could do, to protect 
the grid from potential, you know, electromagnetic 
interference, whether it is manmade or geomagnetic, and the 
loss of the grid is a great concern to me.
    I guess I am asking you, do we have any protocols in place 
that would render us fairly impervious to such a challenge 
here?
    I know that the Administration has called for a higher 
capacity battery backup. But those batteries do run down. I 
mean, you know, there is just--I mean,--there is certainly--I 
am all for what they are saying.
    But is this going to be enough? If we should lose our grid, 
what are the implications for, potentially, nuclear power 
plants in full generation mode at the time?
    And what are our abilities to cold-start if we have to? I 
realize this is kind of getting a little out of your lane. But 
I think it is primarily still something you can address.
    Do we have the ability to respond effectively to a like 
issue? Even though I know we have a little better--we are not 
quite as vulnerable to what happened in Japan.
    But can we respond to that effectively?
    Dr. Winokur. Well, let me begin by saying, as I have said 
in my oral statement, that the Secretary of Energy has already 
tasked with the Department of Energy to take a look and see, 
you know, whether or not they had an emergency response, or 
will have an emergency response in place, to address the 
serious either design-basis accident or beyond-design basis 
accident.
    What you are saying is very true. You definitely need 
backup power. Maybe there will be some thought given to whether 
it needs to be doubly redundant or not.
    You need water for fire suppression. You have to make sure 
you have guaranteed sources. And, probably just as importantly, 
you need a very robust defense in depth.
    So, when the Board talks to the Department about safety, we 
usually use the word ``adequate'' protection of public and 
worker safety.
    But I think when it comes to the response to the backup, 
you really have to think of it as being robust and bullet-
proof. That is one lesson.
    I think the other challenge for the Department is that 
emergency preparedness for them is really a very significant 
issue because you have sites like Savannah River where you have 
tritium facilities, which are in close proximity to facilities 
that handle plutonium and highly-enriched uranium that are near 
tank farms which have toxicological and radiological waste.
    So, if a serious accident occurs, there is going to have to 
be a very carefully orchestrated plan and a command center to 
determine where the damage is and whether the workers should, 
perhaps, shelter in place or try to vacate the area. I mean, 
you don't really know.
    So, I think it puts a real premium, and I think the Board's 
been interested in this for years. We became even more 
interested in this when we saw the BP spill out in the Gulf, 
and the thousand-year flood at Pantex that really, there is a 
lot more work that needs to be done in this emergency response 
and emergency preparedness area.
    Mr. Franks. Let me just encourage the Administration, and 
you, Dr. Winokur, and others to take a good look at the Shield 
Act that we have put forth to protect the grid from EMP or 
geomagnetic-related damage because of the criticality of the 
grid to back us up in these situations. You know, it is hard to 
sometimes realize all of the cascading effects that occur.
    I mean, if you run out of diesel fuel for whatever you have 
or your batteries run down and with the plant being not in full 
generation mode to be able to maintain its own circulation, 
maintain its own cooling capacity, then that becomes something 
to look at carefully.
    I hope you will do that because it seems that there is a 
pretty strong consensus that we need to do this, even though it 
is just one area.
    But I think that some impetus on your part or some 
encouragement on your part might help it. I hope we do that.
    Mr. Franks. Thank you.
    Dr. Winokur. Thank you.
    Mr. Turner. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Dr. Winokur, I have a question along the line of what Mr. 
Franks just asked.
    Can you refresh my memory about contingency plans? Let us 
say, for example, I live in the Southern California area near 
something called the San Onofre power plant where Southern 
California Edison is the one that is drawing the power from 
there, a private company.
    It sits on the ocean, probably on what we would consider 
county property right within the sphere of influence of a 
public municipality that has its own government called San 
Clemente, with a federal highway running alongside it, an 
interstate highway, and some local arterials and state highways 
connecting everything.
    So, I know we plan for this, and I know we have plans, and 
they are probably adequate. But in light of what happened in 
Japan and, really, a perfect storm coming together and 
overwhelming what probably their contingency plan is, who is in 
charge of that contingency plan?
    Who oversees it? Are we going back and looking at every 
power plant we have in that way and saying, what would happen 
with an overwhelming situation?
    Who is in charge of making sure that barriers are correct 
or things need to be heightened or spent rods are outside in a 
more vulnerable area and highways aren't adequate to evacuate 
people we need to evacuate if there is that type of a 
population right next to the reactors?
    Dr. Winokur. Thank you. It is a little bit out of our 
jurisdiction. But I do want to, hopefully----
    Ms. Sanchez. Who would I ask?
    Dr. Winokur. The Governor of the State. I don't know.
    Ms. Sanchez. Well, that is exactly what--you know, is it 
the Governor? Is it the State? Or the feds?
    Dr. Winokur. I can't really comment. But I would like to 
make a relevant comment from the Safety Board's point of view 
because we do have responsibilities for defense nuclear 
facilities and DOE sites.
    I want you to know that what I lose sleep over at night is 
what you are talking about.
    When I look at facilities and I try to rate which ones I am 
the most concerned about, the first thing I say to myself is, 
``Which site is near a population center? Which site, if I have 
a problem, is going to more immediately impact the public?''
    So, there are some places like the Nevada Test Site where, 
even if there was an accident, which would be a very 
unfortunate thing, we are still pretty far from a population 
center. I feel more confident, and I know that I can confine 
the emergency response in the site.
    But there are others where that can't be done. I think 
those are the ones that we need to work with the Department on 
to ensure that the emergency response and emergency 
preparedness not only, probably like you are suggesting, 
includes the site, the Department of Energy, but also--I am 
sure that the Department does this--the interacting community 
around it.
    Ms. Sanchez. Do you feel comfortable that the Department of 
Energy and Department of Defense facilities have the 
contingency plan for the overwhelming scenario?
    Dr. Winokur. You are referring to the beyond design basis 
accident?
    Ms. Sanchez. Probably.
    Dr. Winokur. Well I think that more work needs to be done 
in that regard.
    If you look at the Code of Federal Regulations 10 CFR 830, 
which really defines safety at these facilities, it actually 
does direct the Department to look at the beyond design basis 
accidents.
    I think the Board would probably benefit. I think we will, 
by taking your question to heart and having a meaningful 
discussion with the Department of Energy about how those kinds 
of assurances can be provided.
    Ms. Sanchez. Thank you, Doctor. I know the Secretary wanted 
to----
    Secretary D'Agostino. Yes, ma'am.
    You asked who is responsible. In the Department of Energy, 
my organization is responsible for the emergency operations 
organization and responding to emergencies in the Department.
    Establishing that infrastructure of people and capabilities 
and the communication system and the teams that go out and 
deploy and go check, what we do--first of all, one of the 
things we are doing is moving nuclear material out of areas 
where we have large populations.
    The inventory of plutonium at the Lawrence Livermore 
Laboratory in Livermore, California, is a prime example of 
that.
    We recognized 3 years ago that we had a population center 
that was growing around our laboratory and that we had two 
sites in the country that were working plutonium.
    We said, ``Well, this is very special material. We want it 
in fewer sites, and we want it away from as many people as 
possible.''
    So that is why we are de-inventorying it. In fact, our FY 
2012 budget goes to support the final year of de-inventory 
activities to do that.
    The second piece of this on the emergency side is, we have 
a-this organization, we conduct exercises regularly.
    There are national-level exercises with the FBI [Federal 
Bureau of Investigation] and state and local authorities. We do 
one of those big exercises once per year, including an example 
of, potentially, a power plant problem. This is all exercises, 
of course, so they are--we have an opportunity to do that.
    The second piece are monthly, what we call, no-notice 
exercises, where we don't tell everybody that we are going to 
do one. We, I won't say, surprise them, but, in effect, we do 
surprise, just check and see, is everybody ready to respond to 
this event.
    Finally, we are obviously in the middle of responding right 
now. We are learning a lot. As we are helping the Japanese, we 
are learning a lot about better coordination that we need to 
have within the executive branch and within the Department of 
Energy.
    Ines may have one last piece to add to that, if I could.
    Secretary Triay. Thank you. Very quickly, we in the 
Environmental Management office are also responsible for the 
emergency preparedness so that we can respond to an emergency 
for those sites that are under the direction of the 
Environmental Management Program, one of those sites being the 
Hanford site.
    To that end, of course, at the Hanford site we have, like 
Chairman Winokur pointed out, 177 tanks, 53 million gallons of 
radioactive waste, 175 million queries.
    We take emergency preparedness extremely seriously, along 
the lines of what the Administrator was talking about. We also 
take the ultimate in design and construction of the Waste 
Treatment Plant, which will address this huge issue extremely 
seriously.
    The Secretary has exercised great leadership when it comes 
to the Waste Treatment Plant. We avail ourselves of the best 
independent experts from industry, academia, as well as our 
national laboratories.
    As a matter of fact, some of the issues that Chairman 
Winokur identified on mixing control for hydrogen tank farms 
readiness have benefitted from the work of those independent 
experts.
    And we are committed to continue utilizing those 
independent experts, collaborate with the Board, and be ready 
to start the Waste Treatment Plant, finish the design by 2013, 
finish the construction by 2016 and start operations by 2019 to 
resolve this huge environmental issue of the Hanford tank 
farms.
    Ms. Sanchez. Thank you.
    Thank you, Mr. Chairman.
    Mr. Turner. Before we conclude with this panel, I want to 
give anyone an opportunity to add to their comments or to make 
concluding statements if they have something they would like to 
highlight or focus on.
    Secretary D'Agostino. Mr. Chairman, if I could, I wanted to 
recognize my father, Tom D'Agostino, who is in the room here.
    He has served this country for over 45 years, starting off 
in the Marine Corps as an officer in the Korean War. He has 
been an inspiration to me and dedication.
    I have learned a lot from him, and I am here because of 
him. So I wanted to thank him publicly.
    Thank you. I appreciate your indulgence.
    Mr. Turner. Very good.
    Well, in recognition with your father, we would like to 
continue our recognition of you all for your input and 
contribution.
    We are just all so appreciative of the fact that you 
continue to serve in this capacity and know that you are making 
a tremendous difference.
    With that, we will turn then to Panel Two. We will take a 
5-minute break before we make that switch.
    Thank you.
    Mr. Turner. I would like to provide a warm welcome to Mr. 
Weber, General Chambers and Admiral Benedict.
    As I mentioned earlier, this annual nuclear budget hearing 
has typically focused solely on DOE and NSSA programs and 
budgets.
    However, the Department of Defense also has a significant 
role in maintaining our Nation's nuclear deterrent, and is 
directly responsible for shaping many of NSSA's plans and 
programs.
    Therefore, I have asked three key DOD leaders to testify in 
the second panel on the Department's nuclear programs and 
budgets and the linkages with NNSA. Mr. Weber, you are now 
recognized for your opening statement, if you would.
    Also, we have your written statements. If you could, in 
about a 5-minute time period, although we are not going to run 
the clock, summarize what your statement is.
    We will turn, then, to the first round of questions.
    Mr. Weber.

STATEMENT OF HON. ANDREW WEBER, ASSISTANT SECRETARY OF DEFENSE 
   FOR NUCLEAR AND CHEMICAL AND BIOLOGICAL DEFENSE PROGRAMS, 
               OFFICE OF THE SECRETARY OF DEFENSE

    Secretary Weber. Chairman Turner, Ranking Member Sanchez 
and members of the subcommittee, thank you for giving me the 
opportunity to discuss the 2012 budget request for the 
Department of Defense nuclear forces programs.
    It is an honor to come before you with my colleagues, 
General Chambers and Admiral Benedict, to provide testimony on 
the Department's nuclear deterrence requirements.
    Today's testimony will focus on our work with the 
Department of Energy, from whom you have just heard, to ensure 
a safe, secure, and effective nuclear deterrent for as long as 
nuclear weapons exist.
    Building upon a longstanding Department of Defense-
Department of Energy partnership, the Nuclear Weapons Council 
has made substantial progress over the past 2 years.
    As stated in this subcommittee's letter to the Honorable 
Paul Ryan concerning nuclear weapons-related appropriations, a 
safe, secure, and reliable nuclear stockpile is essential to 
United States security.
    America's strategic forces continue their role as a pillar 
of our national security. In the past few months, I have had 
the opportunity to witness firsthand our Forces' dedication and 
commitment to this mission.
    I traveled to Naval Base Kitsap in Washington State, last 
fall and, in February of this year, to Malmstrom Air Force 
Base, Montana.
    During these visits, I spoke with the extraordinary airmen, 
sailors and marines, who gave me a great appreciation for the 
challenges they face each and every day executing our strategic 
deterrent mission.
    Before discussing fiscal year 2012 plans, it is important 
to step back for a moment and consider the status of the 
nuclear security enterprise before the Nuclear Posture Review.
    According to the bipartisan Schlesinger-Perry Report, the 
physical infrastructure was in serious need of transformation.
    DOD also had inadequate plans for modernization of delivery 
platforms for nuclear weapons.
    Perhaps most importantly, both Departments were dealing 
with the absence of a much-needed national consensus on the 
future role of our Nation's nuclear deterrent.
    By completing last year's Nuclear Posture Review, the 
Administration helped restore this national consensus, and 
outlined a comprehensive plan to revitalize the nuclear 
enterprise and respond to all 21st-century nuclear threats, 
including nuclear terrorism.
    The Departments of Defense and Energy now have a shared 
path forward to recapitalize the nuclear enterprise.
    The Department of Defense has a robust plan for 
recapitalizing the delivery systems that support our nuclear 
deterrent.
    The NPR concluded that the United States will retain a 
nuclear triad under a New START Treaty comprised of ICBMs, 
SLBMs and nuclear-capable bombers.
    To keep the nuclear stockpile safe, secure, and effective 
for the long term, we are moving forward with SLBM, ICBM and 
gravity bomb warhead life extension programs.
    We will also bolster the human capital base throughout the 
nuclear enterprise while restoring the infrastructure that 
supports the stockpile.
    Nuclear threats to our Nation have changed significantly in 
the last 20 years. Indeed, the world is safer today from the 
threat of full-scale nuclear war than it was during the Cold 
War.
    While the U.S. and Russia reduce the number and role of 
nuclear weapons, the U.S. must retain and maintain a safe, 
secure and effective arsenal.
    We ask you to support the President's 2012 budget request 
so that we can further these goals.
    I appreciate the opportunity you have given us to testify 
today, and would be pleased to answer your questions.
    [The prepared statement of Secretary Weber can be found in 
the Appendix on page 131.]
    Mr. Turner. Thank you.
    General Chambers.

  STATEMENT OF MAJ. GEN. WILLIAM A. CHAMBERS, USAF, ASSISTANT 
 CHIEF OF STAFF, STRATEGIC DETERRENCE AND NUCLEAR INTEGRATION, 
                         U.S. AIR FORCE

    General Chambers. Chairman Turner, Ranking Member Sanchez 
and distinguished members of the subcommittee, thank you for 
the opportunity to discuss your Air Force's strategic deterrent 
forces.
    Your Air Force nuclear enterprise consists of 450 
intercontinental ballistic missiles, 96 bombers, squadrons of 
F-15C [Boeing Eagle fighter jet] and F-15E dual-capable 
fighters, and approximately 23,000 dual-capable airmen who 
operate and sustain them.
    These forces produce the strategic deterrence that remain 
vital at a time when the national military strategy identifies 
a strategic inflection point.
    Maintaining credibility of our strategic deterrent requires 
a long-term visible commitment to our nuclear capabilities.
    Continuing to strengthen our nuclear enterprise remains the 
Air Force's number one priority. Our Secretary and Chief of 
Staff articulated strategic guidance to engrain the Air Force's 
commitment to the advances we have made and to sustain the 
focus on the nuclear enterprise.
    My written statement lays out that guidance, and I 
respectfully request that statement be entered into the record.
    Today, I would like to highlight the following areas: Our 
focus on human capital to ensure appropriate nuclear expertise 
at all levels; the importance of modernizing and recapitalizing 
nuclear deterrent operations capability; and implementation of 
the Nuclear Posture Review and New START.
    When the Air Force established reinvigoration of the 
nuclear enterprise as our top priority, we included our most 
precious resource, our Airmen, as an integral part of that 
effort.
    In response, the nuclear and personnel communities jointly 
created an analytical process, resulting in a comprehensive 
nuclear enterprise human capital effort, which lays out the 
active management steps required to deliberately develop Airmen 
and their nuclear expertise.
    From investing in our people to investing in our weapons 
systems, every one of our systems in the Air Force's nuclear 
enterprise is undergoing some form of modernization or 
recapitalization.
    Successful deterrence over the next two decades require 
sustaining and modernizing our fore structure in a consistent 
and deliberate manner.
    During the next 7 years, implementation of the 2010 Nuclear 
Posture Review and the New START will bring a reduction in the 
role of numbers of nuclear weapons in our national security 
strategy.
    The Air Force will remove, for example, multiple warheads 
from its ICBMs. The United States and Russia will reduce the 
number of accountable strategic warheads.
    Final force structure numbers will be based on meeting the 
combatant commanders' requirements and maintaining the overall 
effectiveness of the deterrent force.
    Our ability, as outlined in the national military strategy, 
to help enable other nations achieve their security goals, 
serve as a convener to cooperatively address common security 
challenges while, lastly, act as a security guarantor--
preferably with partners and allies, but alone, if necessary--
rests on a foundation of U.S nuclear capabilities and the 
strategic deterrence they provide.
    The President's budget request reflects the positive steps 
we are taking to improve this Air Force core function.
    Across the FYDP [Future Year Defense Plan], Air Force 
investment in nuclear deterrence operations totals $28 billion. 
The Air Force is committed to ensuring this investment results 
in systems and capabilities that best operationalize strategic 
deterrents for our Nation.
    The national military strategy acknowledges that our 
Nation's security and its prosperity are inseparable. 
Preventing wars is as important as winning them, and far less 
costly.
    In this time of constrained resources, the efficacy of 
nuclear deterrent operations is evident in the fact that for 
approximately 3 percent of the Air Force total obligation 
authority, your Air Force continues to deliver the bedrock of 
global strategic stability, providing the ICBM and bomber legs 
of the triad as well as dual-capable fighter capability 24 
hours a day, 7 days a week, 365 days a year.
    Thank you for this subcommittee's continued support of 
America's Air Force and, particularly, its support to our 
Airmen and their contributions to strategic deterrence.
    [The prepared statement of General Chambers can be found in 
the Appendix on page 146.]
    Mr. Turner. Thank you.
    Admiral Benedict.

  STATEMENT OF RADM TERRY BENEDICT, USN, DIRECTOR, STRATEGIC 
                  SYSTEMS PROGRAMS, U.S. NAVY

    Admiral Benedict. Chairman Turner, Ranking Member Sanchez, 
distinguished members of the subcommittee, it is an honor to 
testify before you today representing Strategic Systems 
Program.
    SSP's [Strategic Systems Program's] mission is to design, 
develop, produce, support and protect our Nation's sea-based 
strategic deterrent, the Trident II D-5 strategic weapon 
system.
    The recently ratified New START treaty increases the 
dependence on the submarine leg of the triad. The reductions in 
warheads and launchers will result in ballistic missile 
submarines carrying approximately 70 percent of the Nation's 
strategic commitment.
    I have focused on four priorities since returning to SSP: 
Nuclear weapons security, the D-5 life extension program, the 
Ohio replacement program, and the solid rocket motor industrial 
base.
    The first priority I would like to address and, arguably, 
the most important priority, is the safety and the security of 
the Navy's nuclear weapons.
    Our Marines and Navy Master at Arms provide an effective 
and integrated elite security force at our two strategic 
weapons facilities in Kings Bay, Georgia, and Bangor, 
Washington.
    The U.S Coast Guard units have been commissioned at both 
facilities to protect our Ohio-class submarines as a transit to 
and from their dive points. This team provides a comprehensive 
security umbrella.
    The second priority I would like to discuss is SSP's life 
extension efforts to ensure an effective and reliable sea-based 
deterrent. The D-5 weapons system continues to demonstrate 
itself as a credible deterrent and exceeds the operational 
requirements established for the system almost 30 years ago.
    Last month, the USS Nevada conducted the 135th consecutive 
successful flight test of the D-5 system.
    However, we cannot simply rest on our successes. We must 
remain vigilant of age-related issues to ensure a continued 
high level of reliability.
    SSP is extending the life of the D-5 weapons system through 
an update to all the subsystems: Launcher, navigation, fire 
control, guidance, missile and re-entry.
    These life extension efforts will provide the Navy with the 
system we need to meet the operational requirements of the 
future.
    My next priority, and one of the highest Navy priorities, 
is the Ohio replacement program. To lower development costs and 
leverage the proven reliability of the Trident II, the Ohio 
replacement SSBN will enter service with the D-5 weapons system 
beginning in 2029.
    Another critical component of the Ohio replacement program 
is the development of a common missile compartment that will 
support D-5 deployment on both the Ohio-class replacement and 
the successor to the United Kingdom's Vanguard class.
    Finally, I would like to discuss the importance of the 
solid rocket motor industrial base. The Navy is maintaining a 
continuous production of rocket motors.
    However, we have faced significant cost challenges as both 
NASA and the Air Force demands have declined.
    We are working with our industry partners, the Department 
of Defense, and Congress to sustain the solid rocket motor 
industrial base and find ways to maintain successful 
partnerships.
    We look forward to continuing this collaborative approach 
to maintain this critical national capability.
    Thank you for the opportunity to testify here today. I 
respectfully request that my written statement be submitted for 
the record, and I am pleased to answer your questions at this 
time, sir.
    [The prepared statement of Admiral Benedict can be found in 
the Appendix on page 153.]
    Mr. Turner. Thank you.
    As you can tell we had a vote that was called. That is the 
10-minute bell that we have to get to the Capitol for.
    I am going to yield my time to Mr. Bishop so he would not 
have to return after the votes, since he has sat through so 
much of this hearing.
    But before I do, Admiral, I just want to point out one 
correction to your statement. The Ohio-class submarine 
replacement program is not the Ohio replacement program because 
Ohio will never be replaced.
    So the--and that, of course, is near and dear to me, being 
from Ohio.
    Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. I appreciate that 
kindness.
    I would be willing to come back, obviously, unless we are 
talking about Ohio again. It should be Utah class, I think.
    Rear Admiral, I appreciate your comments very much, 
especially your fourth point there on the base. I realize that 
the Navy's Strategic Systems Programs has been impacted by 
NASA's space shuttle conclusion as well as the completion of 
Minuteman III Propulsion Replacement Program.
    Knowing that the current and diminished solid rocket market 
has impacted the D-5 missile, what does the Navy plan to do, 
actually, to minimize those costs?
    Admiral Benedict. Sir, we have been working very 
collaboratively with our industry partners, both Lockheed 
Martin and ATK.
    To that extent, I went out to Utah, went through the plant 
and took a series of briefings from ATK.
    As a result of that, I requested that those briefings be 
provided to General Kehler, who is commander of the U.S. 
strategic forces as well as Mr. Stackley, who is ASN, RD&A 
[Assistant Secretary of the Navy (Research, Development and 
Acquisition)].
    What those presentations show is an aggressive approach by 
ATK to try to minimize their cost. Specifically, they have 
reduced their indirect costs approximately 24 percent over the 
last 3 years.
    They have also significantly reduced their headcount from 
approximately 4,900 individuals to about 2,800, a reduction of 
42 percent, in order to maintain costs.
    They have consolidated within buildings to the maximum 
extent possible.
    And while all that was happening, sir, over the last 3 
years, the D-5 program has taken significant efforts in quality 
and process improvements where we have reduced approximately 
17,000 hours and cost-avoided about $10 million a year.
    So, to get--I am sorry, sir.
    Mr. Bishop. If I could just interrupt because I appreciate 
that; you are right on with what you are saying you are doing. 
Do you also have a plan in the future because NASA is still 
dithering on what they want to do with the heavy lift, whether 
they want to obey Congress or not.
    So, in--regardless of what NASA ultimately decides to do, 
do you also have a sustainability plan regardless of NASA's 
involvement in the future?
    Admiral Benedict. Sir, we have a requirement to maintain 
strategic deterrence. We have a requirement today to--we have a 
plan today to move forward with minimum sustaining.
    An analysis that we conducted said that we need to produce 
12 sets of motors per year in order to maintain safety at ATK.
    Mr. Bishop. So I am assuming you are planning on 
maintaining that----
    Admiral Benedict. Yes, sir
    Mr. Bishop [continuing]. Production level.
    Admiral Benedict. Yes, sir. We are.
    Mr. Bishop. Through the current as well as the new Ohio-
class as well?
    Admiral Benedict. Yes, sir.
    Mr. Bishop. That is wonderful.
    Would the Navy benefit if the Air Force--and I am not 
trying to put the General on the spot here--would continue its 
production of the Minuteman ICBMs as well as NASA continuing on 
with the same manner in a low rate-production concept?
    Admiral Benedict. Yes, sir. I think any increase in volume 
to the projected reduction based on NASA and the logical 
termination of the Minuteman line today would significantly 
benefit the United States Navy in terms of overhead charge.
    Mr. Bishop. I appreciate that.
    Mr. Chairman, I know you are anxious to get over here to 
vote with everyone else. I have a couple of other questions.
    But if I could submit those in writing, I would be 
appreciative. We will let you move on with the committee.
    Thank you for the kindness of allowing me to be here.
    Mr. Turner. Okay. Thank you so much. We will be recessed.
    [Recess.]
    Mr. Turner. I am going to call the subcommittee back to 
session.
    Since we have returned from votes and we have myself and 
Mr. Larsen, we will just do one round of questions and clean 
them all up, if someone else is waiting to ask a question 
beyond us.
    And with that, I will begin with General Chambers.
    The Nuclear Posture Review states, ``The Air Force will 
retain a dual-capable fighter as it replaces F-16s and the F-35 
Joint Strike Fighter. These decisions ensure the United States 
will retain the capability to forward-deploy non-strategic 
nuclear weapons in support of its alliance commitments.''
    Now, please discuss the Air Force's plans to make the F-35 
[Lockheed Martin Lightning II fifth-generation fighter jet] 
Joint Strike Fighter fully nuclear-capable and nuclear-
certified. When is this capability needed and when will it 
occur?
    Now, the F-35 Joint Strike Fighter continues to experience 
schedule delays. What is the Air Force's mitigation plan to 
sustain our current dual-capable aircraft capability in Europe, 
should the F-35 continue to experience schedule delays?
    And also would you please discuss the current status of and 
future plans for our NATO allies in dual-capable aircraft? Are 
you seeing decisions and investments by our allies in DCA, 
dual-capable aircraft, sustainment or follow-on systems that 
would maintain their burden share commitments?
    And do you have any concerns in this area?
    General.
    General Chambers. Thank you, Chairman Turner.
    A great question. As you know, the U.S.' commitment to the 
NATO alliance for dual-capable aircraft is currently fulfilled 
by a combination of F-16s [General Dynamics Fighting Falcon 
fighter jet] and F-15Es. The plan to eventually replace those 
airplanes with the F-35 is still in place.
    The F-35 program, of course, is under scrutiny and under a 
review, a technical baseline review which, when completed, will 
give us some idea of the potential delays in the program.
    The money to develop the F-35 as a platform that can carry 
the new life extended B61 is in our program. That, to answer 
your question about timeline, the slip of the F-35 in terms of 
production and delivery and IOC, initial operating capability, 
is unknown at this time. But it is likely to move to the right.
    The block of software that makes the F-35 able to carry the 
new B61 is the first block of software after the development 
phase. And that is still part of the project and the program.
    Because of this delay, our command in Europe, the United 
States Air Forces in Europe, who presents these forces to the 
alliance, has a number of planning options underway to cover 
this capability to NATO in the event of a slip. And it involves 
existing aircraft, such as the F-16 and F-15E.
    And we are confident that, through a number of measures, to 
include the potential life extension of the F-16, to include 
reverting the primary high readiness mission back to F-15Es, 
all those options are being pursued in order to cover a 
potential gap that an F-35 slip might create.
    Mr. Turner. Thank you, General.
    Turning then, from our bombers, to our sea-based leg of the 
nuclear triad; Admiral, today the sea-based leg of the nuclear 
triad comprises just over half of the total deployed stockpile. 
Under New START, the sea-based leg of the triad will comprise 
two-thirds of our deployed stockpile.
    As the Strategic Posture Commission observed, ``Each leg of 
the triad has its own value.'' However, New START places a 
significant dependence on one of these legs.
    How is the Department thinking through the risks of such a 
policy decision, and how is it managing such risks? And does 
this greater dependency drive certain programmatic, operational 
or, I am certain as you might advocate, resource 
considerations, than perhaps were required before looking at a 
triad that is certainly not going to be a third, third, third?
    Admiral Benedict. Yes, sir.
    So, as I stated in my opening statement, and as you 
reiterated there, under the New START treaty, we do approach 
greater than two-thirds of the deployed forces. As I would also 
mention, we also are the survivable leg of the triad.
    Of course, as we look forward, we are doing life extension 
efforts in a very planned manner, in all of our functional 
subsystems, in launcher, in fire control, in guidance and 
navigation, missile and re-entry.
    We believe that taking a phased approach in a very orderly 
manner through the Ohio program, which we are required to 
maintain through 2042, and then using that base line as the 
functional SWS [strategic weapons system] for the Ohio 
replacement program, minimizes the risk.
    We are able, now, to optimize limited resources. But I 
would tell you that, in the Department of the Navy, from the 
Secretary on down, we have strong leadership and dedication to 
the mission and to our requirements to supply this to the COCOM 
[combatant commander].
    So, I believe that in a trying time of resources, I have a 
fair voice at the table in terms of achieving and updating the 
requirements and resources necessary to carry out my mission, 
sir.
    Mr. Turner. Thank you.
    Mr. Weber, the Nuclear Posture Review stated that, ``The 
secretary of defense has directed a number of initiatives to 
further improve the resiliency of the NC3, the nuclear command, 
control, and communications system. An interagency study is 
being initiated to determine the investment needed and the 
organizational structure best suited to further strengthen the 
NC3 capabilities.''
    Individual NC3 programs are spread across the services and 
the lead architect in OSD [Office of the Secretary of Defense] 
Networks and Information Integration, NII, is being eliminated.
    To the extent you can discuss this in an unclassified 
hearing, please describe the Department's concerns about our 
nuclear command and control infrastructure, and when do key 
program and resource decisions need to be made and when will 
the Department be able to provide the committee with its NC3 
investment strategy?
    Secretary Weber. Okay. Well, the Nuclear Command and 
Control System, as outlined in the NPR, is a very high 
priority. The commander-in-chief needs a reliable, assured 
capability to communicate to the nuclear forces. I mean, that 
is a fundamental part of our deterrent.
    And we have a few efforts under way.
    One is the former commander of Strategic Command, Admiral 
Richard Mies, led a federal advisory committee that did a 
comprehensive review of the NCCS [Nuclear Command and Control 
System] and we are working within the Department and 
interagency partners on implementation of many of those 
recommendations.
    The dissolution of the NII office will have no impact on 
NC3. Some of those core elements will be moved to other 
elements within DOD, such as the Chief Information Officer's 
domain as well as other parts of the AT&L [Acquisition, 
Technology and Logistics] side of the Department of Defense, 
where I work.
    We are making investments currently. General Kehler, from 
STRATCOM appeared before this subcommittee recently and noted 
that the new construction that starts in the fiscal year 2012 
budget request at Offutt Air Force base, includes an EMP-
hardened command and control facility for Strategic Command.
    So that is part--that is really a central node of the NCCS 
system. And that is just an example of one of the investments 
that we are making.
    In addition, we are upgrading our cryptographic 
modernization programs and those are included in the 
President's fiscal year 2012 address.
    We will provide additional details to you in a classified 
question for the record.
    [The information referred to can be found in the Appendix 
on page 167.]
    Mr. Turner. We have discussed our bombers and our sea-based 
leg triad. Now, General Chambers and Admiral Benedict, would 
you please discuss some of the challenges that you are working 
through on how you would implement the New START force 
structure reductions? When will the Department make its final 
decisions on its post-New START force composition? And when 
will Congress see the specific implementation schedule and 
estimated funding requirements?
    General Chambers. Chairman Turner, the final decisions on 
the exact force structure numbers are still being reviewed.
    The military advice on those force structure numbers is now 
being discussed among the services and the Joint Staff and with 
our partners in OSD.
    That decision which, as you know, we have reported to 
Congress in the Section 1251 Report of the NDAA [National 
Defense Authorization Act] for our two legs of the triad, that 
the numbers will be up to 420 ICBMs and up to 60 bombers.
    That ``up to'' must be defined and that decision will be 
made in the coming weeks, perhaps in a few months.
    We are not yet concerned about the timeline to execute the 
treaty. The steps taken to implement the treaty in general are 
fairly straightforward. But on the Air Force side, perhaps the 
most challenging part of the timeline, although we have a good 
plan, is the final conversion method for the B-52 [Boeing 
Stratofortress strategic bomber] force.
    Once that final B-52 number is determined and we lay that 
timeline into our plan, we are confident we will be able to 
execute.
    We will need to advocate for the funds each year. As you 
know, we will be implementing both the eliminations and the 
conversions toward the latter part of the entry into the force 
period. And so, in the coming years, as we advocate for these 
needs in the budget, we will come with those figures.
    Admiral Benedict. Sir, excuse me, sir, I would add that as 
General Chambers said, we are, again, we are also working with 
NNSA, with STRATCOM [United States Strategic Command], and with 
DOD in terms of the exact planning requirements, not only in 
terms of schedule, but also in terms of numbers, specifically 
with us, with hedge.
    We are working closely to define those. We have submitted 
our budget request as part of the 1251 and in that request, we 
made an assumption that the implementation would be more in the 
out-years rather than the near-term years.
    Again, as the General said, as we get more definitive 
definition on the exact numbers and timing, we expect our 
budget request to be adjusted adequately.
    Mr. Turner. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. And I was just 
thinking, Mr. Chairman, how useful it has been to have the two 
panels today. As you noted early on, it really is sort of 
creating that continuum for the subcommittee to understand the 
soup-to-nuts on the nuclear security enterprise and how the 
nuclear weapons play into it, how we deploy and then, 
obviously, following on to treaty commitments as well and how 
it supports it.
    So thanks for setting it up this way.
    General Chambers, I will start with you. If I can go back 
to the Chairman's question about NATO, can you characterize, 
what has the response been from allies to the potential or the 
slipping of this F-35 timeline? Are you seeing decisions and 
investments that allies otherwise would have made on the 
burden-sharing commitments slipping as well? Are they in a 
wait-and-see?
    How is that--what is the impact here?
    General Chambers. Mr. Larsen, thank you.
    Good question.
    As you know, the current burden-sharing nations who 
contribute to this commitment to the alliance aren't all 
invested in the F-35 program. Specifically, Italy and the 
Netherlands are the two countries that are brought into the 
program. They have been consulted by the F-35 program office 
all along the way and will be fully briefed when the technical 
baseline review is completed as to how the delivery schedule is 
affected by a potential slip.
    They, in their planning, have envisioned this new platform 
to fulfill its dual-capable aircraft capability to the 
alliance. But they, as well, obviously, argue for the money 
needed to do that on an annual basis, with their governments.
    Very difficult to predict how that is going to come out.
    At the alliance level, politically, all current burden-
sharing nations continue to be committed to this mission. As 
you know, at the Lisbon summit, the strategic concept was 
confirmed and it still includes the mission of strategic 
deterrence based on our nuclear capability, provided by the 
dual-capable aircraft and all current burden-sharing nations 
are officially on record as continuing to support that.
    As this plays out, if the platform slips and governments 
shift their position, we will monitor that very closely.
    Mr. Larsen. Back to you, General Chambers, and this is a 
shift here of subject. Can you provide an update on the Air 
Force's nuclear surety inspection process and how things have 
improved since the 2007 and 2008 incidents?
    General Chambers. Yes, sir. Since those incidents, the Air 
Force has committed an increased rigor in its inspection 
process that actually has been very impressive.
    It has involved the standup of a core inspection team at 
Air Force's Inspection Agency, which is a branch of our 
Inspector General and stationed at Kirtland Air Force Base. 
They form the core and the deepest level of expertise of all 
inspectors and they supplement and add to the capability of our 
Major Command inspectors.
    The standardization of inspector training has taken place. 
The development has----
    Mr. Larsen. Has that taken hold?
    General Chambers. It has taken hold and we have seen it in 
the quality of discrepancies that have been written up by the 
inspectors, the quality in which we share the information 
across commands about how units have done, the ability to trend 
our inspection results out, so that we can improve.
    Perhaps one of the most important initiatives has been the 
addition of root cause analysis which is a formal problem-
solving method of get at the heart of what an inspector has 
found as a discrepancy and actually get to the root cause.
    It is increasing the performance of our units and we have 
seen, in general, a positive trend in results. We will always 
look to our inspectors to find problems, so that we can get 
better every day.
    But this increased rigor, the standardized training, 
standardized check list, the use of root cause analysis, has 
all enhanced the commanders' ability to do better every time.
    Mr. Larsen. All right.
    Admiral Benedict, we have had this discussion, not you and 
I, I am sorry. But the subcommittee has had a discussion in the 
past with regards to the Ohio-class replacement program.
    New START, though, when it was negotiated, assumed a 
reduction from 24 missile tubes per hull to, I think, a maximum 
of 20.
    The current configuration, as I understand it, would move 
from 24 to 16.
    Can you discuss, for the subcommittee here, the Navy's 
rationale for that? For moving from 24 to 16 as opposed to the 
max of 20?
    Admiral Benedict. Sir, as part of the work-up for the 
Milestone A with Dr. Carter in OSD, SSP supported extensive 
analysis at both the OSD level as well as STRATCOM's analysis.
    Throughout that process, we provided, from the SWS 
capability, our perspective. Ultimately that was rolled up into 
both STRATCOM and OSD and senior Navy leadership and in 
previous testimony, the Secretary of the Navy, the CNO [Chief 
of Naval Operations], and General Chilton have all expressed 
their confidence that the mission of the future, given their 
perspectives as they see the environment today can be met with 
16.
    And so, as the acquisition and the SWS provider, we are 
prepared to support that decision by leadership, sir.
    Mr. Larsen. Yes.
    And did your analysis that fed into this, did you look at 
specific numbers then?
    Admiral Benedict. Sir, we looked at the ability of the 
system; again, SSP does not look at specific targets with----
    Mr. Larsen. Right. Yes, yes, yes.
    Admiral Benedict. Our input was the capability of the 
missile, the number of re-entry bodies and the throw weight 
that we can provide against those targets and, based on that 
analysis, the leadership decision was 16, sir.
    Mr. Larsen. I want to go back to the solid rocket motor 
industrial base. And I didn't quite understand the response, 
and I forget if it was Admiral Benedict or General Chambers, 
about the idea of a production line of 12 and what the 
necessity of that production line of 12 meant.
    Is that because we needed those for replacements or we need 
those on the shelf just in case? How are those--how do those 
play out for us?
    Admiral Benedict. Yes, sir.
    When we look at minimum sustaining rate, the first thing we 
do is the analysis on what is the minimum number of operations 
that we need to do in order to sustain a viable work force and 
experience with both the tooling and the processes from a 
safety standpoint.
    We have looked at a number of ranges and, through an 
analysis, have determined that 12--basically one set per 
month--is the right number in order to keep a safe throughput.
    Now, we don't build one motor set per month. We do build, 
essentially, one first stage per month. We build second stages 
in groups and we build third stages four at a time, from a cost 
efficiency.
    In terms of production from sustainment, we built the D5 
very quickly at the beginning, before the Cold War ended. And 
so we have an aging issue that we also need to address; 
propellant, given its chemistry, doesn't last forever.
    So as we have done the analysis, we believe that we can get 
approximately 30 years of life out of our rocket motors.
    So as we look at our production line for the future, both 
in support of Ohio through 2042 and then entry into the Ohio 
replacement submarine class, we will need to sustain production 
of rocket motors to ensure that we don't have a safety issue 
with aging propellant in the future.
    Mr. Larsen. So as I understand it, the industrial base is 
important, but the requirement has to do with the safety of the 
motor? The certainty of it? The surety of it?
    Admiral Benedict. Yes, sir. But in our mind, those are 
linked.
    Mr. Larsen. Yes. You need the industrial base in order to 
achieve this. But to achieve this requirement, you set the 
requirement first, and then that defined the industrial base?
    Admiral Benedict. Yes, sir.
    Mr. Larsen. Yes. Okay.
    Admiral Benedict. Yes.
    Mr. Larsen. Yes.
    Thanks. Is that right? General Chambers, are you part of 
that response before? I don't want to have you answer 
something, if you don't need to.
    General Chambers. I wasn't, sir. But Admiral Benedict did 
mention, of course, that our requirements have declined because 
the Minuteman III propulsion program has recently been 
completed. So our motors are good right now. We are, through 
our ICBM demonstration validation program, exploring, through 
engineering and design angles, the potential for modernizing 
the propulsion for our aging issues, which will come later this 
decade. And we want to look at with a mind toward a potential 
follow-on Minuteman III as well.
    Mr. Larsen. And with any luck, the Chairman and I will 
still be here to deal with that one too.
    General Chambers. We will look forward to that, sir.
    Mr. Larsen. Maybe in different positions. We will see.
    That is it. Thanks a lot. Thanks.
    Mr. Turner. Gentlemen, I want to thank you so much for 
participating and also for your leadership in the areas that 
make such a big difference for our nuclear deterrent.
    With that, we will be adjourned.
    [Whereupon, at 2:40 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 5, 2011

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 5, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 65807.001
    
    [GRAPHIC] [TIFF OMITTED] 65807.002
    
    [GRAPHIC] [TIFF OMITTED] 65807.003
    
    [GRAPHIC] [TIFF OMITTED] 65807.004
    
    [GRAPHIC] [TIFF OMITTED] 65807.005
    
    [GRAPHIC] [TIFF OMITTED] 65807.006
    
    [GRAPHIC] [TIFF OMITTED] 65807.007
    
    [GRAPHIC] [TIFF OMITTED] 65807.008
    
    [GRAPHIC] [TIFF OMITTED] 65807.009
    
    [GRAPHIC] [TIFF OMITTED] 65807.010
    
    [GRAPHIC] [TIFF OMITTED] 65807.011
    
    [GRAPHIC] [TIFF OMITTED] 65807.012
    
    [GRAPHIC] [TIFF OMITTED] 65807.013
    
    [GRAPHIC] [TIFF OMITTED] 65807.014
    
    [GRAPHIC] [TIFF OMITTED] 65807.015
    
    [GRAPHIC] [TIFF OMITTED] 65807.016
    
    [GRAPHIC] [TIFF OMITTED] 65807.017
    
    [GRAPHIC] [TIFF OMITTED] 65807.018
    
    [GRAPHIC] [TIFF OMITTED] 65807.019
    
    [GRAPHIC] [TIFF OMITTED] 65807.020
    
    [GRAPHIC] [TIFF OMITTED] 65807.021
    
    [GRAPHIC] [TIFF OMITTED] 65807.022
    
    [GRAPHIC] [TIFF OMITTED] 65807.023
    
    [GRAPHIC] [TIFF OMITTED] 65807.024
    
    [GRAPHIC] [TIFF OMITTED] 65807.025
    
    [GRAPHIC] [TIFF OMITTED] 65807.026
    
    [GRAPHIC] [TIFF OMITTED] 65807.027
    
    [GRAPHIC] [TIFF OMITTED] 65807.028
    
    [GRAPHIC] [TIFF OMITTED] 65807.029
    
    [GRAPHIC] [TIFF OMITTED] 65807.030
    
    [GRAPHIC] [TIFF OMITTED] 65807.031
    
    [GRAPHIC] [TIFF OMITTED] 65807.032
    
    [GRAPHIC] [TIFF OMITTED] 65807.033
    
    [GRAPHIC] [TIFF OMITTED] 65807.034
    
    [GRAPHIC] [TIFF OMITTED] 65807.035
    
    [GRAPHIC] [TIFF OMITTED] 65807.036
    
    [GRAPHIC] [TIFF OMITTED] 65807.037
    
    [GRAPHIC] [TIFF OMITTED] 65807.038
    
    [GRAPHIC] [TIFF OMITTED] 65807.039
    
    [GRAPHIC] [TIFF OMITTED] 65807.040
    
    [GRAPHIC] [TIFF OMITTED] 65807.041
    
    [GRAPHIC] [TIFF OMITTED] 65807.042
    
    [GRAPHIC] [TIFF OMITTED] 65807.043
    
    [GRAPHIC] [TIFF OMITTED] 65807.044
    
    [GRAPHIC] [TIFF OMITTED] 65807.045
    
    [GRAPHIC] [TIFF OMITTED] 65807.046
    
    [GRAPHIC] [TIFF OMITTED] 65807.047
    
    [GRAPHIC] [TIFF OMITTED] 65807.048
    
    [GRAPHIC] [TIFF OMITTED] 65807.049
    
    [GRAPHIC] [TIFF OMITTED] 65807.050
    
    [GRAPHIC] [TIFF OMITTED] 65807.051
    
    [GRAPHIC] [TIFF OMITTED] 65807.052
    
    [GRAPHIC] [TIFF OMITTED] 65807.053
    
    [GRAPHIC] [TIFF OMITTED] 65807.054
    
    [GRAPHIC] [TIFF OMITTED] 65807.055
    
    [GRAPHIC] [TIFF OMITTED] 65807.056
    
    [GRAPHIC] [TIFF OMITTED] 65807.057
    
    [GRAPHIC] [TIFF OMITTED] 65807.058
    
    [GRAPHIC] [TIFF OMITTED] 65807.059
    
    [GRAPHIC] [TIFF OMITTED] 65807.060
    
    [GRAPHIC] [TIFF OMITTED] 65807.061
    
    [GRAPHIC] [TIFF OMITTED] 65807.062
    
    [GRAPHIC] [TIFF OMITTED] 65807.063
    
    [GRAPHIC] [TIFF OMITTED] 65807.064
    
    [GRAPHIC] [TIFF OMITTED] 65807.065
    
    [GRAPHIC] [TIFF OMITTED] 65807.066
    
    [GRAPHIC] [TIFF OMITTED] 65807.067
    
    [GRAPHIC] [TIFF OMITTED] 65807.068
    
    [GRAPHIC] [TIFF OMITTED] 65807.069
    
    [GRAPHIC] [TIFF OMITTED] 65807.070
    
    [GRAPHIC] [TIFF OMITTED] 65807.071
    
    [GRAPHIC] [TIFF OMITTED] 65807.072
    
    [GRAPHIC] [TIFF OMITTED] 65807.073
    
    [GRAPHIC] [TIFF OMITTED] 65807.074
    
    [GRAPHIC] [TIFF OMITTED] 65807.075
    
    [GRAPHIC] [TIFF OMITTED] 65807.076
    
    [GRAPHIC] [TIFF OMITTED] 65807.077
    
    [GRAPHIC] [TIFF OMITTED] 65807.078
    
    [GRAPHIC] [TIFF OMITTED] 65807.079
    
    [GRAPHIC] [TIFF OMITTED] 65807.080
    
    [GRAPHIC] [TIFF OMITTED] 65807.081
    
    [GRAPHIC] [TIFF OMITTED] 65807.082
    
    [GRAPHIC] [TIFF OMITTED] 65807.083
    
    [GRAPHIC] [TIFF OMITTED] 65807.084
    
    [GRAPHIC] [TIFF OMITTED] 65807.085
    
    [GRAPHIC] [TIFF OMITTED] 65807.086
    
    [GRAPHIC] [TIFF OMITTED] 65807.087
    
    [GRAPHIC] [TIFF OMITTED] 65807.088
    
    [GRAPHIC] [TIFF OMITTED] 65807.089
    
    [GRAPHIC] [TIFF OMITTED] 65807.090
    
    [GRAPHIC] [TIFF OMITTED] 65807.091
    
    [GRAPHIC] [TIFF OMITTED] 65807.092
    
    [GRAPHIC] [TIFF OMITTED] 65807.093
    
    [GRAPHIC] [TIFF OMITTED] 65807.094
    
    [GRAPHIC] [TIFF OMITTED] 65807.095
    
    [GRAPHIC] [TIFF OMITTED] 65807.096
    
    [GRAPHIC] [TIFF OMITTED] 65807.097
    
    [GRAPHIC] [TIFF OMITTED] 65807.098
    
    [GRAPHIC] [TIFF OMITTED] 65807.099
    
    [GRAPHIC] [TIFF OMITTED] 65807.100
    
    [GRAPHIC] [TIFF OMITTED] 65807.101
    
    [GRAPHIC] [TIFF OMITTED] 65807.102
    
    [GRAPHIC] [TIFF OMITTED] 65807.103
    
    [GRAPHIC] [TIFF OMITTED] 65807.104
    
    [GRAPHIC] [TIFF OMITTED] 65807.105
    
    [GRAPHIC] [TIFF OMITTED] 65807.106
    
    [GRAPHIC] [TIFF OMITTED] 65807.107
    
    [GRAPHIC] [TIFF OMITTED] 65807.108
    
    [GRAPHIC] [TIFF OMITTED] 65807.109
    
    [GRAPHIC] [TIFF OMITTED] 65807.110
    
    [GRAPHIC] [TIFF OMITTED] 65807.111
    
    [GRAPHIC] [TIFF OMITTED] 65807.112
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 5, 2011

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. TURNER

    Secretary Weber. Department of Defense (DoD) leadership is working 
to formulate the DoD Nuclear Command, Control, and Communications (NC3) 
investment strategy in the broader context of the national leadership 
command capabilities, with a report due to the Congress by February 6, 
2012.
    The DoD Chief Information Officer (CIO) is working several key 
initiatives to address the findings highlighted within the Nuclear 
Posture Review and other national-level studies. The DoD CIO is 
developing a National Leadership Command Capability (NLCC) architecture 
framework to support the development of an integrated command 
capability in support of the national and nuclear mission. The 
framework includes the development of an enterprise-level model to 
capture the current nuclear architecture. The model will be one tool to 
provide the critical analysis needed to assess current capability gaps, 
provide trade-off analyses to make informed business decisions, develop 
risk mitigation strategies, and provide the foundation for significant 
and measurable improvements in our nuclear command and control 
capability.
    In addition, the Department has developed draft policies that 
include a renewed emphasis on capturing and consolidating Nuclear 
Command and Control (NC2) configuration data in addition to new policy 
that directs management and oversight responsibilities for developing 
and maintaining the nuclear command, control, and communications 
capability that supports our nuclear deterrent strategy. The DoD CIO is 
developing a five-year roadmap for the national and nuclear mission 
that will lay out key elements of the concept of operations, a focus on 
information assurance requirements, and a comprehensive development and 
funding strategy. The CIO will be working with the Combatant Commands, 
Services, and Agencies in the Department, and key members within the 
Interagency to ensure the viability and soundness of the roadmap. The 
management and oversight of national and nuclear C3 mission issues are 
being addressed within the NLCC Executive Management Board (EMB) 
chaired by the DoD CIO.
    DoD CIO and USSTRATCOM are also co-chairing a ``National and 
Nuclear C3 Focus Team'' that is analyzing and prioritizing NC3 funding 
issues, currently for POM13, to state the case for resourcing important 
National and NC3 programs.
    These and other initiatives will provide the basis for the DoD CIO 
response to the House Armed Services Committee Report (112-78), in 
support of House Bill 1540, tasking the Department to ``provide a 
report on the NC3 architecture, long-term strategy, and an 
identification of the NC3 elements across the services, including 
current and needed investments across the Future Years Defense 
Program'' by February 6, 2012. This process will be worked by a Tiger 
Team under the NC2 Issues Working Group, under the auspices of the NLCC 
EMB.
    The DoD would be pleased to answer any further questions you have 
on this matter to keep you appropriately informed. [See page 43.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. FRANKS
    Secretary D'Agostino. [The information referred to is classified 
and is retained in the subcommittee files]. [See page 18.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 5, 2011

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. The November update to the Section 1251 Report 
identified plans to provide an additional $4.1 billion increase to 
NNSA's budget for nuclear modernization. However, $1.5 billion of this 
$4.1 billion--or, 37-percent--is allocated to cost growth in NNSA 
defined-benefit pension plans.
    Please explain the scope of this issue and why NNSA is in this 
situation. Is it unique to NNSA? What options are being considered by 
NNSA and what options might the Congress consider to give NNSA and its 
contractors greater flexibility in meeting their pension obligations?
    Secretary D'Agostino. Many DOE/NNSA contractors sponsor defined 
benefit plans for their employees. Pursuant to DOE/NNSA contracts, DOE 
and NNSA reimburse the contractors for pension contributions. In recent 
years, the market downturn has adversely affected defined benefit 
pension plans' asset performance. Poor asset performance combined with 
interest rate decreases have caused pension plans to become 
increasingly underfunded. This underfunding has resulted in increased 
pension contributions for DOE and NNSA contractors as well as many 
other private employers that sponsor defined benefit plans for their 
employees.
    In accordance with its contractual obligations, DOE/NNSA is 
committed to continuing to reimburse contractors for these pension 
costs. As noted in the November 2010 Update to the Section 1251 Report 
required by the National Defense Authorization Act of FY2010, NNSA 
estimated that costs associated with contractor pension reimbursements 
would equal roughly $875 million during FY 2012. The $875 million 
figure has since been revised to $840 million and the revised figure 
was submitted in the February 2011 NNSA Congressional Budget Request. 
Of the approximately $840 million associated with NNSA contractor 
pension obligations for FY 2012, it is anticipated that the NNSA share 
of providing pension benefits to University of California retirees from 
Los Alamos National Laboratory (LANL) and Lawrence Livermore National 
Laboratory (LLNL) will approximate $224 million. The remaining amount 
of the estimated FY 2012 contribution is spread among 22 other 
retirement plans.
    Over the past two years, DOE/NNSA has intensified its efforts to 
improve oversight of contractors' pension obligations. In particular, 
the Department and NNSA have:

    <bullet>  developed a central repository for pension and 
postretirement plan information that increases the ease in collecting 
updated information from contractors as well as provides Department 
users with the ability to compare information among the plans and 
determine trends among the contractor populations;

    <bullet>  acquired the capability to model financial and economic 
impacts across the complex's contactor pension plans;

    <bullet>  completed two annual comprehensive pension management 
plan reviews that further the robust interchange between the Department 
and its management and operating (M&O) and facilities management 
contractors; and

    <bullet>  initiated the second annual survey of the comprehensive 
contractor employee benefits analysis that will again be shared with 
the contractors and programs as well as compared to industry 
benchmarks.

    With this information, DOE and NNSA are now better able to evaluate 
the breadth of the overall pension funding situation to determine 
actual pension cost projections for the future and develop policy 
options to mitigate and control pension cost growth, volatility, and 
liability to the Government.
    Mr. Turner. China's proliferation record in the past has been 
rather mixed, to say the least. Howard Berman, Ranking Member of the 
House Foreign Affairs Committee, once said that China's pattern was to 
``proliferate, promise not to, proliferate, promise not to, and 
proliferate.'' NNSA and DOD's Cooperative Threat Reduction (CTR) 
budgets now include proposed funding for a nuclear Center of Excellence 
in China. What confidence do you have that China has changed its 
behavior--that it is now committed to nonproliferation in its actions 
as well as its words?
    Secretary D'Agostino. In the past, the nuclear and arms trade 
practices of the People's Republic of China (PRC) did not conform to 
international nonproliferation regime standards. Over the years, China 
has joined multilateral institutions and treaties such as the 
International Atomic Energy Agency (IAEA) in 1984 and the Nuclear Non-
Proliferation Treaty (NPT) in 1992, while also engaging in bilateral 
cooperation, such as conducting activities under the 2004 Statement of 
Intent signed by DOE and the China Atomic Energy Authority (CAEA), and 
the 1998 Peaceful Uses of Nuclear Technology (PUNT) Agreement between 
DOE and the State Development Planning Commission of the PRC. Improving 
China's nuclear security and export controls standards has been a long-
term, bipartisan security goal of the United States along with partner 
countries in the nonproliferation regime.
    As a permanent member of the United Nations Security Council and a 
nuclear weapon state, China is a critical member of the nuclear 
security community. Formalizing the nonproliferation advances that 
China has made in the past decade is important to international efforts 
in nonproliferation. Recent high-level interactions, such as the state 
visit to the United States by President Hu Jintao in January 2011, and 
agency-to-agency technical exchanges, have reinforced the view that 
China is engaged in improving nuclear security. NNSA is therefore 
working with China to improve its indigenous capacity by sharing best 
practices in nuclear security and to assist the Chinese in implementing 
accepted global standards throughout their nuclear complex.
    Through U.S.-China cooperative engagement, including the Center of 
Excellence (COE), NNSA aims to improve global nuclear security by 
raising China's awareness of material security issues and associated 
nuclear security and safeguards methods and technologies; promoting an 
export control system that prevents illicit transfers of WMD dual-use 
commodities; minimizing the use of highly enriched uranium (HEU) in 
civilian applications; establishing a platform for promoting further 
U.S.-China technical cooperation; strengthening China's training 
capabilities on nuclear and radiological material security; and 
improving security of radioactive sources. Cooperation on the COE 
reflects the U.S. and Chinese governments' commitment to strengthening 
their cooperation on nonproliferation, nuclear security and in 
combating nuclear terrorism.

    Additional cooperation between the U.S. and China includes:

    <bullet>  NNSA and CAEA conducted a joint technology demonstration 
(Tech Demo) at the China Institute of Atomic Energy (CIAE) in October 
2005 to promote adoption of modern security practices and technologies 
at China's nuclear facilities. The Tech Demo initiated cooperation in 
numerous areas, including material protection, control, and accounting; 
nuclear safeguards; nuclear security culture; domestic inspections; and 
secure transportation. Since the successful completion of the Tech 
Demo, NNSA's International Material Protection and Cooperation Program 
has cooperated with CAEA to conduct several technical workshops 
supporting the exchange of best practices in various areas of nuclear 
security.

    <bullet>  NNSA provided radiation detection equipment to China for 
the 2008 Beijing Olympics, the Shanghai Expo and the Asia Games and is 
also working to install radiation detection equipment at the Port of 
Yangshan in Shanghai.

    <bullet>  NNSA is also collaborating with the Chinese to establish 
a Customs training center at the Qinhuangdo Training Center.
    Mr. Turner. The U.S. has been doing the Nunn-Lugar program for a 
couple decades now, primarily focused on securing and dismantling 
nuclear systems in Russia and the former Soviet Union. Many of these 
efforts are nearing completion and ramping down.
    Do you have any concerns about potential Russian proliferation 
threats that are not covered under the Nunn-Lugar program that worry 
you? If Russia has become a responsible actor with improved cash flow, 
shouldn't they be shouldering more of the responsibility for securing 
and destroying their own nuclear materials?
    Secretary D'Agostino. While the majority of major security upgrades 
in Russia, including all Russian Federation Ministry of Defense warhead 
storage sites, were completed by the end of 2008, as agreed to in the 
2005 Bratislava Nuclear Security Initiative, several important areas 
and buildings have been added to the scope of our activities and are 
reflected in our revised Joint Action Plan, which lays out the scope of 
security work to be undertaken by the United States and Russia by site. 
These areas contain large quantities of weapons usable nuclear 
materials. The recent extension of the statutory deadline for bilateral 
cooperation in Material Protection, Control and Accounting (MPC&A) to 
January 1, 2018, will permit the MPC&A program to continue to work 
closely with the Russian Federation to ensure the successes of the past 
15 years of cooperation are maintained until all cooperative upgrade 
projects are completed.
    While some security upgrade work is still underway, NNSA and 
Rosatom have established well-defined criteria to guide the transition 
of sustainability responsibilities to Russia for completed security 
upgrades by site, which are formalized in a Joint Sustainability Plan. 
This plan outlines seven key principles that characterize a sustainable 
MPC&A program and guide U.S.-Russian project teams assessments of each 
site's ability to transition to full Russian support (MPC&A 
organization; site operating procedures; human resource management and 
site training; operational cost analysis; equipment maintenance, 
repair, and calibration; performance testing and operational 
monitoring; and MPC&A system configuration management). When 
deficiencies are identified, U.S.-Russian project teams agree to 
specific activities that should be undertaken to address those gaps.
    Though the NNSA is continuing efforts to fully transition 
responsibility for MPC&A sustainability support to the Russian 
Federation, it is in the national security interest of the United 
States to remain engaged. While there are no specific threats of 
concern outside the Nunn-Lugar Program scope, there are threats within 
the scope that continue to concern the U.S. and influenced the interest 
in MPC&A Program extension, namely the insider threat. While not a new 
consideration for the MPC&A Program, the threat of a knowledgeable, 
authorized person (insider) stealing even small quantities of nuclear 
material remains a concern. The MPC&A Program is looking at new and 
creative ways to further thwart insider theft or diversion of materials 
through additional layers of security, programmatic and procedural 
changes, and further improvements to nuclear material control and 
accounting.
    We agree that as Russian national budgets increase, their share of 
funds devoted to nuclear security activities should increase as well. 
At every opportunity, NNSA seeks to cost share with our Russian 
counterparts, and has a long list of successful examples.

    Examples include:

    <bullet>  At various Russian Rosatom and Civilian sites, cost 
sharing arrangements are in place for the installation and 
sustainability of MPC&A upgrades. In addition, the Ministry of Defense 
has committed to take over full financial responsibility for sustaining 
permanent warhead sites (11 sites with DOE-funded upgrades, 18 sites 
with DOD-funded upgrades).

    <bullet>  The Second Line of Defense Program has a cost-sharing 
arrangement with the Russian Federal Customs Service (FCS) for 
installing radiation detection equipment at Russia's border crossings 
whereby approximately half of the sites have been funded and equipped 
by the FCS and half funded and equipped by NNSA. Transition of all 
maintenance and sustainability responsibility to the FCS for deployed 
radiation detection systems is planned to be completed by 2013.

    <bullet>  In support of Russian plutonium disposition efforts, the 
Fast Reactor and Gas Turbine-Modular Helium Reactor (GT-MHR) programs 
both rely on cost-sharing. For Russian plutonium disposition, the U.S. 
pledged to provide up to $400 million to assist Russia in disposing of 
its excess weapon-grade plutonium. The total estimated cost of the 
Russian contribution for implementing the program is approximately $2.5 
billion. The U.S. may fund up to 100% of a limited number of non-
proliferation activities (BN-600 blanket removal and BN-800 core 
redesign), but in most cases the U.S. will fund no more than 50% of the 
total cost of any given Russian plutonium disposition activity. For the 
GT-MHR program, joint research and development in Russia is funded on a 
50/50 cost sharing basis with the U.S. Since 2000, the U.S. has 
provided $29.1 million and Rosatom has provided $32.6 million for GT-
MHR work in Russia. The U.S. does not release funds until Rosatom 
commits, in writing, to provide an equivalent amount of Russian funds. 
U.S. funds for the GT-MHR program do not count against the $400 million 
U.S. pledge.

    With respect to securing vulnerable radiological materials in 
Russia, the Global Threat Reduction Initiative (GTRI) is continuing its 
cooperative efforts to recover radioisotope thermoelectric generators 
(RTGs) in the Russian Federation. GTRI funds have supported the 
recovery, disassembly, and disposal of RTGs, as well as the replacement 
of these units with alternative power sources (APS). As an example of 
cost-sharing, GTRI no longer pays for the installation of APS units. 
Instead, Russia is responsible for securing the necessary 
transportation and technical crew to complete the installations. 
Additionally, Russia has provided discounted or `at cost' rates for 
some RTG transportation during multiple U.S.-funded recovery campaigns. 
Although the U.S. plays a large role in recovering RTGs, it is an 
international effort involving Norway, France, Canada, and Russia. To 
date, the U.S. has recovered 273 RTGs, Norway has recovered 213 RTGs 
(some using funds from Finland), France has recovered 16 RTGs, and 
Canada has funded the recovery of 64 RTGs through the U.S. and Norway. 
Using these contributions, Russian technical specialists perform the 
RTG recovery, transport, disassembly, and disposal activities. 
Additionally, Russia pays for the recovery of RTGs using funds from the 
Federal Target Program (FTP). In the past few years, Russia has 
recovered 32 RTGs. The RTG recoveries are coordinated at the 
international level through the IAEA.
    Mr. Turner. Administrator D'Agostino, in your testimony you noted 
that it would not be advisable to make reductions in our hedge 
stockpile until NNSA is able to ``demonstrate that our infrastructure 
is responsive and being able to respond to needs that the country may 
have,'' which included ``having a uranium processing facility that is 
up and running, having a chemistry and metallurgy research replacement 
facility that is available to do the surveillance work on our stockpile 
and help support a modest amount of pit manufacturing capability,'' as 
well as a capability at the Pantex Plant to make the size of high 
explosives necessary to support the stockpile out into the future.
    Secretary D'Agostino. To elaborate, as described in the Nuclear 
Posture Review, the non-deployed stockpile currently includes more 
warheads than required to hedge against technical or geopolitical 
surprise, due to the limited capacity of the NNSA complex to conduct 
LEPs for deployed weapons in a timely manner. Progress in restoring 
NNSA's production infrastructure will allow these excess warheads to be 
retired along with other stockpile reductions planned over the next 
decade.
    The recommended size of the projected future stockpile is updated 
annually in a Nuclear Weapons Council memorandum to the President based 
on a joint DoD-DOE assessment that factors in progress on LEPs, NNSA 
progress in infrastructure recapitalization, and the geopolitical 
security environment. Ultimately, the President has the final say 
regarding the size of the stockpile. The President's final decision 
comes in the form of a Presidential Policy Directive.
    Mr. Turner. The May 2010 Stockpile Stewardship and Management Plan 
(SSMP), Table D-1, specifies a ``baseline capacity provided by a 
capability-based infrastructure'' to include the ability to deliver to 
the stockpile up to 80 plutonium pits and 80 Canned Sub-Assemblies 
(CSAs) per year. The SSMP further states that the manufacturing 
capability for 80 pits and 80 CSAs per year are dependent on the 
construction completion of the Chemistry and Metallurgy Research 
Replacement (CMRR) facility and Uranium Processing Facility (UPF). 
Furthermore, in reply to a committee request for information (delivered 
to the committee on April 12, 2011), NNSA noted that reductions in the 
hedge stockpile would be conditioned on the ``realization'' of certain 
``events,'' including ``successful'' Life Extension Programs for 
several warheads, and the ``full operational functionality'' of CMRR 
and UPF, planned for 2023 and 2024, respectively.
    Secretary D'Agostino. To elaborate, as described in the Nuclear 
Posture Review, NNSA has a limited capacity for nuclear warhead 
component production. Current facilities cannot support future 
stockpile life extension requirements, and have no ``surge'' capacity 
in the event of a technical failure or geopolitical surprise. 
Therefore, USSTRATCOM requires that NNSA maintain a hedge stockpile. As 
noted in the NPR, progress in restoring NNSA's infrastructure--
construction of CMRR and UPF, among other facilities--should allow this 
hedge to be reduced.
    Mr. Turner. The compilation of this testimony and material from 
NNSA would lead one to conclude that reductions in the hedge stockpile 
should not be made until these conditions are met. Please tell us if 
this conclusion is correct, and elaborate on these and any other 
specific capabilities that must be demonstrated or fully operational, 
and identify the associated infrastructure milestones for the 
realization of such capabilities, before such cuts could safely be made 
while preserving current or better levels of safety, security, and 
reliability to our deterrent.
    Secretary D'Agostino. As described in the Nuclear Posture Review, 
NNSA has a limited capacity for nuclear warhead component production. 
Current facilities cannot support future stockpile life extension 
requirements, and have no ``surge'' capacity in the event of a 
technical failure or geopolitical surprise. Therefore, USSTRATCOM 
requires that NNSA maintain a hedge stockpile. As noted in the NPR, 
progress in restoring NNSA's infrastructure--construction of CMRR and 
UPF, among other facilities--should allow this hedge to be reduced.
    The recommended size of the projected future stockpile is updated 
annually in a Nuclear Weapons Council memorandum to the President based 
on a joint DoD-DOE assessment that factors in progress on LEPs, NNSA 
progress in infrastructure recapitalization, and the geopolitical 
security environment. Ultimately, the President has the final say 
regarding the size of the stockpile. The President's final decision 
comes in the form of a Presidential Policy Directive.
    Mr. Turner. Administrator D'Agostino, how quickly would we be able 
to respond to unfavorable changes in the geopolitical nuclear security 
environment? Please comment on whether significant reductions to our 
deployed and non-deployed weapons would constrain or expand our 
technical flexibility to respond to unfavorable changes in the 
geopolitical environment, and how this technical flexibility would be 
affected as our weapons continue to age.
    Secretary D'Agostino. The first and second questions are for DoD 
and STRATCOM, not the NNSA to answer.
    Regarding the questions on how this technical flexibility would be 
affected as our weapons age, one of the reasons the reserve stockpile 
is maintained in such a high state of readiness is because NNSA has a 
limited capacity for nuclear warhead component production. As noted in 
the NPR, progress in restoring NNSA's infrastructure--construction of 
CMRR and UPF, among other facilities--should allow this hedge to be 
reduced as we transfer risk from the reserve stockpile to the 
infrastructure. However, our ability to retire additional weapons or 
conduct follow on strategic or non-strategic reductions is a policy 
decision not directly affecting NNSA at this time. Previous 
Administrations have exercised this flexibility in consultation with 
allies, and reduced the number of weapons needed to provide extended 
deterrence and meet security commitments.
    Projected future reductions to the total stockpile are premised on 
a number of assumptions and events, listed below. As these assumptions 
and events are realized, reductions in the size of the hedge should 
begin to occur.

    <bullet>  New START implementation occurs as scheduled (New START 
entered into force on February 5, 2011).

    <bullet>  Warhead life extensions increase stockpile safety, 
security, and reliability as planned and required.

    <bullet>  Infrastructure improvements provide the capability to 
produce components and extend the life of existing weapons. The CMRR 
and UPF are expected to be at full operational functionality by 2023 
and 2024, respectively. The Pantex High Explosive Pressing Facility is 
expected to be fully operational in 2017.

    <bullet>  The geopolitical nuclear security environment remains 
favorable.

    The realization of these events will allow us to mitigate the risk 
that significant reductions to the deployed and non-deployed stockpiles 
will constrain our technical flexibility to respond to unfavorable 
changes in the geopolitical environment. Moreover, modernization of the 
Nuclear Security Enterprise and continued success in the science based 
stockpile stewardship and management program will provide a solid 
foundation for our continued ability to increase our technical 
flexibility to manage our aging stockpile at lower numbers.
    In addition to maintaining a strong nuclear deterrent, the NNSA is 
developing a broad array of capabilities underpinning an agile response 
to future changes in the global nuclear security environment. NNSA's 
Defense, Nonproliferation, Counterterrorism, and Emergency Response 
Programs are collaborating to provide capabilities to analyze foreign 
nuclear weapons programs and to strengthen nuclear forensics 
capabilities. The Supplemental Appropriations Act, 2009 P. L. 111-32 
provided $30 million to support a sustainable capability to analyze 
nuclear and biological weapons intelligence, resulting in more 
effective management and technical coordination between NNSA and the 
intelligence community.
    Beyond FY12, NNSA plans to advance a program that would continue to 
strengthen the science and technology capabilities needed for assessing 
foreign nuclear weapons activities. Building on the infrastructure 
supporting stewardship of the US stockpile, this program will ensure an 
enduring technical foundation for intelligence missions. Capabilities 
developed under this program will advance the development and 
interpretation of intelligence indicators, the assessment of foreign 
weapons capabilities, and the mitigations of threats associated with 
technical advances. The NNSA also has an effort underway to strengthen 
related nuclear counterterrorism and counterproliferation efforts that 
cut across a number of its major programs.

    Mr. Turner. China's proliferation record in the past has been 
rather mixed, to say the least. Howard Berman, Ranking Member of the 
House Foreign Affairs Committee, once said that China's pattern was to 
``proliferate, promise not to, proliferate, promise not to, and 
proliferate.'' NNSA and DOD's Cooperative Threat Reduction (CTR) 
budgets now include proposed funding for a nuclear Center of Excellence 
in China. What confidence do you have that China has changed its 
behavior--that it is now committed to nonproliferation in its actions 
as well as its words?
    Ms. Harrington. In the past, the nuclear and arms trade practices 
of the People's Republic of China (PRC) did not conform to 
international nonproliferation regime standards. Over the years, China 
has joined multilateral institutions and treaties such as the 
International Atomic Energy Agency (IAEA) in 1984 and the Nuclear Non-
Proliferation Treaty (NPT) in 1992, while also engaging in bilateral 
cooperation, such as conducting activities under the 2004 Statement of 
Intent signed by DOE and the China Atomic Energy Authority (CAEA), and 
the 1998 Peaceful Uses of Nuclear Technology (PUNT) Agreement between 
DOE and the State Development Planning Commission of the PRC. Improving 
China's nuclear security and export controls standards has been a long-
term, bipartisan security goal of the United States along with partner 
countries in the nonproliferation regime.
    As a permanent member of the United Nations Security Council and a 
nuclear weapon state, China is a critical member of the nuclear 
security community. Formalizing the nonproliferation advances that 
China has made in the past decade is important to international efforts 
in nonproliferation. Recent high-level interactions, such as the state 
visit to the United States by President Hu Jintao in January 2011, and 
agency-to-agency technical exchanges, have reinforced the view that 
China is engaged in improving nuclear security. NNSA is therefore 
working with China to improve its indigenous capacity by sharing best 
practices in nuclear security and to assist the Chinese in implementing 
accepted global standards throughout their nuclear complex.
    Through U.S.-China cooperative engagement, including the Center of 
Excellence (COE), NNSA aims to improve global nuclear security by: 
raising China's awareness of material security issues and associated 
nuclear security and safeguards methods and technologies; promoting an 
export control system that prevents illicit transfers of WMD dual-use 
commodities; minimizing the use of highly enriched uranium (HEU) in 
civilian applications; establishing a platform for promoting further 
U.S.-China technical cooperation; strengthening China's training 
capabilities on nuclear and radiological material security; and 
improving security of radioactive sources. Cooperation on the COE 
reflects the U.S. and Chinese governments' commitment to strengthening 
their cooperation on nonproliferation, nuclear security and in 
combating nuclear terrorism.

    Additional cooperation between the U.S. and China includes:

    <bullet>  NNSA and CAEA conducted a joint technology demonstration 
(Tech Demo) at the China Institute of Atomic Energy (CIAE) in October 
2005 to promote adoption of modern security practices and technologies 
at China's nuclear facilities. The Tech Demo initiated cooperation in 
numerous areas, including material protection, control, and accounting; 
nuclear safeguards; nuclear security culture; domestic inspections; and 
secure transportation. Since the successful completion of the Tech 
Demo, NNSA's International Material Protection and Cooperation Program 
has cooperated with CAEA to conduct several technical workshops 
supporting the exchange of best practices in various areas of nuclear 
security.

    <bullet>  NNSA provided radiation detection equipment to China for 
the 2008 Beijing Olympics, the Shanghai Expo and the Asia Games and is 
also working to install radiation detection equipment at the Port of 
Yangshan in Shanghai.

    <bullet>  NNSA is also collaborating with the Chinese to establish 
a Customs training center at the Qinhuangdo Training Center.
    Mr. Turner. The U.S. has been doing the Nunn-Lugar program for a 
couple decades now, primarily focused on securing and dismantling 
nuclear systems in Russia and the former Soviet Union. Many of these 
efforts are nearing completion and ramping down.
    Do you have any concerns about potential Russian proliferation 
threats that are not covered under the Nunn-Lugar program that worry 
you? If Russia has become a responsible actor with improved cash flow, 
shouldn't they be shouldering more of the responsibility for securing 
and destroying their own nuclear materials?
    Ms. Harrington. While the majority of major security upgrades in 
Russia, including all Russian Federation Ministry of Defense warhead 
storage sites, were completed by the end of 2008, as agreed to in the 
2005 Bratislava Nuclear Security Initiative, several important areas 
and buildings have been added to the scope of our activities and are 
reflected in our revised Joint Action Plan, which lays out the scope of 
security work to be undertaken by the United States and Russia by site. 
These areas contain large quantities of weapons usable nuclear 
materials. The recent extension of the statutory deadline for bilateral 
cooperation in Material Protection, Control and Accounting (MPC&A), to 
January 1, 2018, will permit the MPC&A program to continue to work 
closely with the Russian Federation to ensure the successes of the past 
15 years of cooperation are maintained until all cooperative upgrade 
projects are completed.
    While some security upgrade work is still underway, NNSA and 
Rosatom have well defined criteria used to transition sustainability to 
Russia for completed security upgrades by site, which are formalized in 
a Joint Sustainability Plan. This plan outlines seven key principles 
that characterize a sustainable MPC&A program and guide U.S.-Russian 
project teams assessments for each site's ability to transition to full 
Russian support (MPC&A organization; site operating procedures; human 
resource management and site training; operational cost analysis; 
equipment maintenance, repair, and calibration; performance testing and 
operational monitoring; and MPC&A system configuration management). 
When deficiencies are identified, U.S.-Russian project teams agree to 
specific activities that should be undertaken to address those gaps.
    Though the NNSA is continuing efforts to fully transition 
responsibility for MPC&A sustainability support to the Russian 
Federation, it is in the national security interest of the United 
States to remain engaged. While there are no specific threats of 
concern outside the Nunn-Lugar Program scope, there are threats within 
the scope that continue to concern the U.S. and influenced the interest 
in MPC&A Program extension, namely the insider threat. While not a new 
consideration for the MPC&A Program, the threat of a knowledgeable, 
authorized person (insider) stealing even small quantities of nuclear 
material remains a concern. The MPC&A Program is looking at new and 
creative ways to further thwart insider theft or diversion of materials 
through additional layers of security, programmatic and procedural 
changes, and further improvements to nuclear material control and 
accounting.
    We agree that as Russian national budgets increase, their share of 
funds devoted to nuclear security activities should increase as well. 
At every opportunity NNSA seeks to cost share with our Russian 
counterparts, and has a long list of successful examples. Examples 
include:

    <bullet>  At various Russian Rosatom and Civilian sites, cost 
sharing arrangements are in place for the installation and 
sustainability of MPC&A upgrades. In addition, the Ministry of Defense 
has committed to take over full financial responsibility for sustaining 
permanent warhead sites (11 sites with DOE-funded upgrades, 18 sites 
with DOD-funded upgrades).

    <bullet>  The Second Line of Defense Program has a cost-sharing 
arrangement with the Russian Federal Customs Service for installing 
radiation detection equipment at Russia's border crossings whereby 
approximately half of the sites have been equipped by the FCS and half 
by NNSA. Transition of all maintenance and sustainability 
responsibility to the FCS for deployed radiation detection systems is 
planned to be completed by 2013.

    <bullet>  In support of Russian plutonium disposition efforts, the 
Fast Reactor and Gas Turbine-Modular Helium Reactor (GT-MHR) programs 
both rely on cost-sharing. For the fast reactor program, the U.S. 
pledged to provide up to $400 million to assist Russia in disposing of 
its excess weapon-grade plutonium. The total estimated cost of the 
Russian contribution for implementing the program is in excess of $2 
billion. The U.S. may fund up to 100% of a limited number of non-
proliferation activities (BN-600 blanket removal and BN-800 core 
redesign), but in most cases the U.S. will fund no more than 50% of the 
total cost of any given Russian plutonium disposition activity. For the 
GT-MHR program, joint research and development in Russia is funded on a 
50/50 cost sharing basis. Since 2000, the U.S. has provided $29.1 
million and Rosatom has provided $32.6 million for GT-MHR work in 
Russia. The U.S. does not release funds until Rosatom commits, in 
writing, to provide an equivalent amount of Russian funds. U.S. funds 
for the GT-MHR program do not count against the $400 million U.S. 
pledge.

    <bullet>  With respect to securing vulnerable radiological 
materials in Russia, the Global Threat Reduction Initiative (GTRI) is 
continuing its cooperative efforts to recover radioisotope 
thermoelectric generators (RTGs) in the Russian Federation. GTRI funds 
have supported the recovery, disassembly, and disposal of RTGs, as well 
as the replacement of these units with alternative power sources (APS). 
As an example of cost-sharing, GTRI no longer pays for the installation 
of APS units. Instead, Russia is responsible for securing the necessary 
transportation and technical crew to complete the installations. 
Additionally, Russia has provided discounted or `at cost' rates for 
some RTG transportation during multiple U.S.-funded recovery campaigns. 
Although the U.S. plays a large role in recovering RTGs, it is an 
international effort involving Norway, France, Canada, and Russia. To 
date, the U.S. has recovered 273 RTGs, Norway has recovered 213 RTGs 
(some using funds from Finland), France has recovered 16 RTGs, and 
Canada has funded the recovery of 64 RTGs through the U.S. and Norway. 
Using these contributions, Russian technical specialists perform the 
RTG recovery, transport, disassembly, and disposal activities. 
Additionally, Russia pays for the recovery of RTGs using funds from the 
Federal Target Program (FTP). In the past few years, Russia has 
recovered 32 RTGs. The RTG recoveries are coordinated at the 
international level through the IAEA.

    Mr. Turner. China's proliferation record in the past has been 
rather mixed, to say the least. Howard Berman, Ranking Member of the 
House Foreign Affairs Committee, once said that China's pattern was to 
``proliferate, promise not to, proliferate, promise not to, and 
proliferate.'' NNSA and DOD's Cooperative Threat Reduction (CTR) 
budgets now include proposed funding for a nuclear Center of Excellence 
in China. What confidence do you have that China has changed its 
behavior--that it is now committed to nonproliferation in its actions 
as well as its words?
    Secretary Weber. We understand the concerns regarding China's past 
actions.
    We believe that China shares our interest in improving the security 
of nuclear materials worldwide. The Center of Excellence partnership 
between the United States and China is intended to promote best 
practices in nuclear security in China and throughout the region.
    Those best practices are intended to strengthen security procedures 
and reduce the likelihood of proliferation of nuclear material.
    China is funding all construction and land acquisition for the 
Center of Excellence, which is significantly in excess of fifty percent 
(50%) of the expected total cost for establishment of the Center. 
Closely monitoring and managing funds for cooperative programming 
initiatives is a hallmark of the way we work, and we ensure 
accountability with all our partners.
    Mr. Turner. The U.S. has been doing the Nunn-Lugar program for a 
couple decades now, primarily focused on securing and dismantling 
nuclear systems in Russia and the former Soviet Union. Many of these 
efforts are nearing completion and ramping down.
    a) Do you have any concerns about potential Russian proliferation 
threats that are not covered under the Nunn-Lugar program that worry 
you?
    b) If Russia has become a responsible actor with improved cash 
flow, shouldn't they be shouldering more of the responsibility for 
securing and destroying their own nuclear materials?
    Secretary Weber. (a) The Nunn-Lugar Cooperative Threat Reduction 
(CTR) Program continues to be a primary mechanism by which the U.S. 
Government partners with the Russian Federation to address shared 
proliferation concerns.
    The CTR Program's site-specific work in Russia is a key component 
of the U.S. interagency strategy to support the focused and intensified 
international effort to secure or eliminate nuclear materials.
    Working with the U.S. Department of Energy (DOE), we continue to 
partner with the Russian Ministry of Defense (MOD) to ensure that the 
necessary capabilities exist to transition responsibility to MOD to 
maintain and sustain the physical protection system upgrades that have 
been installed at nuclear weapons storage sites.
    Further, our continued support for transportation security in 
Russia supports U.S. nonproliferation objectives by securely shipping 
warheads to dismantlement locations or more secure storage sites, 
pending dismantlement.
    (b) In addition to providing transparency into Russian Federation 
WMD threat reduction activities, the CTR Program enhances United States 
security by providing a mechanism to engage in confidence and security 
building measures, enabling us to share best practices in dismantling, 
destroying, securing, and safeguarding nuclear delivery systems.
    We continue to believe that engagement with the Russian Federation 
through the CTR Program supports U.S. non-proliferation and strategic 
interests.
    Moreover, cooperation with the Russian Federation funded through 
the CTR Program has endured as a steady, open channel even during 
periods of instability in other aspects of the United States-Russia 
relationship.
    We closely manage and oversee the manner in which funding for 
cooperative programming initiatives is handled. Care in this regard is 
a hallmark of the way we work, and we ensure accountability with all 
our partners.
    The CTR Program considers each Russian request independently; not 
all requests for support are granted.

    Mr. Turner. Discuss some of the challenges that you are working 
through on how you would implement the New START force structure 
reductions. When will the Department make its final decisions on its 
post-New START force composition and when will Congress see the 
specific implementation schedule and estimated funding requirements?
    General Chambers. Providing a specific implementation schedule, 
along with an accurate cost estimate, is not feasible until a force 
structure has been established. The Air Force is currently working with 
the Joint Staff to evaluate potential force structure options. The Air 
Force remains confident we will be able to meet New START central 
limits requirements before the 5 Feb 2018 deadline.

    Mr. Turner. Discuss some of the challenges that you are working 
through on how you would implement the New START force structure 
reductions. When will the Department make its final decisions on its 
post-New START force composition and when will Congress see the 
specific implementation schedule and estimated funding requirements?
    Admiral Benedict. The Secretary of Defense, based on 
recommendations from the Joint Chiefs of Staff, established a baseline 
force structure which is outlined in the updated 1251 Report. While 
final force structure decisions do not impact Navy force structure, the 
DoD continues to study the final force structure under New START and 
will announce the end state force structure at the appropriate time.
    To implement New START force structure reductions, the Navy will 
reduce the overall number of deployed SLBM warheads. This activity will 
be accomplished over the 7-year reduction window allowed by the Treaty, 
and to the maximum extent possible, will be accomplished as part of 
normal missile processing operations in order to minimize operational 
fleet impacts, as well as reduce the cost associated with Treaty 
implementation.
    The Navy also plans to convert four SLBM launchers on each of its 
existing SSBNs such that these converted launchers will no longer be 
capable of launching an SLBM, resulting in a force of 14 SSBNS each 
with 20 SLBM launchers. This effort will require design and procurement 
of a new launcher closure. Additionally, the Navy must procure ballasts 
for each of the converted launcher tubes to ensure proper stability and 
operation of the submarine.
    These activities are a multi-year design and procurement effort. 
Successful completion of conversions of these launchers and subsequent 
removal from Treaty accountability requires careful management and 
synchronization of all planned maintenance efforts with the SSBN force 
during the conversion period. SSP has identified the funding required 
to perform New START Treaty implementation activities in the 1251 
Report and is working within the Navy resourcing process to request 
resources.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. What has been the impact of operating below the FY10 
appropriations levels for until April 2011 and the delayed and reduced 
FY11 appropriations (reduction in $300 million below the FY11 budget 
request), on progress to urgently secure or remove vulnerable nuclear 
weapons-materials. One impact has been NNSA's inability to remove all 
highly-enriched uranium from Belarus as promised by 2012.
    Are you concerned about these reductions and how has this impacted 
our efforts to secure nuclear materials? How has this impacted your 
other non-proliferation programs, since a lot of the funding has been 
reprioritized to cover GTRI efforts? How will funding be allocated in 
FY11?
    Secretary D'Agostino. During the Continuing Resolution, NNSA 
allocated its reduced FY 2011 budget authority to the highest 
priorities. NNSA ensured that programs supporting the President's 
commitment to secure the most vulnerable nuclear materials around the 
world in four years were funded to the greatest extent possible. In 
accordance with the agreements reached by the President at the April 
2010 Nuclear Security Summit and the December 2010 Joint Statement with 
Belarus, NNSA has allocated funding to complete highly enriched uranium 
(HEU) removals/downblending from Ukraine, Belarus, Serbia, Kazakhstan, 
and South Africa in FY 2011 and has fully funded efforts needed in FY 
2011 to remove all remaining HEU from Ukraine, Mexico and Belarus by 
April 2012 despite the lower than expected FY 2011 budget. However, the 
Global Threat Reduction Initiative (GTRI) postponed long-lead 
procurement and preparation activities for HEU removals from Vietnam 
and Hungary due to NNSA's prioritization of other nonproliferation 
activities under the lower than requested funding levels, which will 
delay these shipments from 2012 to 2013, assuming full and on-time 
arrival of FY 2012 requested funding.
    Additionally, GTRI efforts related to research reactor conversion 
and radiological material security have been significantly reduced in 
FY 2011, and may be reduced in FY 2012 and FY 2013 in order to 
accommodate accelerated nuclear material lockdown efforts. Reductions 
include fewer HEU reactors converted to LEU in FY 2011 and FY 2012 than 
planned, an approximately two-year delay in creating domestic non-HEU 
based Mo-99 supply, an approximately two-year delay in development of a 
new LEU high density fuel to convert high performance research 
reactors, and fewer radiological recoveries and security upgrades both 
domestically and internationally.
    Ms. Sanchez. Please give us more details on how the NNSA 
contributes and improves verification. What are the challenges that 
remain? What is the constraint on making faster progress?
    Secretary D'Agostino. NNSA develops technologies and methodologies, 
negotiates measures, and implements agreements to verify information 
and compliance with a range of arms control and nonproliferation 
initiatives. Examples include:

    <bullet>  Highly Enriched Uranium (HEU) Purchase Agreement: NNSA 
implements the monitoring provisions of the 1993 HEU Purchase 
Agreement, under which 500 Metric Tons (MT) of Russian weapons-origin 
HEU is converted to low enriched uranium (LEU) in Russia and then 
shipped to the United States where it is fabricated into nuclear fuel 
and produces electricity for U.S. consumers. NNSA uses a variety of 
monitoring approaches to ensure that the HEU provided by the Russians 
is in fact weapons-origin material. These approaches include: 24 annual 
on-the-ground special monitoring visits to the four Russian nuclear 
materials production sites under the Agreement; the right to use U.S. 
monitoring technology and equipment inside the four Russian nuclear 
material production facilities; and the receipt and analysis of Russian 
nuclear material processing and accountability documents. This three-
pronged approach provides high confidence that the Russians are meeting 
their commitments under the Agreement.

    <bullet>  New START: NNSA provided policy and technical support to 
the interagency deliberation process, and NNSA representatives were 
responsible for negotiating specific portions of the Treaty. NNSA 
supported the achievement of U.S. arms control objectives while at the 
same time ensuring the safety, security, and effectiveness of the U.S. 
nuclear weapons stockpile. For the purpose of implementing the Treaty, 
NNSA is leading efforts to develop and use radiation detection 
equipment for inspections to confirm that objects declared to be non-
nuclear are non-nuclear. In support of follow-on arms limitation 
treaties, NNSA is developing technology for counting deployed and 
stored weapons, ascribing a weapon to a particular class of treaty 
controlled items, verifying chain-of-custody of a nuclear weapon from 
production to dismantlement, and enabling transparent and verifiable 
dismantlement of a nuclear weapon and disposition of its nuclear 
material.

    <bullet>  Comprehensive Nuclear-Test-Ban Treaty (CTBT): NNSA 
supports the U.S. interagency and the CTBT Organization's Provisional 
Technical Secretariat in Vienna, Austria, to improve the effectiveness 
of all parts of the CTBT and nuclear testing detection verification 
regime. The NNSA provides technical solutions for the development of 
U.S. verification/monitoring capabilities that could be used to support 
CTBT verification/monitoring and provide technical support for 
implementation of the CTBT. This is accomplished though the sharing of 
expertise gained on procedures and technology developed by the United 
States during its long experience of nuclear testing and nuclear 
explosion monitoring. This capability development focuses on reducing 
detection thresholds through research and demonstrations related to 
source physics, propagation, sensors, and analytical methods.

    Verification challenges that persist involve both scientific and 
programmatic issues.

    <bullet>  On the scientific front, confirming the presence or 
absence of HEU components in a manner that does not reveal sensitive 
weapons information remains a significant challenge. Unlike plutonium 
components, HEU does not emit signatures that are readily detectable 
absent interrogation using a neutron source. Interrogation with a 
source, however, complicates the measurement in terms of safety 
considerations as well as the range of information that may be revealed 
as a result of the interrogation and detected response. Verifying the 
presence of high explosives as an attribute of a warhead poses similar 
technical challenges. Additional resources to apply to these types of 
scientific challenges can help, but to an extent they will remain 
constrained by physics.

    <bullet>  On the programmatic side, issues requiring further 
investigation include balancing the level of access and information the 
United States is likely to require from another country in a future 
verification regime against the level of access and information the 
United States may be willing to provide. This involves managing access 
to sensitive sites in a manner that supports verification without 
compromising sensitive activities at the site or significantly 
impacting ongoing operations and schedules. One way to address this is 
to build transparency and verification into new facilities, but this is 
not a simple process and requires a good understanding of potential 
future verification requirements and designs that would support such 
requirements. Further, such measures could create additional resource 
requirements in the design and construction phases. Resources can also 
be applied after specific requirements are identified, for example, to 
build a dedicated facility to support monitored storage of items or 
verification of specific operations. However, building a dedicated 
facility after monitoring and verification requirements are specified 
is likely to cost much more than building capability into a facility 
that is already being designed to meet existing operational 
requirements. Further, such an approach simply may take too long to be 
effective.
    Ms. Sanchez. What can be done to increase the rate of 
dismantlements? What is the limiting factor?
    Secretary D'Agostino. The dismantlement rate has been defined 
through an NNSA commitment to Congress to eliminate by FY 2022 the 
retired warheads that existed at the end of FY 2009. The dismantlement 
plan outlined in the FY 2012 Stockpile Stewardship and Management Plan 
(SSMP) supports this FY 2022 goal, and the President's Budget Request 
fully funds this dismantlement plan.
    There are several limiting factors associated with increasing the 
rate of dismantlements including safety considerations; facility 
capacity; competing program commitments such as alterations, life 
extension programs, limited life component exchanges, and surveillance; 
weapon complexity; the storage of the warheads and associated 
components from the dismantlement operations; and secure 
transportation.
    Efforts within Defense Programs for dismantlement activities are 
interlinked; in order to achieve increased dismantlements NNSA would 
need additional support not only for Weapons Dismantlement and 
Disposition, but also for the Office of Secure Transportation, 
Production Support and Readiness in Technical Base and Facilities 
(RTBF). Dismantlement funding enables this increase shifts, the Office 
of Secure Transportation funds the addition weapons movements, 
Production Support accommodates the additional production & engineering 
management, tooling provisioning, material procurement, receiving 
inspection, and product transportation, while RTBF provides for 
additional facility operations cost, equipment maintenance costs, 
additional container costs, storage capacities, and disposition waste 
stream levels.
    Ms. Sanchez. What improvements have been made on surveillance and 
how does the FY12 budget request support this?
    Secretary D'Agostino. Surveillance activities are essential to 
enabling continued certification of the reliability of the stockpile 
without nuclear testing. Surveillance involves withdrawing weapons from 
deployment and subjecting them to laboratory tests, as well as joint 
flight tests with the DoD to assess their reliability. These activities 
allow detection of possible manufacturing and design defects as well as 
material degradation over time. The NNSA continues to implement a 
surveillance program that builds on those core activities, which allows 
us to support the current state of the stockpile, detect in advance 
potential problems, and take remedial actions.
    The NNSA has reviewed the stockpile surveillance program and its 
funding profile. When adjusted for inflation, FY 2005 through FY 2009, 
funding for surveillance activities fell by 27 percent. Beginning in FY 
2010, the surveillance budget was increased by 50 percent, from $158 
million to $239 million. In the FY 2012 budget request, the President 
seeks to sustain this increase and a more robust surveillance program 
throughout the Future Years Nuclear Security Program (FYNSP).
    With increased funding many improvements have been made on 
surveillance. The NNSA increased the number of planned laboratory and 
flight tests from 48 in FY 2010 to 74 in FY 2011. The total number of 
planned major surveillance activities (including pit, canned 
subassembly, gas transfer systems, detonator cable assembly tests and 
disassembly and inspection) also increased from 276 in FY 2010 to 432 
in FY 2011. In addition, surveillance activities supported the 
development of diagnostic capabilities at Y-12 for critical components 
of the nuclear explosive package. These capabilities will aid the 
current W76-1 production and surveillance of other warheads in the 
stockpile. This increased testing rate and improved diagnostics 
continue to be supported in the FY 2012 budget request. Furthermore, 
NNSA has taken action to hire a Surveillance Senior Advisor to assure a 
cohesive program, to enable a cost effective program, and to integrate 
surveillance activities across the nuclear weapons enterprise.
    Ms. Sanchez. What measures are you taking now to ensure that CMRR 
and UPF do not exceed cost and schedule projections?
    Secretary D'Agostino. Construction of large, one-of-a-kind 
facilities such as CMRR and UPF presents significant challenges. 
Several reviews by the GAO have found that initiating construction 
before designs are complete contributes to increased cost and schedule 
delays. In response to these review findings, and in order to assure 
the best value for the taxpayer, NNSA has concluded that reaching the 
90 percent engineering design stage before establishing a project 
baseline for these facilities is critical to the successful pursuit of 
these capabilities.
    Responsible stewardship of taxpayer dollars necessitates close 
examination of requirements of all types and understanding of their 
associated costs, so that NNSA and DoD can make informed decisions 
about these facilities. To this end, DoD, in cooperation with NNSA, is 
carrying out an independent review of the safety, security, 
environmental and programmatic requirements that drive the cost of 
these facilities. In parallel with, and in support of this effort, a 
separate independent review for UPF is being conducted by the Army 
Corps of Engineers. In addition, the Secretary of Energy, with support 
from independent senior experts, is evaluating program requirements.
    The overriding focus of this work is to ensure that UPF and CMRR 
are built to achieve needed capabilities without incurring cost 
overruns or scheduling delays. We expect that construction project cost 
baselines for each project will be established in FY 2013, after 90 
percent of the design work is completed. The CMRR and UPF will be 
planned in a few critical phases that will enable NNSA to set and track 
performance baselines for these subprojects or ``chunks'' of clearly 
defined work scope to enhance transparency and project execution.

    Ms. Sanchez. What measures are you taking now to ensure that CMRR 
and UPF do not exceed cost and schedule projections?
    Dr. Winokur. Although the Department of Energy (DOE) is responsible 
for the design and construction of defense nuclear facilities required 
to carry out its mission, the Defense Nuclear Facilities Safety Board's 
(Board) enabling statute (42 U.S.C. 2286 et seq) contains specific 
provisions regarding the Board's responsibilities with respect to DOE 
design and construction projects. These responsibilities apply to all 
defense nuclear design and construction projects, including the 
Chemistry and Metallurgy Research Replacement (CMRR) Project and the 
Uranium Processing Facility (UPF).

    <bullet>  REVIEW OF FACILITY DESIGN AND CONSTRUCTION. The Board 
shall review the design of a new Department of Energy defense nuclear 
facility before construction of such facility begins and shall 
recommend to the Secretary, within a reasonable time, such 
modifications of the design as the Board considers necessary to ensure 
adequate protection of public health and safety. During the 
construction of any such facility, the Board shall periodically review 
and monitor the construction and shall submit to the Secretary, within 
a reasonable time, such recommendations relating to the construction of 
that facility as the Board considers necessary to ensure adequate 
protection of public health and safety. An action of the Board, or a 
failure to act, under this paragraph may not delay or prevent the 
Secretary of Energy from carrying out the construction of such a 
facility. [42 U.S.C. 2286a(a)(4)]

    Of note, the Board has spent considerable effort on reviewing (and 
encouraging DOE to review) the design of planned major facilities such 
as UPF and CMRR for safety-related concerns as early as possible in the 
design process. This approach results in a high degree of safety being 
engineered into the facilities' structures, systems, and components, 
and helps avoid unplanned costs associated with retrofitting or 
redesigning facilities to address safety issues recognized belatedly.
    Directly related to this responsibility, in July 2007 a report was 
prepared jointly by the Board and DOE, as requested in the Conference 
Report of the John Warner National Defense Authorization Act for Fiscal 
Year 2007. The applicable portion of the Conference Report is as 
follows:
    <bullet>  The conferees note their concern regarding the untimely 
resolution by the Department of Energy of technical issues raised by 
the Board. The conferees believe that the Board and the Department 
would benefit from a more structured process for issue resolution that 
would allow issues to be raised, evaluated, and adjudicated at logical 
points in the design and construction process. The conferees urge the 
Board to evaluate whether more frequent use of the Board's formal 
recommendation process would drive both parties towards this more 
structured process. The conferees also encourage the Board to take a 
constructive role in the problem-solving process by quickly evaluating 
corrective actions proposed by the Department and its contractors.
    <bullet>  The conferees are encouraged by efforts between the 
Department and the Board to develop a process to provide for more 
timely identification and resolution of technical differences over 
design standards amid other issues at the Department's nuclear 
facilities. Specifically, conferees support the pending revision of the 
Department's Order 413.3 to require critical safety determinations be 
made prior to Critical Decision 1 in the Department's project 
management system. The conferees direct the Board and the Department to 
continue these discussions and to report jointly to the congressional 
defense committees on their efforts to improve the timeliness of issue 
resolution, including recommendations, if any, for legislation that 
would strengthen and improve technical oversight of the Department's 
nuclear design and operational activities. Until such time as this 
report is submitted, the conferees further direct the Board to provide 
to the congressional defense committees quarterly reports to identify 
and report the status of significant unresolved issues. [H.R. Rep. No. 
109-702, at 976 (2006) (Conf. Rep.)]
    The report, prepared jointly by the Board and DOE, describes 
actions that provided for more timely identification and resolution of 
technical issues raised by the Board. Broadly, the actions promoted (1) 
the early identification of safety requirements and strategies at the 
conceptual and preliminary design phases of a project to avoid cost 
increases and schedule delays, and (2) more effective processes or 
protocols for the communication to DOE of issues identified by the 
Board and for the tracking and management of these issues. These 
concerns had arisen primarily as a result of significant cost increases 
and schedule delays due to the untimely resolution of technical safety 
issues during the design of the Waste Treatment and Immobilization 
Plant (WTP) at the Hanford Site. The significant actions include the 
following:

    <bullet>  DOE Order 413.3, Program and Project Management for the 
Acquisition of Capital Assets, was revised to incorporate elements that 
help ensure the early integration of safety into the design process. 
The following are examples of significant changes:

        -   Safety requirements for each critical decision have been 
        identified.

        -   Safety design reports are required at the conceptual and 
        preliminary design stages.

        -   A Technical Independent Project Review, which focuses on 
        safety documentation, is required as part of the Critical 
        Decision-1 review for high-risk, high-hazard, and Hazard 
        Category 1, 2, and 3 nuclear facilities.

        -   The Integrated Project Team membership now includes 
        technical safety experts.

        -   Safety responsibilities during the design process are now 
        defined for DOE's Central Technical Authorities, Chief of 
        Defense Nuclear Safety, and Chief of Nuclear Safety.

    <bullet>  DOE Manual 413.3-1, Project Management for the 
Acquisition of Capital Assets, was revised and converted to a series of 
guides to clarify the requirements of the associated DOE Order and to 
make clearer reference to safety standards and requirements.

    <bullet>  A new standard, DOE-STD-1189, Integration of Safety into 
the Design Process, was developed to provide a detailed description of 
the safety-related design information required to meet the requirements 
of DOE Order 413.3 for integrating safety early into the design. 
Significant elements of this new standard included the following:

        -   The development of a Safety Design Strategy that provides a 
        roadmap for addressing important safety issues as the project 
        progresses.

        -   The development, in the conceptual design stage, of 
        facility-level design basis accidents to provide the necessary 
        input for the classification of important safety functions and 
        systems.

        -   The guidance for the preparation of a Conceptual Safety 
        Design Report, a Preliminary Safety Design Report, and the 
        Preliminary Documented Safety Analysis.

    <bullet>  DOE and the Board are jointly evaluating the 
effectiveness of DOE Order 413.3 and DOE-STD-1189 by demonstrating 
their application to two ongoing defense nuclear facility design 
efforts: the Integrated Waste Treatment Unit at the Idaho National 
Laboratory and the UPF at the Y-12 Nuclear Security Complex. These 
demonstration efforts are providing feedback on the effectiveness of 
actions taken to improve the early integration of safety into design.

    <bullet>  DOE and the Board have reaffirmed the importance of the 
Board's ready access to information as described in the Board's 
legislation: ``The Secretary of Energy shall fully cooperate with the 
Board and provide the Board with ready access to such facilities, 
personnel, and information as the Board considers necessary to carry 
out its responsibilities....'' [42 U.S.C. 2286.c(a)]

    <bullet>  The Board continues to provide Congress with periodic 
reports on the status of significant unresolved issues with DOE design 
and construction projects.

    <bullet>  The Board continues to issue ``project letters'' early in 
the design process to apprise DOE of the status of safety issues raised 
by the Board. These project letters are updated by the Board as the 
project situation requires.

    <bullet>  DOE and the Board are conducting joint periodic 
discussions to review the status of significant unresolved safety 
issues and to allow the Board to evaluate actions being taken to 
resolve these issues. DOE and the Board use these joint periodic 
reviews as a mechanism to maintain senior management awareness of the 
status of these unresolved issues.

    Specific to the CMRR design and construction project (but not UPF), 
on September 4, 2007, the Board submitted to Congress its certification 
report on the design of CMRR. This report was mandated by Congress in 
Section 3112 of the Duncan Hunter National Defense Authorization Act 
for Fiscal Year 2009 [Public Law 110-417]. Section 3112 directed the 
Board to submit a certification to the congressional defense committees 
that concerns raised by the Board regarding design of CMRR safety-class 
systems (including ventilation systems) and seismic issues had been 
resolved. Section 3112 also required that the National Nuclear Security 
Administration (NNSA) perform a parallel CMRR certification review to 
certify that the Board's concerns had been resolved. At that time, the 
CMRR Project was at the end of the preliminary design stage. NNSA has 
continued to develop the CMRR Documented Safety Analysis and the design 
of safety-related structures, systems, and components as the project 
prepares for and proceeds to final design.
    The Board worked closely with NNSA throughout the CMRR 
certification review process to identify the Board's concerns and the 
actions necessary to resolve them. As part of this process NNSA revised 
or agreed to revise the CMRR preliminary design, design requirements, 
and design processes to address these concerns as more fully described 
in the certification report. NNSA also committed to implement detailed 
designs during final design consistent with the specific design 
requirements agreed to as part of the certification process.
    The Board's certification relies upon the future full 
implementation of these final design commitments by NNSA. The Board 
continues to review the design progression for implementation by NNSA 
consistent with these commitments. The Board will reopen issues if 
commitments, as described in the certification report, are not properly 
met during final design.

    Ms. Sanchez. What has been the impact of operating below the FY10 
appropriations levels for until April 2011 and the delayed and reduced 
FY11 appropriations (reduction in $300 million below the FY11 budget 
request), on progress to urgently secure or remove vulnerable nuclear 
weapons-materials. One impact has been NNSA's inability to remove all 
highly-enriched uranium from Belarus as promised by 2012.
    Are you concerned about these reductions and how has this impacted 
our efforts to secure nuclear materials? How has this impacted your 
other non-proliferation programs, since a lot of the funding has been 
reprioritized to cover GTRI efforts? How will funding be allocated in 
FY11?
    Ms. Harrington. During the Continuing Resolution, NNSA allocated 
its reduced FY 2011 budget authority to the highest priorities. NNSA 
ensured that programs supporting the President's commitment to secure 
the most vulnerable nuclear materials around the world in four years 
were funded to the greatest extent possible. In accordance with the 
agreements reached by the President at the April 2010 Nuclear Security 
Summit and the December 2010 Joint Statement with Belarus, NNSA has 
allocated funding to complete highly enriched uranium (HEU) removals/
downblending from Ukraine, Belarus, Serbia, Kazakhstan, and South 
Africa in FY2011 and has fully funded efforts needed in FY 2011 to 
remove all remaining HEU from Ukraine, Mexico and Belarus by April 2012 
despite the lower than expected FY 2011 budget. However, the Global 
Threat Reduction Initiative (GTRI) postponed long-lead procurement and 
preparation activities for HEU removals from Vietnam and Hungary due to 
lack of funding, which will delay these shipments from 2012 to 2013, 
assuming full and on-time arrival of FY 2012 requested funding.
    Additionally, GTRI efforts related to research reactor conversion 
and radiological material security have been significantly reduced in 
FY 2011, and may be reduced in FY 2012 and FY 2013 in order to 
accommodate accelerated nuclear material lockdown efforts. Reductions 
include fewer HEU reactors converted to LEU in FY 2011 and FY 2012 than 
planned, an approximately two-year delay in creating domestic non-HEU 
based Mo-99 supply, an approximately two-year delay in development of a 
new LEU high density fuel to convert high performance research 
reactors, and fewer radiological recoveries and security upgrades both 
domestically and internationally.

    Ms. Sanchez. DOD in its budget request roll-out documents listed 
the proliferation of weapons of mass destruction (WMD) as one of the 
top strategic challenges to US national security.
    a) How does DOD support nuclear non-proliferation efforts and 
please detail what progress has been made on interagency coordination 
and what challenges remain?
    b) DOD plans to transfer funds to NNSA to support weapons 
activities in FY13 through FY16. Will DOD have a say on where its money 
is spent?
    Secretary Weber. (a) DoD actively supports interagency and 
international efforts to enhance U.S. leadership in global non-
proliferation activities. The Administration's efforts to strengthen 
the global non-proliferation regime through the Nonproliferation Treaty 
(NPT), Comprehensive Test Ban Treaty (CTBT), and Fissile Material 
Cutoff Treaty (FMCT) are instrumental to raising barriers to WMD 
proliferation.
    We continue to participate actively with the Department of State 
and other interagency colleagues to implement the Action Plan adopted 
by the May 2010 NPT Review Conference.
    In addition, the United States' ``negative security assurance'' set 
forth in DoD's 2010 Report of the Nuclear Posture Review is clear: 
``The U.S. will not use or threaten to use nuclear weapons against non-
nuclear weapons states that are party to the Nuclear Non-Proliferation 
Treaty and in compliance with their nuclear non-proliferation 
obligations.'' This assurance underscores the security benefits of 
adhering to, and complying fully with, the Non-Proliferation Treaty. 
With regard to the CTBT, DoD will remain fully engaged in development 
of the Treaty's verification regime. At the same time, we remain 
committed to maintaining a safe, secure, and effective nuclear 
deterrent for our security and that of our allies. Finally, DoD 
continues to support FMCT-related discussions among technical experts 
in the UN Conference on Disarmament FMCT. These discussions are not a 
substitute for actual negotiations, but hopefully they will foster 
greater appreciation of key technical issues.
    Our nonproliferation activities are not limited to these formal 
regimes. The United States recognizes the importance of multilateral 
activities and mechanisms that help to prevent proliferation, such as 
the Proliferation Security Initiative (PSI) and the Nuclear Security 
Summit. DoD is working with interagency partners to focus our PSI 
efforts on promoting key interdiction capabilities, identifying 
resources to support these capabilities, and designing strategies to 
engage nations proactively in the capacity-building process. The 
momentum and specific non-proliferation accomplishments generated by 
the Nuclear Security Summit were impressive, and DoD will support 
follow-on actions in preparation for the next Nuclear Security Summit 
in Spring 2012.
    DoD also supports nuclear non-proliferation efforts by conducting 
and enabling on-site inspections in implementation of arms control 
treaties such as New START Treaty, and through the development of 
technology to support these inspections.
    In a related fashion, collaborative training interaction (e.g., the 
International Counter-Proliferation program) with other countries in 
concert with other U.S. Government (USG) agencies encourages important 
border security improvements in the overall international capacity to 
identify and interdict WMD materials before they become a real threat.
    The Cooperative Threat Reduction (CTR) Program serves as a critical 
DoD contribution to the overall USG non-proliferation framework. Under 
the CTR Program, DoD contributes, in cooperation with other U.S. 
Government entities and international partners, to the implementation 
of the President's global nuclear lockdown initiative to eliminate, 
remove, and secure vulnerable nuclear materials.
    Interagency coordination on all of these activities has been 
effectively led by the National Security Staff (NSS) through the 
Interagency Policy Committee structure. At the working level, DoD 
coordinates on a daily basis with the National Nuclear Security 
Administration (NNSA), the Department of Homeland Security Domestic 
Nuclear Detection Office, the Department of State, and the intelligence 
community.
    DoD has strengthened its collaboration at the senior level with 
NNSA by holding quarterly, Assistant Secretary-level bridge meetings 
and by institutionalizing several working groups to develop new joint 
projects to support nuclear nonproliferation. DoD also cooperates 
closely with counterparts in NSS, NNSA, and Department of State to 
support preparations for the 2012 Nuclear Security Summit.
    (b) DoD plans to transfer $2.2B from FY13-16 to support NNSA's 
nuclear weapons activities. Funds will be allocated annually to NNSA 
for program activities endorsed by the DoD-led Nuclear Weapons Council. 
These funds are in addition to the $5.7B DoD transfer to NNSA for 
nuclear weapons and naval reactor programs and demonstrate the 
commitment of the Administration to fund fully the investments needed 
to sustain a safe, secure, and effective nuclear arsenal for the long 
term.
    The NWC will continue its current role of reviewing nuclear weapons 
requirements for DoD, and will be increasingly active in assisting NNSA 
in its efforts to constrain costs. NNSA budget requests to Congress 
will be adjusted as necessary--up or down--based on the best 
information available at the time.
    Ms. Sanchez. What is the Defense Threat Reduction Agency (DTRA) 
doing to support verification and detection improvements that will 
support further nuclear weapons reductions and the Comprehensive test 
Ban Treaty? What are the challenges that remain?
    Secretary Weber. Until the Comprehensive Nuclear Test-Ban Treaty 
(CTBT) enters into force, DTRA's role is focused on developing CTBT-
related detection and verification technologies, establishing on-site 
inspection procedures, and testing and preparing for potential 
inspections in the United States through various tabletop and planning 
exercises.
    DTRA is a member of the DoD Nuclear Test-Ban Implementation Working 
Group and supports the Interagency Verification and Monitoring Task 
Force (VMTF) and Backstopping Group. DTRA serves as the co-chair of the 
VMTF's On-Site Inspection Subgroup and as a member of the Radionuclide 
Subgroup.
    DTRA is developing technology to improve our ability to detect 
evasive and low-yield nuclear testing in support of the CTBT, and to 
support warhead counting and identification for future arms reduction 
agreements that may include non-strategic weapons. DTRA's technology 
development program emphasizes the improvement of DoD capabilities to 
conduct on-site inspections for a variety of treaties.
    Remaining technology challenges include improving our ability to 
detect evasive underground nuclear weapon testing and our ability to 
characterize and identify nuclear warheads without revealing sensitive 
information. Another key challenge is improving our ability to detect 
on-site or remote signatures associated with the production of special 
nuclear materials.
    Ms. Sanchez. With the Advanced Systems and Concepts Office (ASCO) 
being eliminated due to efficiencies, who will implements the important 
function of long-term thinking on non-proliferation and arms control in 
DOD/DTRA? How will this function be affected by this organizational 
change?
    Secretary Weber. With the closure of the Advanced Systems and 
Concepts Office (ASCO), the Strategy and Plans (SP) Enterprise in DTRA, 
which previously managed ASCO, will continue to manage and sustain the 
function of long-term thinking on non-proliferation and arms control.
    While reducing overhead costs by eliminating the old organizational 
structure of ASCO, DTRA is improving management efficiency to implement 
most of the functions that ASCO previously performed, and those 
functions will still be accomplished within DTRA.

    Ms. Sanchez. Could you outline what force structure shifts you are 
considering to implement New START? Will these changes enable us to 
meet requirements into the future, and be flexible to allow further 
reductions later?
    General Chambers. Per Section 1251 of the 2011 National Defense 
Authorization Act, to meet the New START central limits, the 
Administration plans to convert or eliminate some ICBM launchers, SLBM 
launchers and nuclear-capable heavy bombers. Air Force planning efforts 
are focused on complying with the limits dictated in the Section 1251 
report of up to 420 ICBMs and up to 60 nuclear capable bombers. The 
procedures established in New START allow for simpler and less 
expensive conversion and elimination than provided for in the previous 
START. These new procedures are expected to enable DoD to meet national 
security requirements and implement future conversions and eliminations 
more expeditiously and at lower cost.
    Ms. Sanchez. According to budget documents, the Air Force has been 
provided with over $10 billion (when adjusted for inflation) since FY 
1997 to refurbish the Minuteman III ICBM. Can you talk about the 
upgrades that have already been made and upgrades that are planned to 
extend the life of the Minuteman III to 2030?
    General Chambers. Since FY97 required system updates and life 
extension programs were executed to the MM III weapon system based on 
results from aging surveillance and other assessment programs. In 2002, 
based on decisions stemming from a Nuclear Posture Review, Air Force 
life requirements for MMIII were extended to require sustainment of a 
500 missile force through FY20. To meet this requirement various 
upgrades and Life Extension Programs (LEPs) were conducted to cover 
multiple aspects of the MM III weapon system and involved numerous 
tests, calibration, flight testing and other related support equipment 
upgrades. Significant upgrades to the MM III included a complete 
Propulsion Replacement, a Guidance upgrade/replacement and an ICBM 
Cryptography Upgrade (Phase I and Phase II).
    In 2007, the National Defense Authorization Act directed the 
sustainment of a 450 MMIII missile force at ``operational 
specification'' through FY30. To meet this new requirement the Air 
Force plans on continued LEPs to extend MM III life through 2030. Some 
significant aspects of the MM III to be upgraded in future programs 
include an ICBM Fuze Modernization program, a Solid Rocket Motor 
Modernization program and a Guidance Life Extension Program. The Air 
Force will continue refurbishments where modern components replace 
obsolete parts and conduct upgrades to the MM III as aging, 
surveillance and other assessment programs identify a need to do so.

    Ms. Sanchez. Could you outline what force structure shifts you are 
considering to implement New START? Will these changes enable us to 
meet requirements into the future, and be flexible to allow further 
reductions later?
    Admiral Benedict. As outlined in the updated 1251 Report, the Navy 
will convert four SLBM launchers on each of its existing 14 SSBNs, 
thereby stabilizing the number of SSBNs to be maintained and 
facilitating Navy planning for the OHIO Class submarine replacement. By 
maintaining all 14 OHIO Class SSBNs, each with 20 SLBM launchers, the 
Navy continues to meet current and future requirements while 
simultaneously being flexible to allow for further reductions. The Navy 
is ensuring plans for the OHIO Replacement submarine are informed by 
new START as OHIO Class SSBNs begin to retire in 2027.
    Consistent with the guidance in the Nuclear Posture Review, the 
resultant force structure will retain the ability to ``upload'' some 
nuclear warheads as a technical hedge against future problems with U.S. 
delivery systems or warheads, or as a result of a fundamental 
deterioration of the security environment. If further reductions are 
desired, either additional reductions of warheads on the deployed 
missiles or conversion of more launchers on each of the existing 14 
SSBNs are possible. These decisions will be made external to the Navy, 
but Navy implementation plans provide considerable flexibility to the 
decision makers and do allow for a wide range of options if future 
force changes are needed.
    Ms. Sanchez. What are your concerns about the solid rocket 
industrial base and what is the plan moving forward as DOD will bear 
higher costs to sustain a lower production rate?
    Admiral Benedict. The Navy is concerned that the decline of the 
Solid Rocket Motor industry has placed a heavy burden on Navy 
resources. The Navy is maintaining a continuous production capability 
at a minimum sustaining rate of twelve rocket motor sets per year 
through the Future Years Defense Plan (FYDP). However, SSP has faced 
significant cost challenges as both NASA and Air
    Force demands have declined. Reduced industrial demand has resulted 
in overhead costs spread over a smaller customer base. The Navy's 
growing percentage of the Solid Rocket Motor business base has already 
resulted in increased unit costs. SSP will continue to experience those 
cost increases if demand shrinks further in coming years.
    SSP is working with our industry partners, DoD, NASA, and Congress 
to sustain the Solid Rocket Motor industrial base, mitigate cost 
increases, and find ways to maintain successful partnerships. The OSD 
(Industrial Policy)-led Inter Agency Task Force, with membership from 
Navy, the Air Force, OSD, working with the Missile Defense Agency and 
NASA, developed a Solid Rocket Industrial Base Sustainment Plan. SSP 
has been an integral part of this process. Continued collaboration is 
necessary to find an inter-agency solution to maintain this crucial 
national capability.
    Ms. Sanchez. According to the Navy, the SSBN(X) program ``is 
inextricably linked to legacy SSBN retirements. The latest start for 
the lead SSBN(X) is FY 2019 and the replacements must start reaching 
the operational force by FY 2029. There is no leeway in this plan to 
allow a later start or any delay in the procurement plan.''
    a) Has there been any impact from the delay in FY11 appropriations 
on the Navy's plan to develop and procure the first SSBN(X) in FY 2019?
    b) Are you concerned about any impacts in naval reactor development 
that might have resulted from the delayed appropriations?
    Admiral Benedict. a) The OHIO Replacement (OR) FY 2011 request was 
$493 million. Due to the Continuing Resolution, only $237.8 million has 
been released to date. The Continuing Resolution has resulted in a 
delay in procuring of fixture manufacturing and long lead time material 
that supports Common Missile Compartment prototyping efforts.
    The OHIO Replacement program was marked $51.6 million ($49.3 
million Congressional reduction and $2.3 million for economic 
assumptions), for a revised FY 2011 control of $441.4 million. This 
$51.6 million FY 2011 reduction increases the technical risk to meet 
the established cost targets. It also impacts execution of the OR build 
strategy which requires design maturity to support a FY 2019 
construction start. Due to the reduction in FY 2011 funding the program 
will be required to delay procurement of fixtures that facilitate 
Common Missile Compartment (CMC) component development, fabrication and 
integration. The program will also have to reduce manning levels which 
will adversely impact missile tube design completion, ship length 
decision, and ship specifications. The serial nature of some design 
products will result in a lower design maturity than goal at 
construction start with attendant increased construction cost and 
future potential delay in construction start.
    The program will be required to request funding for restoration of 
this FY 2011 $49.3 million Congressional reduction in future budget 
requests.
    b) The OHIO Replacement is being designed to have a life-of-ship 
core, which will reduce the SSBN force level by 2 ships. In addition to 
the delayed appropriations this year, in each of the last two years 
Naval Reactors' Department of Energy funding (which supports the life-
of ship core) has been cut by the Appropriations Committee ($58 million 
in FY2010 and over $100 million in FY11). Some of this funding was for 
OHIO Replacement and therefore these cuts will impact the timely 
completion of Naval Reactors' development. Naval Reactors has stated 
that the current cuts to OHIO Replacement will result in delays of at 
least six months to the design and delivery of the reactor plant, and 
commensurate delays to the delivery of the lead ship.
    Ms. Sanchez. Last month Deputy Defense Secretary William Lynn 
stated that the cost of the SSBN(X) program will be shouldered by 
diverting funds from other naval and Pentagon programs and perhaps by 
boosting the defense budget, but the program should not get its own 
special funding stream. However, some voices within the Navy have 
talked about treating the new submarine as a national strategic asset 
that is funded outside the Navy's budget as has been done with other 
programs, such as our missile defense program. Has a decision been made 
one way or another on this issue?
    Admiral Benedict. As the Undersecretary of Defense for Acquisition, 
Technology, & Logistics (USD(AT&L)), Dr. Ashton Carter, testified 
before the House Appropriations Committee's Defense Subcommittee (HAC-
D) on 13 April 2011, the position of the Office of the Secretary of 
Defense remains that the OHIO Replacement Program will be funded within 
the Navy's shipbuilding account.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. Dr. Triay, I understand that DOE conducted an 
independent review of the safety culture at the Hanford Waste Treatment 
Plant project. What were the results of that review and how would you 
describe the state of the safety culture on this project?
    Secretary Triay. During August 2010 and September 2010, the 
Department's Office of Health, Safety and Security (HSS) conducted an 
independent review of the nuclear safety culture of the Waste Treatment 
Plant (WTP) project. The report, issued in October 2010, concluded that 
the framework for a strong safety culture has been established, and 
that overall, managers encourage employees to raise questions or 
concerns. The report also noted that,

    ``Most ORP personnel indicated their belief that the nuclear safety 
culture within ORP is strong and improving. Although a limited number 
of individuals had varying concerns, the majority of ORP personnel who 
were interviewed expressed positive views of the nuclear safety culture 
and current senior management.''

    ``Although improvements are needed in some areas, BNI and its 
subcontractors have established the framework for a strong nuclear 
safety culture at WTP.''

    The report included the following six recommendations.

    For the Office of River Protection (ORP):

    1. Based on the outcome of the Federal Project Director's WTP 
Management Assessment Report, ORP should institutionalize the processes 
and formally define the roles and responsibilities and clarity 
interfaces between the WTP Federal organization and the other ORP 
organizations (e.g., Engineering and Nuclear Safety, Environmental 
Safety and Quality, and Tank Farm Project); and

    For the WTP prime contractor, Bechtel National Inc. (BNI):

    2. Perform a systematic assessment of the existing processes for 
identifying and resolving nuclear safety issues, with particular 
emphasis on root cause analysis of problems involving the initial 
identification of issues;

    3. Establish a formal change management process that identifies the 
actions needed to ensure that safety programs are not degraded by 
changes in project status or priorities;

    4. Identity mechanisms to strengthen trust among the workforce and 
better communicate information to employees;

    5. Include actions and elements in the development and 
implementation of the NSQC Plan to ensure that it results in 
sustainable and continuous improvement in the nuclear safety and 
quality culture at the WTP; and

    6. Examine all credible concerns to ensure that the nuclear safety 
culture does not degrade over time and to better determine the extent 
of the concerns.

    In addressing the first recommendation, ORP has updated its Project 
Execution Plan to institutionalize processes, formally define roles and 
responsibilities, and clarify interfaces between the WTP Federal 
organization and the other ORP organizations. In December 2010, BNI 
responded to recommendations two through six above with an action plan 
and a forecast date to have all actions complete by September 30, 2011. 
The ORP Project Team reviewed the proposed responses and notified BNI 
that the improvements proposed were ``well aligned with the intent of 
the HSS recommendations'' and that in early FY 2012, ORP will conduct a 
review to verify their effectiveness.
    The Department of Energy has a strong history and culture of safety 
in working with unique nuclear hazards and facilities. EM stands by its 
safety record and the nuclear safety culture of the Department 
including the Waste Treatment Plant project. The safety of our workers 
and the public is of fundamental importance to our projects.
    Mr. Larsen. Dr. Triay, can you please share the status of technical 
issues regarding the Waste Treatment Plant project? Are these issues 
considered to be open or closed? What remaining work needs to be done 
to address these issues?
    Secretary Triay. The Waste Treatment Plant (WTP) project continues 
to make significant progress toward resolution of technical issues. 
Design and engineering of the WTP is now approximately 81 percent 
complete. In 2010, the Department of Energy (DOE) commissioned a review 
of the WTP to evaluate several aspects of the project, including a 
technical design review to address and provide advice on the following 
areas: 1) whether technical risks have been adequately addressed in the 
design, and 2) whether the design is sufficiently mature to allow 
proceeding with needed procurement and construction activities to meet 
WTP requirements. That review identified no additional specific 
technical issues beyond those already being addressed by the project. 
The three technical issues currently open are:

        1)   adequacy of pulse jet mixing technology in process 
        vessels;

        2)   potential for a flammable gas event in piping in ancillary 
        vessels; and,

        3)   selection of a value for a parameter that is used to 
        determine radiological impacts to members of the public in an 
        accident scenario (deposition velocity).

    Final closure actions for these three technical issues are nearing 
completion. Further details are provided below.

    Pulse Jet Mixing (PJM):

    The DOE believes the remaining uncertainty regarding use of PJM 
technology at the WTP is being addressed by the approach presented 
during the October 7-8, 2010, Defense Nuclear Facilities Safety Board 
(DNFSB) public hearing on WTP, and in our supplement to the public 
hearing record submitted to the DNFSB in January 2011. In December 
2010, the DNFSB issued a recommendation (DNFSB 2010-2) to the Secretary 
with specific sub-recommendations it believes need to be addressed 
during the conduct of our Large Scale Integrated Testing (LSIT) 
process. The Implementation Plan for addressing DNFSB 2010-2 is under 
development and is being communicated to DNFSB staff. The first 
increment of LSIT will test mixing system performance limits. The 
satisfactory completion of this increment will provide the assurance 
needed to complete fabrication and proceed with on-time installation of 
vessels in the Pretreatment Facility. Follow-on increments of the LSIT 
will focus on optimizing operational performance of WTP, and tank waste 
processing and feed delivery system performance. An Independent Review 
Team of national experts has been retained to review the technical 
parameters and decisions resulting from the LSIT process.

    Hydrogen in Piping and Ancillary Vessels (HPAV):

    In its April 15, 2010, periodic report to Congress, the DNFSB 
expressed concern ``that many changes to the design of WTP are being 
approved by the DOE prior to the resolution of numerous outstanding 
technical issues.'' In an effort to resolve this concern, the DNFSB 
suggested a comprehensive, independent, expert-based review of the 
safety design strategy for control of hydrogen in pipes and ancillary 
vessels. This led to the formation of the HPAV Independent Review Team 
(IRT).
    The IRT consisted of experts that evaluated the WTP approach for 
addressing HPAV events in three areas: 1) quantitative risk assessment 
to evaluate the potential frequency and magnitude of hydrogen events; 
2) gas phenomena; and 3) structural. The HPAV IRT concluded that the 
design approach for HPAV piping and components is acceptable, provided 
that the project resolves the findings identified by the team. The 
project is currently in the process of completing its efforts to 
address and close the HPAV IRT findings.
    The Office of Environmental Management (EM) has high confidence 
that the HPAV design approach yields a superior design for WTP that not 
only complies with DOE safety policies but assures the operational 
reliability necessary for efficient achievement of the critical waste 
treatment mission to safely treat Hanford's radioactive liquid waste.

    Deposition Velocity:

    In May 2010 and again in July 2010, the DNFSB communicated its 
concerns to the Department regarding the WTP's selection of a value 
that is used in determining the radiological dose consequences to a 
member of the public in the event of an accident. In response to these 
concerns, the Department's Chief of Nuclear Safety prepared a technical 
analysis using recognized subject matter experts, recommending an 
appropriate value for this parameter, but suggesting that the WTP 
project could adopt a more conservative value as it deemed appropriate. 
Subsequently, DOE forwarded this recommendation to the WTP contractor 
requesting that it evaluate the analyses and make a recommendation back 
to DOE on selection of an appropriate value. The contractor is expected 
to complete its evaluation and make a recommendation for use of the 
value by the end of May 2011. The Department expects this value will be 
consistent with the DNFSB's recommended values.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH
    Mr. Heinrich. Mr. Administrator, I am concerned that the FY12 
President's Budget Request does not include funding for the 
recapitalization of Sandia's MESA fabrication facility. Without 
funding, the fabrication facility may be at risk of becoming obsolete 
by industry standards and unable to fully support next generation 
microelectronics for stockpile systems.
    Can you please speak to the importance of funding equipment and 
infrastructure recapitalization at MESA's fabrication facility in the 
current and upcoming budget cycles?
    Can you also explain what plans the Administration has in place to 
do so?
    Secretary D'Agostino. The MESA fabrication facilities are comprised 
of a Microelectronics Development Laboratory (Silicon fabrication 
facility) built in 1986 and a recently completed Micro-fabrication 
facility which came on line in 2005. The MESA recapitalization 
addresses facility upgrades, equipment retooling, and the Silicon 
Fabrication Retooling (SSiFR), in the 1986 Silicon fabrication 
facility.
    The NNSA will upgrade the Silicon fabrication facility by replacing 
high risk items such as the acid exhaust system and the chase ceiling 
tiles, both of which are original to this 25-year old facility. 
Additionally, the SSiFR effort is also necessary, and will enable 
production of the Application Specific Integrated Circuits (ASICs) that 
are needed to support the life extension needs of the B61, W78 and W88.
    The current Life Extension Program (LEP) schedule shows all three 
LEPs running in parallel. In addition, the W78 and W88 LEPs will 
require prototyping of the strategically hardened ASICs and other 
components in parallel with B61 War Reserve production. As a result, 
heavy demands will be placed on the existing facilities thus 
necessitating their upgrade and equipment retooling.
    Recapitalization is planned to be executed in distinct phases over 
four years, with emphasis on replacement of the highest risk tools as 
part of the SSiFR effort. Facility infrastructure and upgrades will 
proceed in parallel with SSiFR work. The phased execution would be 
implemented in such a way that the production capability of the 
facility would not be impacted during the prototype and War Reserve 
production.
    A prioritized plan for the phased execution of SSiFR 
recapitalization will be completed in FY2011. The SSiFR effort will 
begin in FY2012, and is expected to cost $80M. The facility upgrades (a 
series of expense and general plant projects expected to cost $20M) 
will begin in 2013. NNSA expects to complete these upgrades by FY 2016.

    Mr. Heinrich. I was pleased to see $25M included in the FY12 
President's Budget Request for the construction of the AF Nuclear 
Weapons Center Sustainment Center at Kirtland Air Force Base.
    I understand this facility will allow our nation to track, monitor 
and provide ``positive inventory control'' for all Air Force Nuclear 
Weapons Related Material world-wide.
    Can you please talk a little more about the value this facility 
will bring to our nuclear weapons enterprise?
    General Chambers. The Sustainment and Integration Center (STIC) 
will provide a single hub for tracking nuclear weapons and related 
material. The STIC will be manned 24 hours-a-day, 365 days-a-year to 
monitor and provide real-time information on the condition and location 
of nuclear weapons and Nuclear Weapons Related Materials, maintain 
communication with key DoD and DOE command centers, and to provide 
state-of-the-art capabilities in support of effective crisis management 
and corrective action responses, if required.

                                  <all>

</pre></body></html>
